<html>
<title> - FORECASTING SUCCESS: ACHIEVING U.S. WEATHER READINESS FOR THE LONG TERM</title>
<body><pre>[Senate Hearing 113-594]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-594
 
 
               FORECASTING SUCCESS: ACHIEVING U.S. 
               WEATHER READINESS FOR THE LONG TERM

=======================================================================

                                HEARING

                               BEFORE THE

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 OF THE 

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 12, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                      U.S. GOVERNMENT PUBLISHING OFFICE
93-659                     WASHINGTON : 2015                      
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1671667956756365627e737a663875797b38">[email&#160;protected]</a>  







       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
EDWARD MARKEY, Massachusetts         RON JOHNSON, Wisconsin
CORY BOOKER, New Jersey
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

MARK BEGICH, Alaska, Chairman        MARCO RUBIO, Florida, Ranking 
BILL NELSON, Florida                     Member
MARIA CANTWELL, Washington           ROGER F. WICKER, Mississippi
RICHARD BLUMENTHAL, Connecticut      KELLY AYOTTE, New Hampshire
BRIAN SCHATZ, Hawaii                 DAN COATS, Indiana
                                     TIM SCOTT, South Carolina
                                     TED CRUZ, Texas
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 12, 2013................................     1
Statement of Senator Begich......................................     1
Statement of Senator Rubio.......................................     3
Statement of Senator Wicker......................................     4
Statement of Senator Klobuchar...................................     5
Statement of Senator Schatz......................................     5
    Letter dated December 11, 2013 to Hon. Mark Begich and Hon. 
      Marco Rubio from Robert Gagosian, President and CEO, 
      Consortium for Ocean Leadership............................     6
Statement of Senator Blumenthal..................................    57

                               Witnesses

Dr. Louis W. Uccellini, Assistant Administrator for Weather 
  Services, and Director of the National Weather Service, 
  National Oceanic And Atmospheric Administration, U.S. 
  Department of Commerce.........................................     8
    Prepared statement...........................................    10
William B. Gail, Ph.D., Co-founder and Chief Technology Officer, 
  Global Weather Corporation (GWC); President-Elect, American 
  Meteorological Society (AMS) and Member, Committee on the 
  Assessment of the National Weather Service's Modernization 
  Program, National Research Council of the National Academies...    26
    Prepared statement...........................................    28
A. Thomas Young, Chair, Satellite Independent Review Team, NOAA..    34
    Prepared statement...........................................    35
Barry Lee Myers, Chief Executive Officer, AccuWeather, Inc.......    36
    Prepared statement...........................................    37
Richard J. Hirn, General Counsel and Legislative Director, 
  National Weather Service Employees Organization................    44
    Prepared statement...........................................    46
Lee E. Ohanian, Professor of Economics, and Director, Ettinger 
  Family Program in Macroeconomic Research, UCLA.................    50
    Prepared statement...........................................    52

                                Appendix

Letter dated December 12, 2013 to Hon. Mark Begich from Conrad C. 
  Lautenbacher, Jr. VADM USN ret., CEO and Director, GeoOptics, 
  Inc............................................................    61
Response to written questions submitted to Dr. Louis W. Uccellini 
  by:
    Hon. Marco Rubio.............................................    62
    Hon. Dan Coats...............................................    63
Response to written questions submitted by Hon. Marco Rubio to 
  William B. Gail................................................    64
Response to written question submitted to A. Thomas Young by:
    Hon. Marco Rubio.............................................    64
    Hon. Dan Coats...............................................    65
Response to written questions submitted by Hon. Marco Rubio to:
    Barry Lee Myers..............................................    65
    Lee E. Ohanian, Ph.D.........................................    68


FORECASTING SUCCESS: ACHIEVING U.S. WEATHER READINESS FOR THE LONG TERM

                              ----------                              


                      THURSDAY, DECEMBER 12, 2013

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:32 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. We'll call this meeting to order, the 
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard, 
on forecasting success. What a better day to have on weather, 
to talk about it, where Alaska is warmer and the rest of the 
country is colder.
    Senator Klobuchar. That would be minus 20 wind chill in 
Minnesota.
    Senator Begich. See that? We had 29 degrees in Anchorage 
yesterday positive.
    Senator Klobuchar. We won't talk about Hawaii.
    Senator Schatz. 82.
    Senator Begich. Yes. Senator Schatz can now leave the room.
    [Laughter.]
    Senator Begich. Thank you all very much for being here.
    Senator Wicker. It's been December all month in 
Mississippi.
    Senator Begich. Does that mean it's gift time, too?
    We thank the members for being here today. We are here 
today to discuss the future of the weather enterprise in the 
United States. By that we mean the unique public-private 
partnership between the National Weather Service and their 
private sector academic partners. This is no doubt--there is no 
doubt this partnership is key to our physical, economic, 
environmental system.
    Economists tell us 30 percent of all U.S. economic activity 
is in the weather-dependent sectors, like aviation, 
agriculture. Extreme weather events, like tornadoes and 
hurricanes, and climate events like droughts are increasingly 
frequent. In 2012 we saw 11 weather and climate disasters that 
exceeded $1 billion in damages, including the historic 
Superstorm Sandy.
    My home state of Alaska certainly has its share. In the 
winter of 2011 a blizzicane, as we call it, struck the state 
with hurricane-force winds over an area that would have 
stretched from San Diego to Seattle in the lower 48. Just last 
winter we had historic flooding in the town of Galena.
    Increasing weather disasters mean we are more and more 
reliant on the weather enterprise to keep us safe and protect 
our economic prosperity. I like to think of making weather 
forecasts like farming. There's lots of data out there, things 
like temperature and humidity and barometric pressure, which 
one could say are like the crops in the field. Just like you 
need some pretty expensive combines and other farm equipment to 
go out and gather crops, we need some pretty expensive 
satellites and radars to harvest the data.
    That part is extremely capital-intensive, which is why we 
are here today, to talk about the importance of satellites so 
much here regarding our budgets and other issues that regard 
NOAA, the weather, and the satellite issues.
    At some point, the gathered crops get processed into 
consumable food and sold by retail outlets to the general 
public. We do the same thing with data. We process it with 
computer models into forecasts the general public can use and 
make it available through the Internet and other media. We rely 
mostly on the government to harvest the data and process it 
into forecasts, although the private sector has a role there, 
too. As we rely largely on private sector partners to get the 
forecasts out to the public, this means, though, that thinking 
your weather forecast comes from Weather.com is like thinking 
your food comes from the grocery store.
    Alaskans know better. We know better than most where our 
food comes from. Don't get me wrong. Ninety percent of 
Americans get their weather information from retail forecasters 
like the Internet or local television. They are a critical part 
of the system. But they are only one link in a much longer 
chain, a chain that starts with NOAA and the National Weather 
Service.
    That's why discussion of the future of the Weather Service 
is so important. There have been several studies of the Service 
in the past years by places like the National Academy of 
Science and the National Academy of Public Administration. They 
all point to past successes in modernization and modernizing 
the service, but point out the need for continuing changes and 
improvements. They say we need to build a Weather-Ready Nation.
    The Service has a new leader, Dr. Louis Uccellini, and I 
have met with him yesterday. We had a great conversation, and 
his sense of urgency is clearly not only shared from my 
perspective, but he clearly understands the need of looking at 
the modernization of our weather system.
    There is much work for Congress, for the Service, and for 
the weather enterprise to do to achieve the Weather-Ready 
Nation goal. We need a better understanding of the human 
factors, how people respond to weather information and how the 
public can act appropriately when the threat becomes severe. We 
will need to refocus the weather workforce to focus more on 
partnering and communicating with emergency managers and local 
stakeholders, to ensure forecasts are acted on.
    We will need to adopt a culture of continuous technology 
improvements instead of big bang periods of intense change 
followed by relative stagnation. And we will need to improve 
our weather and climate research and research into operations 
processes to ensure the U.S. remains the leader in weather 
forecasting. There will be significant challenges. We need 
Weather Service management and the employees union to work well 
together to bring about these changes. The successful 
modernization of the Service in the past hinged on cooperation 
between the union and management, and we will need to do this 
in times of extremely tight budgets. Indeed, Weather Service 
budgets in constant dollars have declined by 2 percent since 
2004.
    I look forward to this hearing and the many discussions 
that we'll have and again to make sure that the U.S. is second 
to none in protecting lives and property when it comes to 
weather forecasts and weather-related threats.
    Let me turn to my Ranking Member, Senator Rubio, for his 
opening comments.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Mr. Chairman, for holding this 
hearing. Thank you, Senator Schatz, for requesting it, and to 
all of you for being here today.
    Weather forecasting is important. We rely on it for daily 
decisions that we make in our private lives, but also in the 
commercial sector. From farmers to fishermen, forecasting is a 
very important part of their daily lives. For example, in 
Florida every person, family, and business, including my own, 
very closely follows the hurricane season. Every single 
tropical storm and every hurricane during the hurricane season, 
you can just imagine we're keeping a close eye on it.
    The 2013 Atlantic hurricane season, by the way, was 
predicted to be an above-average season, with an above-average 
number of storms. Between 13 and 20 named storms and 3 to 6 
major hurricanes were forecasted. Yet we are thankful that that 
was wrong, at least for Floridians, because it ended on 
November 30 as the sixth least active hurricane season since 
1950, and for that we should take some credit, right?
    [Laughter.]
    Senator Rubio. Anyway, I understand that the National 
Weather Service used a new forecasting model for the 2013 
season. So one of the things I would like to hear a little bit 
more about today is why this model was chosen and whether or 
not we want to use it again in the future.
    Additionally, as we all know, there has been several 
reports on the structure and the function of the National 
Weather Service, including reports by the National Academy of 
Sciences and the National Academy of Public Administration. One 
of those reports indicated that there has been no change in 
baseline staffing since the modernization and associated 
restructuring that occurred in 2000, despite pretty significant 
technological advances.
    After the modernization, the Weather Service was reduced to 
about 4,700 positions, in spite of some calls for reducing the 
workforce to an even lower number. However, in 2012 the 
National Weather Service had grown again, to over 4,900 
employees. Last year 61 percent of the National Weather 
Service's budget went to labor costs.
    I'm concerned that as we review the agency and work to not 
only maintain a robust forecasting system, but also address 
potential future data gaps due to satellite launch delays, the 
demands of the workforce may work against our efforts to 
streamline and to find efficiencies. As we'll hear today from 
Dr. Ohanian, the achievements of the National Weather Service 
Employees Organization, often contradict and impede the 
agency's ability to implement some external recommendations, 
for example those made by the National Academy of Public 
Administration.
    We've seen the impact that public sector unions have had on 
places like Wisconsin and on Detroit and, while I don't think 
we're that far down the line at the National Weather Service, I 
think it's important that we address any inefficiencies on the 
front end before it is too late.
    I would also like to better understand how we can best work 
together as we find the most productive path forward for the 
National Weather Service.
    Finally, I believe our commercial sector for weather 
forecasting plays a real vital role, both today and in the 
future. As we face data gaps as soon as 2016, we have to find 
ways to leverage our secondary value chain in creative ways. I 
look forward to hearing testimony from our witnesses today as 
to exactly how best we can use our commercial sector to make 
our forecasting system the premier system that I believe it can 
continue to be.
    So thank you again, Mr. Chairman, for holding this hearing 
and I really do look forward to the testimony.
    Senator Begich. Thank you very much.
    I'll ask members if they have any comments they want to 
make before we start with the Q and A and the statement. 
Senator Wicker, and then Senator Klobuchar, and then Senator 
Schatz.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Well, thank you very much. I appreciate the 
opportunity to make an opening statement, because we're going 
to have votes and we'll be going in and out.
    Is it ``YOU-chell-EE-nee''?
    Dr. Uccellini. Yes.
    Senator Wicker. Dr. Uccellini, thank you for being here. 
I've welcomed the witness to the Committee before we convened 
and he's aware that I'm going to ask about the Coastal Act and 
the progress that's being made concerning this portion of the 
Biggert-Waters Flood Insurance Reform Act.
    The purpose of the Coastal Act is to lower cost to the FIP 
by better determining flood losses in the case of slabs, where 
little tangible evidence beyond a foundation remains for the 
proper adjustment of insurance claims. This is a problem that 
occurs whenever there's a named storm that wreaks devastating 
losses and leaves little evidence other than a slab.
    The Act--the purpose of the Act and the belief behind the 
Act was that scientific data could be used with NOAA, with 
FEMA, with other agencies, to give us information to assist in 
assessing damages between the wind insurance and the flood 
insurance, and that's the purpose of the Act. So I hope that I 
have an opportunity, with all the other things going on today, 
to ask about that. I appreciate the work that our witness is 
doing in that regard and look forward to delving into that 
later on, and the other issues.
    So thank you very much, Mr. Chairman, for allowing me to 
speak about this one particular item of interest.
    Senator Begich. Thank you very much, Senator Wicker. That's 
exactly why I'm asking for openings, because it's going to be 
kind of a little chaotic here. But we want to make sure people 
get their voices heard.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you very much. And thank 
you, Senator Schatz, for requesting this hearing. I did just 
check and it is currently minus 16 degrees in International 
Falls, Minnesota. So you can see why this is important. People 
have to know what to wear when they go across the street.
    So we care a lot about weather forecasts in Minnesota, not 
only because of the cold weather, but also because, unlike 
Senator Rubio with hurricanes, we have tornadoes that can come 
up with a moment's notice. But still the predictions--even a 
10-minute notice can make a huge difference. We've had many 
instances where the sirens going off saved literally hundreds 
of lives, kids in a school where the school was completely 
destroyed.
    We also have flooding challenges every single year. I think 
of Georgetown, Minnesota, which is threatened every time the 
Red River rises and the Buffalo River overflows, or the severe 
flooding that hit Duluth, Minnesota, in 2011. So we really 
truly appreciate the work of the Weather Service and ensuring 
that NOAA and the National Weather Service can make timely and 
accurate forecasts is incredibly important, and I'm looking 
forward to asking you about the effects of sequestration and 
how you foresee we continue with this Service, because it's 
very important to our state livelihoods as well as the 
economics.
    Thank you very much.
    Senator Begich. Thank you very much.
    Again, Senator Schatz, thank you for making the request for 
the meeting and this subject matter, because I think, as you 
get a sense from cold to warm climates, it's an issue in many 
different ways.
    So Senator Schatz, and then we'll go right into your 
testimony if that's OK. Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Well, thank you very much, Mr. Chairman and 
Ranking Member. I just got handed this by my staff, but it was 
not necessary, because I already knew that it was 70 degrees 
right now, with a high of 82, without checking.
    Before we move on, I'd like to submit for the record, with 
your permission, Mr. Chairman, a letter from a leader in the 
academic community: from Robert Gagosian, President and CEO of 
the Consortium for Ocean Leadership.
    Senator Begich. Without objection.
    [The information referred to follows:]

                            Consortium for Ocean Leadership
                                                  December 11, 2013
Hon. Mark Begich,
Senate Commerce, Science, and Transportation Committee,
Oceans, Atmosphere, Fisheries, and Coast Guard Subcommittee,
Washington, DC.

Hon. Marco Rubio,
Senate Commerce, Science, and Transportation Committee,
Oceans, Atmosphere, Fisheries, and Coast Guard Subcommittee,
Washington, DC.

Dear Chairman Begich and Ranking Member Rubio,

    As you prepare to hold a hearing regarding U.S. weather readiness, 
I would like to share with you the perspective of the academic 
oceanographic community. As you may know, Ocean Leadership represents 
95 of the Nation's leading ocean research and education institutions, 
including thousands of researchers working to better understand the 
ocean's role in driving weather and climate systems.
    Naturally, when we think of weather and storms we look to the sky 
and clouds. Yet the most powerful influence on weather resides in our 
ocean, which contains 1,000 times more heat in its top seven feet than 
is held in the entire atmosphere. The ocean is truly the flywheel of 
the Earth's climate system, driving the transfer of massive amounts of 
heat and water across the globe. Despite these facts, the National 
Climate Prediction Center collects roughly 1,000 times more 
measurements in the atmosphere than the sub-surface ocean for their 
storm models. This is a reflection of the difference in the level of 
investment in observing systems and the difficulty of maintaining 
comprehensive systems in the marine environment. Recent scientific 
research and analyses of the Earth's climate and weather systems leads 
to the conclusion that critical advances in weather models and 
forecasts will be achieved through better monitoring of ocean processes 
that drive coupled ocean/atmosphere heat transfer dynamics.
    While storm intensity forecasts will be improved with additional 
ocean observations, so will our ability to understand crucial oceanic 
processes such as El Ninno-Southern Oscillation, thermohaline 
circulation, sea-ice dynamics, and sea-surface heat exchange, all of 
which are vital in predicting regional and seasonal weather patterns. 
Beyond protecting lives and property, these forecasts are critical for 
many sectors of our economy including agriculture, transportation, 
energy, and tourism. While many are urging prioritization of short-term 
weather forecasts, the reality is that these forecasts are dependent on 
longer-term sustained observations of both the ocean and the 
atmosphere.
    Unfortunately, there are many examples of how the dearth of 
oceanographic data has impacted communities and economies. For 
instance, forecasts for Superstorm Sandy underestimated the amount of 
storm surge in Manhattan by nearly eight feet, largely because the 
models underestimated the winds because they did not account properly 
for ocean temperatures. Inaccurate forecasts of waves over the Columbia 
River Bar (known as the Graveyard of the Pacific) can cost shippers 
over $100,000 for each day that a container ship is tied up in 
Portland, Oregon, rather than setting sail. Rapid acceleration in sea-
level and ocean temperatures along with changes to ocean currents and 
chemistry will put our predictive capabilities to the test, with 
increasing impacts on society and economies hanging in the balance.
    While our Nation and the world has suffered mightily from recent 
ocean-derived storms such as Sandy, Katrina, and Haiyan, there are also 
non-weather related threats from the sea that have also devastated 
communities and economies such as the Deepwater Horizon oil disaster, 
the Fukushima nuclear catastrophe, and the great Indian Ocean tsunami 
of 2004. So, as you craft legislation to help improve the nations' 
ability to forecast extreme weather events, we hope you will not do so 
at the expense of our ability to be better prepared for the next 
tsunami, oil spill, red tide, or fishery disaster. Ultimately, improved 
forecasts require additional research, continuous observations, 
advanced modeling and powerful computing of both the atmosphere and the 
ocean. We hope you will advance legislation that promotes and sustains 
a balanced research and observational portfolio, while also fully 
leveraging the scientific expertise within and outside of the Federal 
Government.
    We appreciate your consideration of our recommendations and the 
ocean science community remains committed to working with the Committee 
to ensure that our Nation can be better prepared for weather-derived 
events.
            Regards,
                                           Robert Gagosian,
                                                 President and CEO,
                                       Consortium for Ocean Leadership.
cc:

The Honorable John Rockefeller IV

The Honorable John Thune

The Honorable William Nelson

The Honorable Maria Cantwell

The Honorable Richard Blumenthal

The Honorable Roger Wicker

The Honorable Kelly Ayotte

The Honorable Dan Coats

The Honorable Tim Scott

The Honorable Ted Cruz

    Senator Schatz. Thank you very much.
    The quickening tempo of super-disasters demands that we 
have a weather enterprise that strives continuously to improve 
outcomes on our communities, on the economy, and on human lives 
from severe weather. That's why I wanted this hearing today, 
and I'm very appreciative of the chair and the ranking member.
    Consider the period from 1980 to 2011. After studying this 
period, world reinsurance giant Munich Re concluded that North 
America faced in excess of a trillion dollars in damage. This 
is only the economic loss. According to the same study, 30,000 
North Americans lost their lives due to weather catastrophes. 
The reinsurance industry has no agenda other than to try to 
understand risk.
    No matter what you may think about climate change or 
greenhouse gases, the human toll and economic loss from severe 
weather is staggering. In just over 2011 and 2012, the United 
States suffered $25 billion worth of disasters, and I'm 
concerned about the many more that we may face in the years 
ahead.
    The American weather enterprise is up to the challenge, but 
I also believe that we as a Congress need to do more and begin 
the conversation about whether further steps are warranted. As 
our witnesses here today will show, improving outcomes from 
severe weather will take all hands on deck--environmental 
observations, basic and applied science, and outreach to 
individuals, communities, and businesses. We are doing well, 
but we have to do better in order to ensure that observations, 
science, and outreach to the public work together so that they 
directly support the ultimate goal of improving outcomes from 
severe weather.
    That means taking deliberate choices about the 
environmental data that we pay to collect. It also means 
scrutinizing the link between research and operations to hone 
in on the most critical science. And most of all it means 
strengthening our efforts to educate the Nation about how to 
use the environmental data and forecasts that we provide.
    So I look very much forward to hearing from our panelists. 
Thank you, Chair Begich.
    Senator Begich. Thank you very much.
    Everyone gets to do their weather reports. In Barrow, 
Alaska, it's minus 14.
    Senator Klobuchar. We beat you.
    Senator Begich. I know. With wind chill factor, minus 25. 
But the good point is above the Arctic Circle it is still 
warmer than Minnesota, and we like that.
    Let me say, Dr. Uccellini--did I pronounce that right?
    Dr. Uccellini. Yes.
    Senator Begich. Thank you very much for being here. You can 
sense the interest that we have in this issue, so I appreciate 
you're here. As Assistant Administrator for Weather Services, 
National Oceanic and Atmosphere Administration, and Director of 
the National Weather Service, your role is important for all of 
us in many ways. So please go ahead and have your testimony. 
Then we'll open up for questions, and then we do have a second 
panel that comes after you. Please.

              STATEMENT OF DR. LOUIS W. UCCELLINI,

         ASSISTANT ADMINISTRATOR FOR WEATHER SERVICES,

         AND DIRECTOR OF THE NATIONAL WEATHER SERVICE,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Uccellini. Good morning, Chairman Begich, Ranking 
Member Rubio, and members of the Subcommittee. I appreciate the 
opportunity to testify before you today on the state of the 
United States weather forecasting capabilities and 
opportunities to take weather forecasts and services to the 
next level.
    Our Nation is experiencing an increase in and impacts from 
extreme weather events. I am sure this committee recalls the 
record-breaking weather events over just the past few years: 
devastating wildfires, floods, heat spells, snow and ice 
storms, violent tornado outbreaks, and catastrophic hurricanes, 
especially Sandy. These events were well forecast days in 
advance and the connections with Federal, State, and local 
emergency managers ensured that decisions could be made in 
advance to save lives and mitigate impacts.
    Now, there are four fundamental components to our forecast 
process that contribute to these accurate forecasts: global 
observations, numerical weather prediction models, 
supercomputers, and a well-educated, trained, and dedicated 
workforce. Throughout all of these major weather events, 
dedicated Weather Service employees issued the lifesaving 
warnings, even though their own families were often impacted by 
the same weather events. It is this incredible dedication to 
the Weather Service mission that defines the National Weather 
Service employees.
    Now, building on these successes in providing decision 
support services, we are ready to take weather prediction to 
the next level. We must advance our weather forecast 
capabilities and better connect with a wide range of decision 
makers, partners, and customers to ensure the United States 
becomes a Weather-Ready Nation, ready, resilient, and 
responsive, in the face of these extreme events.
    To ensure that we are a Weather Service second to none, we 
need to provide our forecasts, indeed the entire weather 
enterprise needs to provide forecasts, based on improved 
weather prediction models that rely on global observations, 
especially the modern polar and geostationary satellite 
observations.
    We need a Weather Service workforce trained to meet the 
growing needs for decision support services for our core 
partners in the emergency management community. And we need 
active and engaged collaboration across the entire weather 
enterprise to ensure we support the secondary value chain, our 
commercial partners, who are continuing to expand their 
services around the world.
    This focus on decision support will be accomplished by 
embracing a number of interrelated fields of physical and 
social sciences, examining the atmosphere, the ocean, land, 
ice, and space. This can only be accomplished closely with the 
entire research community both inside NOAA and externally. We 
are all working together to improve and extend accurate weather 
prediction and to determine the best ways to communicate 
forecasts and warnings to ensure preparedness and response that 
can save lives and protect property.
    We are very good at what we do. But as we all know, 
forecasting the weather still has its challenges. We know we 
must improve. The National Weather Service structure in service 
delivery has been largely static since the restructuring 
efforts in the 1990s, which reflected the best technology and 
communications capabilities at the time. We also currently have 
aging facilities and infrastructure and increasing operations 
costs. We have minimal capacity for testing and demonstrating 
changes in our service delivery and to support our workforce 
and stakeholders as we test any changes.
    We cannot address the challenges ahead without considering 
better, more flexible and agile service delivery methods. 
Congress recognized the need for the Weather Service to change 
and directed that two studies be conducted, the 2012 National 
Academy of Science study and the 2013 National Academy of 
Public Administration study. Both studies reaffirmed NOAA's 
Weather-Ready Nation strategy and also supported the strategic 
goals outlined in the Weather Service strategic plan for 
impact-based decision support services.
    Furthermore, the reports emphasized that we must change in 
order to keep pace with stakeholder and societal needs and 
emphasized that changes need to be transparent, orderly, 
deliberate, and continuous. The reports also emphasized that we 
must involve the entire public, private, and academic weather 
enterprise and the National Weather Service Employees Union as 
we evolve the National Weather Service, and we have attempted 
to do that for all ongoing activities.
    We agree with the study recommendations and embrace them 
fully. We are moving forward to address the main challenges set 
forth in the NAPA study to create an organization capable of 
change. This is essential as we move forward toward a more 
fully integrated field office structure, issuing improved and 
consistent forecasts and warnings, especially for high-impact 
events.
    Changing the National Weather Service will be a long 
process, a marathon rather than a sprint. NAPA suggested 
restructuring the Weather Service budget structure and 
streamlining headquarters as a good place to start. Both of 
these are proceeding as our top priority efforts, with NWSEO 
participation.
    Let me emphasize, we are committed to managing the budget 
provided by Congress and improving those areas where increasing 
vulnerabilities to extreme weather demand it. I want to thank 
Congress for the Disaster Relief Appropriations Act of 2013. 
The funding provided by that legislation is a game-changer for 
NOAA and the National Weather Service. It allows us to increase 
our operational high performance computing capacity by ten 
times, which is a crucial element which allows us to improve 
the numerical weather prediction models and supporting weather 
research.
    Our Fiscal Year 2014 budget request builds on this to 
increase consistency in our forecasts, to solidify our 
technical and communications infrastructure, and to increase 
decision support service, to accelerate the transition of 
proven research into operations by engaging the research and 
academic communities, perhaps through a reinvigorated United 
States weather research program.
    In conclusion, extreme weather events cause loss of life 
and significant damage. We recognize we must improve to meet 
society's needs to avoid these losses and mitigate the damage. 
We cannot shy from the challenges ahead. We will need your help 
and support to meet these challenges.
    I believe the Weather Service is a national treasure. The 
protection of the American people from weather-induced 
devastation is a sacred trust and duty given to us. Together we 
must ensure our services and operations live up to this trust 
and responsibility.
    I look forward to your questions.
    [The prepared statement of Dr. Uccellini follows:]

 Prepared Statement of Dr. Louis W. Uccellini, Assistant Administrator 
  for Weather Services, and Director of the National Weather Service, 
  National Oceanic And Atmospheric Administration, U.S. Department of 
                                Commerce
    Good morning Chairman Begich, Ranking Member Rubio, and Members of 
the Subcommittee.

    It is my honor to testify before you today on the state of United 
States (U.S.) weather forecasting capabilities and opportunities that 
now enable us to take weather predictions to the next level, especially 
for extreme events. We at the National Oceanic and Atmospheric 
Administration (NOAA) welcome your interest and the opportunity to 
discuss this important topic. As a mission-driven, operational agency, 
NOAA is responsible for global satellite observations, in-house 
research, research collaborations with our valued external partners, 
operational forecast excellence, and the delivery of critical products 
and services. The NWS works with NOAA's other Line Offices to realize 
our mission.
    NWS has the sole Federal responsibility for issuing weather and 
water warnings to communities across the country and in U.S. 
territories to protect lives and property. NOAA, as an agency, is 
trusted with the responsibility to provide environmental information 
and forecasts to American citizens, businesses, and governments to 
enable informed decisions on a range of issues and scales--local to 
global and short-term to long-term. NOAA provides a suite of products 
and services to the American people, including the reliable and timely 
delivery of public weather warnings which help safeguard lives. To do 
so, we work closely with the larger community of federal, state, and 
local emergency officials, other Federal agencies, and the commercial 
weather enterprise to deliver the best possible information that 
science and technology can provide. Put simply, NOAA provides critical 
information that saves lives and enhances our national economy. We also 
work with the academic and research community to continually conduct 
weather research to improve our forecasts and warnings.
Driving Change--Society's Changing Needs
    Our Nation is experiencing an increase in extreme weather events. 
Over the past two years, our country has endured devastation from fires 
in the South and West; drought over the plains and western states; 
Hurricane/Post-tropical Cyclone Sandy; destructive tornadoes and severe 
storms in Oklahoma, Washington, Illinois, and the Midwest; and the 
massive floods in Colorado and Utah. The NWS has the best forecasters 
in the world providing critical life-saving forecasts and warnings. 
However, to take weather prediction to the next level we must evolve to 
ensure that the U.S. becomes a Weather-Ready Nation in the face of 
increasing threats related to extreme events. To ensure that forecasts 
are better used by a diverse group of decision makers, we need to 
provide accurate and consistent forecasts through a fully integrated 
field office structure comprised of all field and headquarters units 
working together to create fully consistent and seamless products and 
services. And we must organize ourselves internally to ensure our 
forecasters are linked to, and trained to communicate with, decision 
makers at the federal, state and local levels. This evolution will help 
create a Weather-Ready Nation. In addition, we need to bring additional 
capabilities in environmental prediction to the forefront as we work 
toward integrating land, sea, and air predictions into an environmental 
prediction capability.
    Congress recognized the need for NWS to change and directed that 
two studies be conducted. The first, done by the National Academy of 
Sciences (NAS): ``Weather Services for the Nation: Becoming Second to 
None'' (August 2012),\1\ examined the NWS Modernization and 
Restructuring of the 1990s as a background for moving forward. The 
follow-on study was conducted by the National Academy of Public 
Administration (NAPA): ``Forecast for the Future: Assuring the Capacity 
of the National Weather Service'' (2013).\2\ Both studies reaffirmed 
NOAA's Weather-Ready Nation concept and supported the strategic goals 
outlined in the NWS Strategic Plan \3\ for impact based decision 
support services for a wide variety of extreme events. Furthermore, the 
reports emphasized that NWS must change in order to keep pace with 
stakeholder and societal needs and emphasized that any changes need to 
be transparent, orderly, deliberate, and continuous and must involve 
our stakeholders. We know we cannot do it alone. We also know we must 
not fear change.
---------------------------------------------------------------------------
    \1\ http://www.nap.edu/catalog.php?record_id=13429
    \2\ http://www.napawash.org/2013/1455-forecast-for-the-future-
national-weather-service.html
    \3\ http://www.nws.noaa.gov/com/weatherreadynation/files/
strategic_plan.pdf
---------------------------------------------------------------------------
    We need more than just the best forecasters. We need improved 
numerical weather prediction models to meet increasing demands for more 
accurate and reliable forecasts and warnings. We need a NWS workforce 
trained and structured to meet growing needs for decision support 
services for our core partners in the emergency management community. 
We need a fully integrated field structure to produce a consistent set 
of forecasts for a wide range of extreme events. We need to streamline 
multiple ways of disseminating our forecasts, watches, and warnings. We 
need well-resourced observing platforms including NOAA's next 
generation geostationary and polar orbiting satellites. We need an 
integrated weather-water approach to advance environmental predictions, 
especially along our coasts. We need active and engaged collaboration 
across the entire weather, water and climate enterprise to enhance what 
the NAS called the ``secondary value chain'' to build out enhanced 
services for the whole U.S. economy. In short, to meet the country's 
expanding needs, we need to institute a challenging set of changes in 
NWS science and technology, services, workforce, partnership relations, 
and to a significant degree, culture. And we need to do all this during 
this period of budget uncertainty.
    In order to advance weather forecasting as a whole, NOAA must 
realize advances across all of the interdisciplinary fields of earth 
science, research, technology and observations. We must leverage 
partnerships within government, academia, and the commercial sector, 
and we must actively pursue, in concert, a balanced program to advance 
all of the factors critical to success.
    NWS agrees with the NAPA recommendations and embrace them fully. We 
are moving forward to address the main challenges set forth in the NAPA 
study:

  <bullet> Pace of Change: Working toward an orderly and deliberate 
        process

  <bullet> Budget: Aligning budget to function and linking to 
        performance, transparency

  <bullet> Managing Innovation: Engaging all stakeholders and avoiding 
        hidden costs

  <bullet> Consistent Services: Timely, accurate, reliable services 
        consistent across the Nation

  <bullet> Labor/Management Relations: Building a strategic partnership

    There is an ever increasing demand for additional lead time ahead 
of severe weather events. Emergency management officials and Federal 
partners have indicated that at ideal capabilities, NWS would provide 
highly consistent and accurate hurricane landfall predictions at days 
five and six, allowing for pre-positioning of crews, enhanced 
mitigation and evacuation efforts, and improved recovery planning--all 
of which can result in many more lives saved. Similarly, an hour of 
warning before a powerful tornado, versus the minutes of warning we 
provide today, might allow hospitals to move patients, people to seek 
secure shelter and avoid being caught in vehicles, homes, or schools 
not robust enough to withstand a powerful storm.
    NWS strives to integrate the best advances in science and 
technology in order to provide the most accurate and timely forecasts 
possible. Much of our success comes from scientific and technological 
breakthroughs made by research that spans across disciplines, time, and 
space scales. The dynamic systems of this planet are interconnected in 
rich and complex ways, and success in forecast improvement comes by 
looking broadly across those linkages.
    Furthermore, NWS, driven by demand from our customers, has evolved 
to provide more than just short-term weather forecasts. Our prediction 
capabilities are becoming a fusion point that emergency managers, 
broadcasters, Federal agencies, and the public increasingly turn to as 
a trusted source that distills scientific information into ``impacts 
coming my way.'' This is done by embracing a number of interrelated 
fields of physical and social sciences, examining the atmosphere, 
oceans, land, ice, and space, and determining the best ways to 
communicate forecasts and warnings to ensure preparedness and response 
that can save lives and protect property.
    While our computer predictions have improved, it is the dedication 
of our skilled workforce that makes it all possible. Recent tornado 
outbreaks throughout the south and Midwest, land falling hurricanes, 
and snowstorms in the Midwest all attest to the forecasting skill and 
dedication of the NWS workforce. NWS employees stayed on the job 
issuing life-saving warnings to the public at large even though their 
own families were living in the direct path of the devastating 
hurricanes and tornadoes. The South Dakota snowstorm occurred during 
the October furlough and dumped 3-4 feet of snow. The staff at the 
Rapid City, SD forecast office stayed at the office for 2-3 days, 
despite the personal impact on them and their families. It is this 
dedication to the NWS protect life and property mission that I find 
most admirable.
State of Predictions
    Hurricane/Post-tropical Cyclone Sandy (Sandy) is an excellent 
example of how far we have come and yet how far we have to go to become 
a Weather-Ready Nation. Sandy devastated the eastern U.S. from North 
Carolina northward to Maine, with impacts reaching west as far as 
Wisconsin. Days prior to Sandy, NWS forecasters used models, 
integrating satellite, aircraft, and other weather observations to 
predict the path of the storm. Our forecasters gave emergency personnel 
and the public an accurate track forecast a full five days before the 
October 29 U.S. landfall which bought local communities the time they 
needed to issue evacuations and move or secure valuable infrastructure. 
We deployed fourteen forecasters to emergency operations centers in the 
northeast including Federal Emergency Management Agency (FEMA) regions, 
and state and local emergency operations centers, including New York 
City. We also provided forecasts of total rainfall, storm surge, wave 
height, and other phenomena that would impact the mid-Atlantic and 
northeastern states. Our accurate predictions enabled FEMA to 
preposition response assets and emergency managers to more precisely 
evacuate coastal areas in the path of this unprecedented storm, saving 
countless resources and lives. Our forecasts also allowed New York City 
Metropolitan Transportation Authority officials to move valuable 
resources supporting the mass transit system out of harm's way enabling 
a rather quick return to relatively normal system operations. It is 
these types of Decision Support Services to our critical partners in 
the emergency management community that we believe we must expand and 
orient ourselves to deliver.
    I am proud of the work NOAA did during Sandy and especially proud 
of the work NWS forecasters did. Our people rose to meet the challenge 
this unprecedented storm presented. Last spring we released our Sandy 
assessment. This assessment found that our forecasts saved lives and 
property. It also highlighted areas we can improve. Most significantly, 
the report recommended that NOAA accelerate improving our storm surge 
products. Consistent and accurate storm surge forecasts further in 
advance will help affected states in their response to tropical cyclone 
hazards. NWS is working across NOAA, and especially with the National 
Ocean Service (NOS), to work with the coastal and water communities to 
improve storm surge and inundation products and determine how best to 
communicate that information. We could not advance in this area without 
the NOS. The synergies of having the NWS and NOS working together 
within NOAA to improve the storm surge products and services available 
to the Nation cannot be overstated. We are committed to serving our 
users. To make good on that commitment we must continue to direct 
resources to ocean and coastal research, observing, and mapping.
    While we did well with our predictions for Sandy, some computing 
and communication shortfalls were apparent. Congress recognized these 
issues and provided ``game changing'' funding in the Disaster Relief 
Appropriations Act of 2013. In the summer of 2013, NWS completed a 
major upgrade to the operational weather supercomputers which brought 
operational forecast computing a threefold hardware capability 
increase. This base-budget-funded upgrade included major resolution 
enhancements and an advanced global model that runs more economically 
on the new hardware. Funds from the Disaster Relief Appropriations Act 
of 2013 will be used in FY 2014 and FY 2015 to improve operational and 
weather research computing capability. With these funds, NOAA's 
operational computing capability will increase tenfold by late 2015. 
The FY 2014 President's Budget requests additional funds for NOAA to 
upgrade operational computing, which when implemented will provide a 
27-fold increase in operational computing capability by 2015. That 
advancement will give the NWS unmatched operational computing 
capability and the ability to run the latest long-range forecast models 
with improved resolution and physics, and the ability to more 
accurately assimilate the data from new NOAA polar orbiting satellites 
and geostationary satellites.
    This increase in capacity will allow NWS to bring proven research 
and forecast model development into operation as it is completed, 
rather than wait simply because the computing resources are not 
available. The Disaster Relief Appropriations Act of 2013 not only 
provided funds to improve our computing capabilities, but also to 
implement scientific research activities into operational weather, 
storm surge and coastal forecast models, to accelerate weather 
research, and to enhance observations. In addition to computing 
capacity, the President's FY 2014 budget request continues this trend 
of pulling proven research improvements into operations. Transitioning 
science developed in NOAA's Office of Oceanic and Atmospheric Research 
(OAR) into operational use at the NWS and NOS is a high priority for 
NOAA as a whole.
Increasing Focus on Decision Support and Outcome Measures
    Over the past three years it has become apparent that we cannot 
measure the success of our mission only by the accuracy of information, 
but we must also measure success by how effectively we apply our 
information, predictions, outlooks and forecasts to societal needs. As 
such, we are pursuing a number of innovative approaches not only to 
provide significantly more lead time for forecasts, but also to ensure 
that people truly understand these warnings and take informed and 
appropriate actions to protect their own safety. Our Nation needs to be 
ready for weather impacts, respond to them, and be resilient to recover 
from them. Our emphasis on technological and social science 
advancements is a new approach to building a ``Weather-Ready Nation'' 
and one that we expect to provide large returns--measured in avoided 
economic losses and saving of lives and property.
    There is much more to be done if we are to achieve new life-saving 
advancements in the future, and we are committed to working with our 
Federal, academic, private sector, and international partners in the 
broader enterprise to continue this record of success.
    NWS' environmental predictive capabilities are supported by four 
foundational pillars: observations, scientific research, computer 
modeling (including High Performance Computing), and our people--who 
provide forecasts, warnings, and decision support services to key 
decision makers and the public. In order to advance forecasting 
capabilities, we must strengthen all four of these pillars in concert. 
For example, our forecast models are only as good as the data we put in 
them. Without investments in high quality global observational data, 
the accuracy of our operational forecast models would suffer. Only by 
evolving in concert across each of these realms can we realize 
significant, sustained improvement in forecast capabilities.
    Of the data actually assimilated into NWS numerical weather 
prediction models that are used to produce the longer term weather 
forecasts three days and beyond, over 93 percent comes from satellites, 
of which over 80 percent are from polar-orbiting satellites. These 
polar-orbiting satellites include NOAA's Polar-orbiting Operational 
Environmental Satellite (POES), Suomi National Polar-orbiting 
Partnership (Suomi NPP) satellite, and the National Aeronautics and 
Space Administration (NASA) Earth Observing Satellites (EOS) in the 
afternoon orbit, and the European Metop satellites which fly in the 
mid-morning orbit. GOES satellites, along with Doppler Radar, assist 
operational weather forecasters to monitor existing conditions and 
provide essential information over data-sparse areas, including the 
oceans and the Gulf of Mexico. Maintaining continued development of the 
JPSS and GOES-R Series satellites is critical for not only maintaining 
current capabilities, but supporting advancements in forecasting 
capabilities.
    The benefits and planned advancements of our predictive 
capabilities are realized only if people receive the information and 
take appropriate actions. Taking responsibility not only for advancing 
prediction but also for understanding how to communicate our 
predictions as effectively as possible is a major part of our Weather-
Ready Nation initiative and a major piece of my vision for the future 
of the NWS. NWS uses many different ways to disseminate warning 
information ranging from conventional methods including our own NOAA 
Weather Radio All-Hazards network and the broadcast media, to social 
media including Facebook and Twitter. Cell phones are rapidly becoming 
a major way for the public to receive emergency information. Wireless 
Emergency Alerts (WEA) are credited with saving lives during the 
November tornado outbreak in Illinois. News media reported WEA 
simultaneously activating many cell phones during church services in 
Washington, Illinois. People received the warning then went to shelters 
in the churches as the tornado roared through the neighborhood. This is 
exactly what was envisioned when Congress appropriated the funds for 
the wireless alert program, managed by FEMA, Federal Communications 
Commission, and NOAA, and implemented by the cellular phone industry. 
Contrast this with the 1994 Palm Sunday Tornado Outbreak in Alabama, 
when a tornado warning was issued, but 20 people were killed in a a 
Cherokee County Alabama church because they did not receive the tornado 
warning prompting them to take shelter. We have come a long way, but 
there is more we need to do to become a Weather-Ready Nation--to be 
ready for the event, to be responsive, and to be resilient. Our work 
with social science is allowing us to provide our information in ways 
and words that people can understand and take action.
    While advances in observing, computing, and forecast model 
development are important, innovation is necessary in order to meet the 
Nation's weather and water needs. NWS is conducting six pilot projects 
at local Weather Forecast Offices (WFOs) to test the evolution of 
decision support services to meet society's needs. One such innovative 
effort is in the Tampa Bay, Florida, WFO. This effort is integrating 
weather forecasts into ecological forecasting for Tampa Bay and the 
local estuaries. This and other Pilot Project innovations aim to test 
and demonstrate new products and services that can have broader use 
elsewhere to address changing and evolving customer needs.
    While these advances and innovative efforts are important, 
addressing aging infrastructure, improving scientific understanding, 
and implementing enhanced services are also necessary to reduce risk to 
the Nation. Perfect forecasts don't save lives without the 
infrastructure to disseminate them and an understanding of how best to 
communicate to spur individuals to take action. I plan to evolve the 
NWS to devote more time and attention into working with partners in the 
social sciences to understand how to communicate better and then in 
training our workforce to implement the best practices learned.
    In addition, NWS must increase its capacity to collect and 
assimilate ever-growing quantities of data to improve forecast model 
performance, and hence weather predictions and forecasts. This, too, 
can only be achieved through scientific research and technological 
advancement. Future technology improvements and computing assets are 
crucial pieces of our National infrastructure.
Weather Enterprise Collaboration
    To provide the best possible weather services to the Nation, NOAA 
has developed a close working relationship with the U.S. commercial 
weather sector. This has been growing since the National Academy of 
Sciences report, Fair Weather: Effective Partnerships in Weather and 
Climate Services, and has gained momentum in recent years with NOAA's 
``Weather-Ready Nation'' initiative. The NOAA Science Advisory Board 
established (and has recently re-chartered) the Environmental 
Information Services Working Group to strengthen connections between 
public and commercial sector activities in weather and climate. The 
American Meteorological Society also responded to the report and 
sponsored a productive set of meetings and interactions among the full 
weather enterprise, including Federal, academic and commercial sectors. 
NOAA works continuously to enhance its efforts across the weather 
enterprise, allowing more participation of the commercial and academic 
sectors in the development of advanced prediction capabilities that 
have potential for transition into products and services. NWS work also 
fosters development in the commercial sector that leads to 
significantly better products for specific audiences and needs. NWS 
could not meet its mission without the private sector, nor could the 
private sector be thriving without NWS.
Weather Research and Computing Partnerships
    Improvements in weather forecasts and warnings all begin with an 
idea. Research is essential to determine the viability of the concept 
and then key to transition those proven ideas and concepts into 
operations, whether they are improvements in computer models and data, 
or forecast and warning techniques. Our closest partner in weather 
research is the Office of Oceanic and Atmospheric Research (OAR) within 
NOAA. The work at OAR's National Severe Storm Laboratory, its Earth 
Systems Research Laboratory, and at the Atlantic Oceanographic and 
Meteorological Laboratory has been integral to the advancements the NWS 
has made in prediction and forecasting over the past decade. In 
addition, many Federal agencies work with NOAA and conduct weather 
research including, but not limited to, the NASA, the Department of 
Defense (DOD), U.S. Geological Survey (USGS), and investigators 
supported by the National Science Foundation (NSF), with notable 
contributions from the NASA/NOAA/DOD Joint Center for Satellite Data 
Assimilation. Integrated and focused weather research efforts are 
needed, particularly in this challenging budget climate in which we 
find ourselves.
    We are fortunate that the science and technology of weather 
prediction is in a period where new advances are becoming available, 
thanks in large part to Federal researchers working in close 
partnership with external partners. For example, OAR is developing 
concepts that apply high-resolution computer models in shorter-range 
forecasts to increase tornado warning lead times. An estimated 15 
minutes of warning lead time was provided for the recent Washington, 
Illinois, tornado. With advances in observing and forecast modeling, 
under the Warn-On Forecast Program, NOAA is working to extend warning 
lead times from the current average of less than 15 minutes to a period 
of up to an hour, to help save lives and property. The extended lead 
times for severe local storms would be realized by applying an ensemble 
of weather forecast models to provide a measure of uncertainty with 
such warnings to the public, since no single model can capture the 
natural variability of the atmosphere, nor the sensitivity of such 
models to the number and quality of the observations and complexities 
of the model physics.
    The topics of weather research and the implementation of the best 
research into operations are particularly timely. The NAPA study also 
emphasized the importance of transitioning research efforts to 
operations, as well as the communication of operational needs to the 
researchers. I can report that Acting Administrator Sullivan is making 
this effort a high priority of hers. NAPA summarized the need for 
ongoing change in NWS, such as:

        The Panel found enormous support for the weather, water, and 
        climate products and services provided by the NWS. However, 
        both internal and external stakeholders see additional and 
        ongoing change as necessary to continue to enhance NWS 
        performance. To continue to provide the range and caliber of 
        current products and services, the NWS, like any 
        technologically dependent organization, will need to refresh or 
        replace aging technology, infrastructure, and systems.

    The NAS study also makes a number of recommendations regarding 
weather research. This report emphasized the community enterprise that 
is needed to improve weather forecasts, from academic and government 
research, through technology transition, and with special emphasis on 
the connection between NOAA's weather enterprise and the U.S. 
commercial weather sector.
    While NOAA research endeavors in both NWS and OAR include 
connections to academia, the Federal Government, international agencies 
and the commercial sector, more can be done. The U.S. Weather Research 
Program (USWRP) was introduced as an interagency program led by NOAA 
and the NSF in 1991. NOAA, NSF, NASA, and to a lesser degree DOE, were 
all part of the USWRP. The main purpose of the USWRP was to define 
outstanding weather research topics and fund these efforts both within 
the Federal community and, importantly, the academic community research 
efforts on these topics. The USWRP commissioned a series of 
collaborations among Federal and academic scientists that formed 
prospectus development teams (PDTs) in the 1990s to define outstanding 
weather research topics. There were 11 PDTs that published papers in 
the Bulletin of the American Meteorological Society throughout the 
1990s and early 2000s that described important research problems that 
could advance the state of atmospheric science and, if addressed, would 
lead to improvements in weather observations, predictions, and warnings 
that would ultimately benefit society. Since 1999, USWRP has been a 
program within NOAA, and now, since FY 2009, resides NOAA's OAR. Within 
funds provided, efforts have focused on hurricanes, heavy 
precipitation, severe convection, forecast model improvements and the 
communication of weather predictions and warnings. All of this research 
aims to improve high-impact weather and air quality forecasts. NOAA is 
proud of its record of accurate storm forecasts and warnings.
Advanced Data Assimilation and Forecast Modeling Innovations
    Forecast quality depends critically on the ability to add and 
retain, or assimilate, observed information on the initial state of the 
atmosphere, ocean, land surface, and ice regions to forecast models. 
Advanced data assimilation techniques, increased forecast accuracy 
through higher resolution and improved representation of the 
atmospheric, oceanic and land physical processes are each an important 
factor for improving operational forecasts. Recently, an advanced 
assimilation system originally developed by OAR and other research 
partners was implemented by NWS, resulting in significant improvements 
in our medium range predictions. While substantial data assimilation 
and forecast model improvements have occurred over the past five years, 
considerable progress is yet to be made. Over the next decade, global 
and regional data assimilation and model capabilities and techniques 
will become more integrated into a single system capable of providing 
forecast data from less than one hour to more than two weeks. Regional-
scale forecast model ensembles will have the capability to explicitly 
represent convection (individual thunderstorms), which is critically 
important to be able to use these models to extend the tornado warning 
lead time to one hour.
    Global weather forecast models are the basis of predictions from 
one day to two weeks in advance. With broader geographic coverage, 
global models are the key to forecasting major storms with oceanic 
origins, such as hurricanes and nor'easters, as well as key to 
predicting the precursors to longer term seasonal drought and heat 
waves. Global models are also critical to NWS' success in preparing the 
public three to eight days in advance for conditions that could lead to 
major tornado outbreaks, floods and fire weather conditions. By the end 
of the decade, the next generation of global models will run at 
horizontal resolutions of a few miles, with more accurate 
representation of physical processes. As model resolution increases, 
research is required to understand how to formulate and incorporate new 
physical processes into the models. Inevitably, when these steps have 
been accomplished, the forecast skill will take a big step forward. 
These advances can only come about through a robust research and tech 
transfer effort. Sustaining such an effort into the future is the 
surest way to continue advancing U.S. weather forecasting capability 
and NOAA--through OAR and NWS together--is the lynchpin to drive this 
work.
    Trends in yearly-averaged tornado warning lead time suggest that 
the present weather warning process, largely based upon a warn-on-
detection approach using Doppler radars, is reaching a plateau and 
further increases in lead time will be difficult to obtain through this 
method. OAR is developing new radar capabilities such as Multifunction 
Phased Array Radar (MPAR), which may increase our lead times and 
abilities to predict storms hours in advance. Additionally, a new 
approach, referred to as the ``Warn on Forecast'' paradigm in the NWS 
Weather-Ready Roadmap plan, is needed to extend warning lead time. This 
approach is being developed by NOAA scientists at OAR's National Severe 
Storms Laboratory. National scale high-resolution forecast models are 
needed to predict particularly the details of severe weather events 
such as widespread tornado outbreaks, such as the one that devastated 
Alabama and adjoining states in April 2011, and landfalling hurricanes 
undergoing rapid changes in intensity. The NSF National Center for 
Atmospheric Research led the initial development over the last 15 years 
with the creation of the regional Weather Research and Forecast (WRF) 
model. Based on this model, NOAA researchers working at OAR's Earth 
Systems Research Laboratory and partners have developed the High 
Resolution Rapid Refresh (HRRR) model, a key to the ``Warn on 
Forecast'' paradigm. Running in an offline experimental model, the HRRR 
model forecast the derecho that affected the eastern U.S. on June 29, 
2012, twelve hours before the storm hit the Washington DC area. This 
same model forecasted nine hours in advance the dangerous conditions 
and general characterization of the thunderstorms that formed the 
destructive tornadoes that affected Alabama on April 27, 2011.
    Another notable advancement, the result of major research efforts 
and investments, is the new hurricane prediction model that came on 
line for the 2013 hurricane season. The operational HWRF model 
represents a significant step forward in our understanding of hurricane 
structure and intensity forecasting. The research has been a joint 
effort across NOAA, notably NWS, OAR, and academic partners as part of 
the Hurricane Forecast Improvement Project. This advancement highlights 
the importance of the research (OAR) and operational (NWS) entities 
working hand-in-hand: as research improves, so do the forecasts. We 
have achieved much higher skill in recent years through improved 
computing capability, the ability to zoom in observationally for a 
``deeper look'' at specific areas of storms as they form, and the 
ability to assimilate critical observation data from a variety of 
platforms.
Advances in Computing Capability
    High-performance computing capacity and computer forecast modeling 
are indispensable requirements for extending weather warning lead times 
to save lives. While many nations run their own numerical weather 
prediction computer models, the European Centre for Medium-Range 
Weather Forecasts (ECMWF) model is repeatedly singled out as the ``best 
in the world.'' For example, the ECMWF model was able to predict 
Sandy's landfall in New Jersey almost precisely at a full eight days 
out. Meanwhile, the NOAA Global Forecast System (GFS) eight day 
forecast predicted Sandy to move further offshore instead of making 
landfall. It was not until the five day forecast that the NOAA GFS 
model track became equivalent to the ECMWF track. Running at a greater 
resolution on nearly ten-times the computing power of the GFS, the 
dominance of the ECMWF model highlights the need for the very best 
computing capability. It is important to note that NWS forecasters used 
all available information, including the ECMWF, as they made their 
official forecasts for Sandy's track and eventual landfall in New 
Jersey. A version of the GFS running at higher resolution similar to 
the ECMWF model had Sandy tracking into New Jersey at the same time 
frame as the ECMWF. To address the capability gap, NOAA and its 
partners in the Navy and academia are working on a directed research 
program, called the High Impact Weather Prediction Project, to enhance 
our global weather prediction models during the next few years. This is 
another example of how the Disaster Relief Appropriations Act of 2013 
funds are being rapidly applied to our mission.
    As mentioned earlier, a major upgrade to NWS operational computers 
was completed last summer, bringing NWS operational computing a 
threefold hardware capability increase today. With the Disaster Relief 
funding, NOAA's weather computing capability will increase tenfold by 
2015. We thank Congress for these investments in NWS' computing 
capability, which will surely save lives and property in the future. 
Further investments requested in the FY 2014 President's will provide a 
27-fold increase in operational computing capability by 2015--an 
advancement that will give the NWS unmatched operational computing 
capability and the ability to run the latest long-range forecast models 
with improved resolution.
Research to Operations
    NOAA is continually working to enhance the transfer of research 
advances into NWS operational and information services. OAR has 
developed the capability to provide improved longer range computer 
forecasts as well as short-range severe weather forecasts, but the NWS 
has lacked the operational computing capacity to transition these 
research developments to operations. The Disaster Relief Appropriations 
Act of 2013 not only brings funds to improve our computing 
capabilities, but also to implement scientific research activities into 
operational weather, storm surge and coastal forecast models, to 
accelerate weather research, and to enhance observations. The 
President's FY 2014 budget submission continues this trend of 
increasing computing capacity and pulling proven research improvements 
into operations. In order to improve forecast and warnings across the 
country, the focus is to accelerate the transition of research and 
technology from the broad research/technology communities into 
operations at the NWS.
Achieving a Weather-Ready Nation
    With the destruction we have already seen this year from extreme 
weather and flood events, we take little solace in knowing that 
outcomes could have been worse without the work of NOAA and our 
Federal, State, local, academic, and commercial partners. There is much 
more that needs to be done to improve the Nation's resilience. In 
addition to improved forecast and warning accuracy and lead times, 
integrated research, education, and outreach are essential ingredients 
to improving preparedness. NWS is not alone at NOAA in this work. The 
National Ocean Service is also squarely focused on improving the 
Nation's resilience to extreme events along the coasts as well as OAR's 
Sea Grant program through their diverse network of extension agents on 
the ground in every coastal state. In addition, other programs within 
OAR, like the National Integrated Drought Information System (NIDIS), 
are focused on increasing resilience in the Nation's drought prone 
regions. For all of NOAA realizing a Weather-Ready Nation, where 
society is prepared for and responds to high impact weather events, is 
vital and the NWS is proud to lead the way.
    In December two years ago, NOAA and our partners \4\ initiated an 
ongoing dialog with the Nation's top experts to examine what can be 
done in the short-and long-term to improve how NOAA communicates severe 
weather forecasts and warnings. We've engaged leaders in broadcast 
meteorology, social sciences, and emergency management, as well as 
outreach specialists such as Sea Grant extension agents and warning 
coordination meteorologists, and the weather industry to focus on 
community response to and preparedness for severe weather. Included in 
this effort are innovative technologies and social media to improve our 
effectiveness in reaching those in harm's way and provoking appropriate 
response, whether to the urgency of a tornado or tsunami warning, or to 
the longer-term likelihoods of flooding or drought. Social science 
research includes the development of new or reconfigured graphics, such 
as evolving the hurricane forecast cone of uncertainty, and 
visualization techniques to better communicate tropical cyclone risk, 
such as GIS enabled storm surge inundation maps. It includes the 
analysis of the promise and pitfalls of using Twitter in severe weather 
forecast operations, the assessment of how the public uses our online 
tools to understand and prepare for flood risk, and the identification 
of factors relevant to an individual's response to a tornado warning.
---------------------------------------------------------------------------
    \4\ ``Weather Ready Nation: A Vital Conversation on Tornadoes and 
Severe Weather.'' This activity was co-supported by NOAA/NWS and the 
National Science Foundation. A follow-up meeting in April 2012 in 
Birmingham, AL--``Weather Ready Nation: Imperatives for Severe Weather 
Research'' was also jointly supported by NOAA/NWS and NSF. http://
www.nws.noaa.gov/com/weatherreadynation/workshops.html
---------------------------------------------------------------------------
    Most NWS offices have established Facebook pages, providing an 
additional medium for conducting outreach and education, as well as for 
highlighting information about ongoing or upcoming weather events. 
Additionally, the offices use NWSChat to give core external partners an 
invaluable opportunity to interact with NWS experts and to refine and 
enrich their communications to the public. And more private companies 
are carrying weather warnings on wireless networks (WEA), putting real-
time alerts in the palm of your hand. Importantly this year we are 
running tests to evaluate different language to include in blizzard and 
severe storm warnings that may more effectively communicate the 
severity of the warnings. NWS is exploring ways to make its information 
easier to find, easier to understand, and easier to apply in operations 
by the public and the emergency management community, which will result 
in improved decision making for risk management of life and property.
    Our work during the Illinois tornado outbreak, which I described 
earlier, is an indication of how we are beginning to address these 
concerns.
Evolving the NWS Service Delivery Model
    Population growth, growing infrastructure threats, and an 
increasingly interdependent economy are creating new challenges for the 
Nation. At the same time, science, technology, and communications are 
rapidly advancing and providing potential solutions that will enable 
the NWS to better meet our country's needs. As the world has changed, 
so too has the NWS in many aspects. We have advanced our scientific and 
technical capabilities to better meet the needs of Americans. The 
result is an organization with a greater capacity to provide timely 
information to protect lives and property. However, more needs to be 
done to ensure we can change as quickly as society demands to meet its 
ever changing needs.
    Adjusting the NWS service delivery model to reflect current demands 
and to meet society's evolving and future needs is essential to 
ensuring safety of life and property, and enhancing the economy. Recent 
studies by the National Academy of Sciences validated the need for 
improvements in numerical weather prediction, increases in decision 
support services, better partnerships with the private weather 
enterprise to advance a Weather-Ready Nation initiative and meet 
society's needs. NWS needs to be flexible to meet evolving needs and 
become second to none.
    The FY 2014 President's Budget request builds on the Disaster 
Relief Appropriations Act of 2013: to increase our operational high 
performance computing capacity for improved numerical weather 
prediction; increase consistency in our forecasts and messaging; 
solidify our technical and communications dissemination infrastructure; 
increase research in Decision Support Services; accelerate the 
transition of proven research into operations; and work with our 
employees through the National Weather Service Employees Organization 
(NWSEO) to make all this happen. We believe these aims are all 
supported by the best advice we have from the NAS, and are consistent 
with the advice we received from NAPA. We are also sure there is much 
more that needs to be done and we are committed to working with 
Congress, the weather enterprise, and ultimately the entirety of U.S. 
society, to create the agile and effective NWS required to build a 
Weather-Ready Nation.
    Given the rapid rate of change, NWS needs to be quick, flexible and 
agile to meet society's rapidly changing needs. NWS is looking ahead to 
a broader, end-to-end and comprehensive strategy that creates an 
organization capable of change. This is essential as we move toward a 
more fully integrated field office structure issuing improved and 
consistent forecasts and warnings, especially for extreme events. The 
discussion will focus on what services the U.S. needs from NWS and how 
best to provide these. Streamlining and refocusing of the NWS budget 
structure by aligning the budget to function and linking to performance 
and transparency may be another element of change.
    This strategy will enable us to transform the NWS into an agile, 
responsive organization that can adapt quickly to new missions and 
integrate new science and technology without a large Federal 
investment. NWS must have orderly, deliberate, continuous and 
transparent mechanisms to explore new operating concepts, tools to 
inform decision on changes, and safeguards to ensure no degradation of 
services while implementing changes to operations. Both headquarters 
and field operations cannot be realigned simultaneously. NWS is 
analyzing current headquarters functions to ensure capabilities will be 
in place to support and lead field operations. This must include the 
capacity to redesign and implement service delivery model improvements 
for the NWS that prioritizes our ability to meet the evolving demands 
for our products, services and forecaster expertise. We are planning to 
have a NWS headquarters designed for the new, more agile NWS. The 
National Weather Service plans to begin its transformation in FY 2015 
by engineering NWS Headquarters functions to align with current 
operations and meet the evolving needs of the future. This includes 
such functions as implementing a fully integrated field structure with 
consistent national products, resourcing dissemination properly and 
sharing the best practices of our forecasters and field structure to 
speed innovation; all the while running a transparent and accountable 
budget formulation and execution process.
    For the Modernization and Associated Restructuring (MAR), the NWS 
used extensive test and evaluation of new technology and service 
delivery concepts. It was strictly internal to NWS with limited 
stakeholder input and participation. For the future NWS, all programs 
and office types are included--WFOs, RFCs, national centers--and we 
expect full stakeholder participation in the development, testing and 
evaluation stages with a strong focus on evaluation to determine the 
viability of implementing the ``tested'' technology or services into 
operations.
    NWS will follow the recommendations from both NAS and NAPA and 
develop a deliberate process that engages all stakeholders, users and 
partners, including NWSEO. What we know is that the status quo will not 
do and for the future, with whatever service delivery model is 
developed, NWS needs to operate in a new paradigm. NWS will choose what 
to develop and test, with no presupposition of a larger or smaller 
agency. We will employ a stringent evaluation that informs investment 
choices--with the appropriate level of investment determined by 
Congress and the Administration. The outcome is: NWS tests and 
demonstrates possible changes in services and operations, and that 
testing and demonstration is fully open to stakeholders, encouraging 
and soliciting their participation. The results, rather than unfounded 
assertions, drive change toward a Weather-Ready Nation.
Conclusion
    NWS forecasts, warnings, and community-based preparedness programs 
are vital in enhancing the economy and saving lives and property. It 
all starts with a commitment to environmental observations, to research 
and improved forecasting and warnings, to our people--forecasters, 
modelers, technicians and managers and it ends with a Weather-Ready 
Nation in which businesses, governments, and people are prepared to use 
those forecasts to mitigate impacts. In spite of our best efforts, 
severe weather events still cause loss of life and significant damage. 
We recognize that there is always room for improvement. I am proud of 
the NWS especially our people who are on the front lines delivering 
critical products and services every day to help keep our citizens 
safe. We are government at its best. But I need each of you to know 
that we can do better. Even more of these impacts could be mitigated 
with more timely, accurate, and focused forecasts, watches, and 
warnings. The impacts and lives lost from the disasters experienced 
over the past year alone would have been far worse without NOAA's 
observations, research, forecasts, people and the extensive work of our 
Federal, non-federal, state, local, academic and commercial partners to 
improve the Nation's preparedness for these events through education 
and outreach.
    The protection of the people of the U.S. from the devastation that 
weather can bring is a sacred trust and duty given to the NOAA. 
Together, we must ensure NWS services and operations lives up to this 
trust and duty. We have come a long way, but there is more we need to 
do to become a Weather-Ready Nation--to be ready for the event, to be 
responsive, and to be resilient.

    Senator Begich. Thank you very much, Dr. Uccellini.
    Let me say that the vote just started, so what we might be 
able to do with four of us here is get through our questions, 
and then maybe we might pause and then do the two votes, and 
then come back and hear from the next panel. We might be able 
to double it.
    But let me ask you. I want to ask you first on the--we'll 
have 5 minutes. On the rebalancing issue and kind of 
restructuring, you had said it's kind of on schedule or on 
time. So let me ask you, do you have--when you say that, is 
there a timetable that you're kind of working under? Is there 
something that you could maybe produce for the Committee, 
unless you know it now, that you could say here is the time 
schedule that we're on and how we're meeting our metrics?
    Dr. Uccellini. The two items that I referred to is the 
restructuring of our National Weather Service budget--we have 
been working this through the Executive Branch and through the 
Department up to OMB. We are working toward a schedule of 
implementation in the 2015 timeframe.
    Senator Begich. So that would be reflected in your budget 
for 2015?
    Dr. Uccellini. That is the plan.
    Senator Begich. OK.
    Dr. Uccellini. And with respect to the headquarters 
restructuring, that is an activity that's working in parallel, 
so that the headquarters process will be in full alignment with 
the new budget structure.
    Senator Begich. Let me ask you the issue we briefly talked 
about yesterday, but you mentioned close to your closing there, 
on the U.S. weather research program. Remind me. That is 
authorized but nothing has been added to it money-wise or other 
aspects; is that correct?
    Dr. Uccellini. Yes. The U.S. weather research program is a 
program developed in the 1990s. It's authorized within NOAA. It 
represents a partnership of NOAA, National Science Foundation, 
NASA. It involved researchers from around the country in the 
academic community, in the private sector. It developed plans. 
We had trouble executing according to those plans because of 
budget limitations.
    Senator Begich. Let me ask you another issue, on the Arctic 
operations. As you know, a lot of activity is certain to occur 
up there for oil and gas exploration. Also, the Bering Sea has 
a lot of movement. More ships are going through the area. Can 
you give me kind of a sense what more needs to be done with 
regards to the work you need to have up there for the National 
Weather Service? Not only for the Coast Guard, but for the 
private sector that's going to be critical for oil and gas 
development, but also all the transportation going through the 
Bering Sea and the Arctic. Could you give me a little sense on 
that?
    Dr. Uccellini. The administration and NOAA have recognized 
the growing strategic importance of the Arctic and commercial 
importance, transportation importance of the Arctic. We are 
working very closely with other agencies on science and service 
plans. I think one of the major issues that we're working 
toward is the improved prediction, for example, of the ice 
fields both as they're created and then as they melt. So the 
National Weather Service in particular is working on those 
types of issues and also on the provision of services through 
the Alaska region in the forecast offices up there to serve 
those needs.
    Senator Begich. This will be my last question because I 
want to--well, let me--when you look at the public and private 
sector kind of work you're doing, what is the most pressing 
issue that you believe is not getting the resources you need? 
In other words, there's a lot of stuff you're doing internally, 
then there's stuff that the private sector is out there kind of 
doing, but then there are those partnerships that, as we've 
talked about, are pretty critical to the long-term health of 
the agency.
    Can you tell me, if you were to kind of prioritize, here's 
the one or two things that just if you had more help and more 
resources--and I know the OMB people are monitoring us right 
now, so they're watching what you might say. So I would ask you 
to be free and open and I will take the blame. So if you could 
tell me what one or two of those issues might be?
    Dr. Uccellini. First of all, I believe that the partnership 
between the private and public sector is excellent and it's 
really been productive in the provision of services, not only 
to the general population, but to their tailored--how they 
tailor their products and services to individual customers. And 
we work in full partnership with them as we move forward.
    One of the particular areas that they've brought to the 
table over the last several years is the more efficient 
provision of our digital data bases, especially coming out of 
the numerical models. We are working with folks from the 
private sector to explore ways that would give them ready 
access to our models and at model resolution. That's just 
turning into--it is a major technological challenge, but we are 
moving forward in that arena.
    We'll work creative ways with them to address any of the 
issues between the private and public sector.
    Senator Begich. Great. Thank you very much.
    Let me pause for a second. We have just a few minutes left 
on the vote, so what I can do is I will say the order is Rubio, 
Wicker, Klobuchar, Schatz. I'm going to go vote. That gives you 
a sense of where you are on the list, and we'll go to Senator 
Rubio.
    Senator Rubio. Do you want me to filibuster?
    Senator Begich. No, take 5 minutes.
    Senator Rubio. No, I only have--I only have a few 
questions.
    Senator Begich. We got rid of that rule on filibuster.
    [Laughter.]
    Senator Rubio. Even on questions? OK.
    Let me just ask you--first, thank you for being here, 
Doctor. I appreciate it very much. What steps have you taken to 
implement the recommendations made by the National Academy of 
Public Administration, and what remains outstanding?
    Dr. Uccellini. We have taken steps--first of all, let me 
just say that I came on board in this position in February 2013 
and since that period of time we've had a lot of budget 
uncertainty, a lot of challenges that we've had to face.
    What the Academy specifically emphasized is to establish a 
process for change and to start working through that. We 
certainly have had discussions along that line. Specific areas 
that they pointed to was the budget restructuring and the 
headquarters realignment, and we are working very actively in 
that arena. It was my highest priority coming into this 
position, and I believe we're making extraordinary progress 
along those lines.
    We're also addressing what they pointed to in terms of the 
research to operations issues. We believe this budget 
restructuring will actually allow us to provide a more 
effective catcher's mitt to the research community.
    Last but not least, we're working as best we can under the 
current circumstances on addressing the consistency issue with 
respect to our products and services that were also cited as an 
essential area that we had to move forward on.
    Senator Rubio. My final question, for the interest of time, 
is what are you doing to better leverage private sector data 
and satellite infrastructure?
    Dr. Uccellini. Well, the private sector data, we--for 
example, aircraft, commercial aircraft data, is an area that we 
are adjusting. It's a critical part of our data stream to feed 
into the models. We also are exploring ways of commercial buys 
on Mesonet data, the surface data.
    With respect to the satellite, we are certainly a major 
partner in the effort to work with the research satellite data 
through the Joint Center for Satellite Data Assimilation. 
That's a NASA-NOAA-DOD joint enterprise. We're working with all 
the research satellite data. We're positioning ourselves for 
the next generation of polar orbiting and geostationary data to 
be able to use those effectively, what I call at day one, when 
they're launched. We're really looking forward to the 
improvements that will be associated with those data streams.
    Senator Rubio. Thank you.
    Senator Klobuchar [presiding]. I'll just ask one question 
and then toss it over, actually two very quickly. One is the 
sequestration, the effect that's had on your Weather Service, 
and if the new budget helps at all with changing that, the 
proposed budget?
    Dr. Uccellini. Well, the sequestration and when it was 
implemented, halfway through a Fiscal Year, had a major impact 
on us. We had to plan for a potential for furloughing because 
of the budget cuts associated with that. The reprogramming that 
occurred in the June-July timeframe allowed us to avoid those 
furloughs. But the uncertainty associated with the budget, even 
as we have the uncertainties today, did not allow us to 
effectively plan and move forward.
    So what we had to do with respect to the sequestration is 
NOAA implement a NOAA-wide hiring freeze, which we operated 
under. There's a board, a review board, and we bring high 
priority positions to that board to ensure that we have the 
field structure that can provide the services.
    But clearly this is a critical concern to us and the 
uncertainties in the budget really do not allow us to plan 
forward in an effective way.
    Senator Klobuchar. Thank you. Just with 30 seconds, are you 
doing more to improve the flood forecasting accuracy?
    Dr. Uccellini. Yes. It's one of the major tasks, not only 
of the modernization of the Weather Service, but since. The 
flash flood and the river flood forecast are a major component 
of our efforts, and a number of these model improvements we're 
pointing to not only affect the atmosphere, but the hydrology 
as well, which is essential for improving our flood forecasts.
    Senator Klobuchar. I appreciate your work. Thank you.
    Dr. Uccellini. Thank you.
    Senator Wicker. Doctor, as I mentioned, after a hurricane 
hits it's very important to determine whether the cause of 
damage was wind or water. That's the purpose of the Coastal 
Act. I know that NOAA has begun implementing the major 
provisions of the Coastal Act, including the development of a 
storm event model. What is the status of the development of the 
Coastal Act storm event model and is NOAA on track to meet 
upcoming deadlines mandated by the Act?
    Dr. Uccellini. First of all, we are working with the 
Federal, private, and academic partners. We've made progress in 
establishing the policy framework and the prototype coastal 
wind and water event data base. I have to say that the current 
budget environment will limit the capabilities to move forward, 
to test, assess, and implement the new named storm event model.
    So we've met the existing milestones, but in terms of 
testing and executing against the new named storm event model 
there will be challenges with the current budget environment.
    Senator Wicker. Realizing that that may slow you down, 
you'll still be able to proceed, though perhaps on a slower 
track; is that correct?
    Dr. Uccellini. The pace at which we will proceed will be 
painfully slow, I'm afraid. This is a major, a major effort to 
implement this storm event model. So I would prefer getting 
back to you with details on what the impact would be and what 
it would do to the milestones related to the implementation of 
that model.
    Senator Wicker. I would appreciate your getting back with a 
supplemental answer for the record.
    What Federal agencies, private industry partners, and 
academic institutions are you working with?
    Dr. Uccellini. Well, the cross-agencies have to do with the 
collection of the data. We're working with the Climate Center 
within NOAA to pull these data bases together and to implement 
the website. The academic community, of course, is located 
within the Gulf region and the coastal regions to deal with 
these types. Then the insurance industries themselves are 
knocking at the door in terms of the information aspects.
    So we're being responsive to this, this consortium in a 
sense of groups, as we move this database forward. Obviously, 
the storm event model is something that we are working more 
internally within NOAA to bring forward.
    Senator Wicker. Thank you very much.
    Senator Rubio. I think what we're going to do is we're 
going to go into a brief recess while the members vote on the 
first vote, and then we'll vote on the second vote, which will 
be right after, and then we'll be right back. I think it'll 
take about 15 minutes.
    So the Committee will stand in recess until we all return.
    [Recess from 11:10 a.m. to 11:14 a.m.]
    Senator Begich [presiding]. Thank you very much. We're 
trying to strategize here on what we're going to do next, but 
I'm glad the Senators have gotten their questions in.
    Senator Schatz is next and the plan would be, just so folks 
know, we'll monitor the vote. If the vote, the second vote, 
starts, we'll pause, we'll go vote, and then Senator Schatz 
will take over as the Chair of the Committee, as I'm unable to 
stay for the full hearing. But let's go ahead, Senator Schatz.
    Senator Schatz. Thank you, Chair Begich.
    I just have one question. It has to do with the use of 
social media in terms of mobilizing people in the case of 
disasters. When I was Lieutenant Governor in Hawaii and we had 
two tsunami events which didn't end up being very serious, I 
saw the advantages and disadvantages of social media, in 
particular Twitter, for emerging events. And I'm wondering what 
kind of thinking you're doing, whether there are best practices 
being developed, because I see it as a tremendous asset, but 
also potentially problematical in terms of getting the wrong 
information out and possibly causing panic and dangerous 
situations as a result of incorrect information.
    So what are we doing in terms of trying to wrestle this 
alligator to the ground, utilize it the best we can, but also 
understand that there's probably nothing we can do to prevent 
people from using social media, and so in my view the best 
thing we can do is to make sure that we get the right 
information out and use our friends in social media to get the 
word out on our behalf. But I'd be interested in your thoughts.
    Dr. Uccellini. First of all, what we have learned over the 
past 10, 20 years as this way of disseminating information and 
way of bringing information in is changing rapidly is that we 
need to embrace those changes. This is not only to provide 
multiple means of getting our critical information out to those 
that are in greatest threat, but also to bring information in 
of what's actually going on. We're seeing this over and over 
again, that, whether it's the tweets, the Facebook accounts, 
they are providing a valuable source of information to us for 
what's actually happening out there in many critical 
situations.
    We have learned through a number of meetings, conversations 
with social scientists, with first responders, with the 
emergency management community, that people will rely on 
multiple sources of information before they will make a 
decision. But what really is important to them is what's coming 
to them, and increasingly through cellphones. So we've been 
very active in making sure that we get consistent messages out 
through these various means of communications, and the social 
media aspect of that is very large.
    The recent example in Washington, Illinois, where people in 
church were receiving warnings focused right on their area 
through their cell phones, is an illustration of that. They 
were able to take action and basically save their lives.
    So we embrace it and we will continue to work with the 
advances associated with the social media.
    Senator Schatz. It sounds to me as though you are aware of 
it, you are riding it, you are utilizing it, but that you're 
not quite ready to articulate best practices--which, by the 
way, I think we may not be ready for that because by the time 
we're done with a social media policy it will be obsolete. But 
it is I think important to kind of figure out from a staffing 
standpoint and from a communications strategy standpoint how to 
separate it out.
    I saw in our emergency operations center someone who was 
generating press releases and handling the television media, 
and our civil defense Twitter feed was posting something every 
90 minutes, which just wasn't going to work. So I'm just 
interested in making sure that we are aggressively staying on 
top of it. We don't have to codify anything, but I think we do 
need to make sure that we're actually devoting personnel to 
this particular proposition, because so far it's been mostly 
beneficial, but I saw a couple of instances where bad 
information was getting re-tweeted and caught fire on the 
Internet, and it was very, very difficult to unravel once it 
had been spread.
    Dr. Uccellini. Let me assure you, whether it's within the 
Weather Service or how we reach out through our private sector 
partners and the academic community, we are very much engaged 
in this issue and moving forward with it. We understand exactly 
what you're saying. It's one of the reasons why, from a best 
practices perspective, we want to ensure the consistency of our 
products as they go through these multiple sources, to ensure 
that we get that message out in a very straightforward way and 
a very consistent way.
    Senator Schatz. Thank you.
    Senator Begich. Thank you very much, Doctor. We appreciate, 
one, your willingness to serve, public service. Thank you for 
being here. Thanks for giving some good information. There will 
probably be some questions for the record later. But again, 
just wanted to appreciate you being here.
    I know--I think you had some foreign travel you rearranged 
to be here today, and we greatly appreciate it. I know the work 
we do is not just domestic, but we have international 
relationships with our weather work. So I know that's an 
important part. I know you had to rearrange your schedule and 
around the holiday season it is hard to do that and make sure 
you can still get a seat on the planes later.
    So thank you very much for being here today, and we will 
dismiss you from this panel.
    Dr. Uccellini. Thank you.
    Senator Begich. Thank you very much.
    What we'll do now is we'll ask the next panel to go ahead 
and set up. What we'll attempt to do while we're waiting for 
the second vote to start, we will have the panelists start 
their testimony. And we may pause you in between so we can go 
vote. Then what will happen is Senator Schatz will come back 
and be running the meeting, chair the meeting, and finish out 
the meeting.
    So please, can we have the next panel come forward.
    [Pause.]
    Senator Begich. Thank you all again for joining us. I 
appreciate it.
    Mr. Myers, I feel like you're like the Lone Ranger. 
Everyone's off to the side from you. I don't know if that means 
you get the hardest questions. I don't know about that.
    But we want to thank you all for being here this morning. 
What we'll do is we'll just start going right down the row 
here. Like I say, we may pause you in between after one of your 
testimonies just so we get time to get back here.
    So let me first go to Dr. William B. Gail, President-elect, 
American Meteorological Society. Please, Mr. Gail.

        STATEMENT OF WILLIAM B. GAIL, Ph.D., CO-FOUNDER

          AND CHIEF TECHNOLOGY OFFICER, GLOBAL WEATHER

          CORPORATION (GWC); PRESIDENT-ELECT, AMERICAN

            METEOROLOGICAL SOCIETY (AMS) AND MEMBER,

          COMMITTEE ON THE ASSESSMENT OF THE NATIONAL

       WEATHER SERVICE'S MODERNIZATION PROGRAM, NATIONAL

           RESEARCH COUNCIL OF THE NATIONAL ACADEMIES

    Dr. Gail. Chairman Begich and distinguished members of the 
Subcommittee: It is a privilege to be present here today and to 
testify. Thank you for the invitation. My name is Bill Gail. I 
am co-founder and CTO of Global Weather Corporation, a 
successful startup that exemplifies the growing commercial 
opportunities in weather. I'm also President-elect of the 
American Meteorological Society.
    I'm speaking to you today primarily as a member of a 
committee chartered by the National Research Council of the 
National Academy of Sciences. We recently reviewed the past and 
future of the National Weather Service and released two 
reports. The first described how the Weather Service 
modernization of the 1990s introduced major improvements to our 
Nation's weather observing systems and to the Weather Service 
structure. This was needed to remedy inadequate modernization 
from several decades prior. The committee felt the Weather 
Service successfully learned most lessons from the 
modernization and it has since continued to modernize.
    In the second report, titled ``Weather Services for the 
Nation: Becoming Second to None, Look to the Future,'' we found 
that today's challenges are no less important than those of the 
1990s modernization. However, the challenges today are largely 
external, reflecting the ever-evolving user needs and 
technology context.
    The Committee identified three key challenges: one, keeping 
pace with advances in science and technology; two, meeting 
society's expanding needs for better weather information; and 
three, effectively collaborating with the larger enterprise to 
achieve the greatest public benefit. Meeting these key 
challenges will require the Weather Service to evolve its role 
and how it operates.
    We made three recommendations. Our first was that the 
Weather Service should refocus on its core capabilities. These 
include creating foundational data sets, performing essential 
functions, such as forecasts and warnings, and conducting 
operationally-related research. All are needed for the Weather 
Service to perform its central role of protecting lives and 
property and for it to support the enterprise as a provider of 
additional services. Accomplishing this requires the Weather 
Service to prioritize those things only it can do and avoid 
duplicating capabilities where viable alternatives exist.
    Our second recommendation was to update Weather Service 
function and structure. The current structure reflects roles 
appropriate to the 1990s. Technology has changed much of the 
rationale for the present structure. We anticipated that the 
since-released NAPA report would add needed details in this 
area.
    Our third recommendation addressed the need to better 
leverage the larger enterprise of organizations providing 
weather services and systems. The relationship between the 
Weather Service and the rest of the enterprise has improved 
considerably since the modernization, with praise deserved by 
all parties. Improved leveraging enhances the Weather Service's 
ability to serve the Nation and allows it to enhance its 
services at a time when its own resources may be constrained.
    The Committee believed that meeting today's challenges will 
require changes at the Weather Service over as much as a 
decade. The result will be a more agile and effective Weather 
Service. In a constrained resource environment, this approach 
makes possible benefits to the Nation beyond what the Weather 
Service budget alone allows.
    My personal experience starting a weather company is a 
testament to the report's recommendations. This is indeed a 
great time to be part of this community. Through ongoing 
technological and scientific improvements, we can serve the 
Nation, our citizens, and businesses far more effectively than 
has ever been possible before.
    Why is this important? Superstorm Sandy and recent 
tornadoes in Illinois, Alabama, and Oklahoma remind us that we 
can and must do far more to protect lives and property. There 
is also great potential for weather information to be a growth 
engine for the economy. On average, weather variability alone 
alters economic output up to 3 percent at the State level from 
one year to the next.
    Indeed, in every market my company enters we find 
opportunity for efficiency improvement. For example, Excel 
Energy uses 10 percent of America's wind farm capacity. 
Improved wind farm forecasts we provide have saved over $22 
million for their ratepayers. The trucking industry lost $18 
billion in 2011 to weather-related accidents and delays. Yet 
weather forecasts are not routinely used. A company called 
Telogis is about to change that using our services to offer 
weather and road condition forecasts for every mile of major 
road in the country.
    The Nation will benefit from strong, visionary efforts to 
achieve long-term weather readiness. The weather community, 
built from the most dedicated people you will find anywhere, is 
committed to serving the Nation. We are working aggressively 
toward the readiness goal and welcome your support.
    Thank you for the opportunity to testify and I would be 
pleased to answer your questions.
    [The prepared statement of Dr. Gail follows:]

  Prepared Statement of William B. Gail, Ph.D., Co-founder and Chief 
Technology Officer, Global Weather Corporation (GWC); President-Elect, 
  American Meteorological Society (AMS) and Member, Committee on the 
      Assessment of the National Weather Service's Modernization 
      Program, National Research Council of the National Academies
    Chairman Begich, Ranking Member Rubio, and distinguished members of 
the Subcommittee: It is a privilege to be present here today and to 
testify. Thank you for your invitation. My name is Bill Gail. I am co-
founder and Chief Technology Officer of Global Weather Corporation, a 
provider of precision weather forecasts to businesses within the 
energy, media, transportation, and consumer sectors. I am also 
President-Elect of the American Meteorological Society (AMS), and I was 
a member of the recent National Research Council study Weather Services 
for the Nation: Becoming Second to None that recommended future 
directions for the National Weather Service. My academic training is in 
physics and electrical engineering and I have over two decades of 
experience in the fields of meteorological satellites, weather 
services, and location-aware software.
    Let me first commend you for the attention you are giving to the 
topic of U.S. weather readiness. Support for our Nation's weather 
infrastructure pays off many times in benefit to the nation, and 
legislation to accomplish that is wise. Properly crafted legislation, 
sufficiently comprehensive in scope and not overly prescriptive, can 
help achieve what I believe is a broadly supported objective of 
elevating the Nation's weather, water, and climate capabilities.
    I'll begin by speaking to you today in my role as a member of the 
Committee that produced the Second to None report for the National 
Research Council (NRC). The Research Council is the operating arm of 
the National Academy of Sciences, National Academy of Engineering, and 
the Institute of Medicine of the National Academies, chartered by 
Congress in 1863 to advise the government on matters of science and 
technology. I will conclude by providing personal perspectives based on 
my experience starting a company in this expanding industry. My company 
has been successful in today's difficult economy precisely because high 
quality weather information is increasingly needed by our Nation's 
businesses across many industries to serve their customers, improve 
operations, and be competitive in the global marketplace. For this 
statement, I draw directly on prior testimony I have given in the House 
on similar topics.
                                 Part I
Background of the NRC Second to None report
    The Second to None report, released in August of 2012, was the 
final report of a two-part assessment of the National Weather Service's 
Modernization and Associated Restructuring (MAR). The report's title 
states nicely what the Committee believed deeply and what I understand 
you are seeking with this hearing: ensuring world-leading capacity of 
the U.S. weather enterprise so as to best serve our Nation.
    In the first report, the Committee was asked to perform an overall 
review of the MAR, which was initiated in the 1980s and completed about 
a decade later. During that time, major upgrades were made to the 
satellite, radar, and ground-based observing systems. In addition, the 
field offices and national centers underwent significant restructuring 
and major staffing realignment. Although the MAR faced many difficult 
lessons during this decade-long process, the Committee concluded that 
it was a success and worth the investment. One of the most striking 
results has been the improvement in the probability of detecting and 
issuing warnings for severe weather events. For example, the 
probability of detection for flash floods increased from about 40 
percent to about 90 percent over the course of the MAR.
    The second report, referred to widely as Second to None, presents 
forward-looking advice for the National Weather Service (NWS) on how 
best to plan, deploy, and oversee future improvements based on lessons 
from the MAR. I will focus on that report in the first half of this 
statement.
Identifying Today's Key Challenges
    The MAR produced major improvements to our Nation's weather 
observing systems and to the NWS structure. It was primarily the 
response to an internal failure to properly modernize the technology 
base and organizational structure from the mid 1950s to the early 
1980s. The Committee felt that the NWS successfully internalized most 
lessons from the MAR, and has since continued to modernize to the 
extent that resources have allowed. Yet today the challenges the NWS 
faces are no less important than those that motivated the MAR era. 
However, rather than internal failures, today's challenges are largely 
external, reflecting the ever-more rapidly evolving user needs and 
technology context of our society. These challenges include:

  <bullet> Keeping Pace. The pace of scientific and technological 
        advancement in the atmospheric and hydrological sciences 
        continues to accelerate. As an outgrowth of public and private-
        sector investment, technology advancements are exceeding the 
        capacity of the NWS to optimally utilize these technological 
        achievements. Furthermore, enormous amounts of data generated 
        by new surface networks, radars, satellites, and numerical 
        models need to be rapidly distilled into actionable information 
        to create and communicate effective public forecasts and 
        warnings. The skills required to comprehend, manage, and 
        optimize this decision-making process go beyond traditional 
        meteorological and hydrological curricula. Hence, the NWS 
        workforce skill set will need to evolve appropriately.

  <bullet> Meeting Expanding and Evolving User Needs. Increasingly, the 
        United States is an information-centric society. Meteorological 
        and hydrological information in particular is central to 
        societal security and welfare. Unlike some other industries, 
        weather is largely an information-based enterprise. The public 
        expects continuous improvement in public safety and property 
        protection related to severe weather.

  <bullet> Partnering with an Increasingly Capable Enterprise.\1\ At 
        the time of the MAR, delivery of weather information was 
        largely synonymous with the NWS, the broadcasting sector, and 
        those private-sector suppliers of weather data and services 
        that supported the broadcasting sector (and a few specialized 
        industries). Outside of this, the weather, water, and climate 
        enterprise had limited capacity. Today, the enterprise has 
        grown considerably, and now the NWS has many important 
        partners. All of these entities rely on core NWS infrastructure 
        and capabilities to provide customized services. Together this 
        combination of the NWS and third parties serves the Nation 
        better than the NWS could on its own.
---------------------------------------------------------------------------
    \1\ The ``enterprise'' includes all entities in the public, 
private, non-profit, research, and academic sectors that provide 
information, services, and infrastructure in the areas of weather, 
water, and climate. For the purposes of this report, ``enterprise'' is 
often used as shorthand to refer to those enterprise elements outside 
NOAA that it can draw on in its mission. The non-NOAA portion of the 
enterprise is now of equal or greater economic size compared to the 
NOAA portion.

    Today's challenges are made more difficult by the external context, 
---------------------------------------------------------------------------
two areas of which are of particular importance:

  <bullet> Budget resources are uncertain and will likely be 
        constrained for the next decade.

  <bullet> Operational performance standards against which NWS is 
        measured, including those set by international weather service 
        counterparts and private-sector entities, are increasingly 
        high.

    Additional important contextual issues include: the transformative 
pace of technological change; expansion of the number and type of 
observational data; continued concentration of infrastructure 
investment and population growth in vulnerable areas; the possibility 
of changing weather patterns arising from climate change; and ongoing 
evolution of international dimensions.
Responding to the Challenges
    Meeting today's key challenges will require NWS to evolve its role 
and how it operates. The goal is for it to become more agile and 
effective. This report presents three main recommendations for 
accomplishing this: Prioritize Core Capabilities, Evaluate Function and 
Structure, and Leverage the Entire Enterprise.
I. Prioritize Core Capabilities
    The NWS needs to prioritize those core capabilities that only the 
NWS can provide so as to deliver the products and services upon which 
the public and the entire national weather, water, and climate 
enterprise depend. These core capabilities include creating 
foundational datasets, performing essential functions such as issuing 
forecasts, watches, and warnings, and conducting operationally-related 
research.
    Recommendation I: The National Weather Service (NWS) should:

  1.  Evaluate all aspects of its work that contribute to its 
        foundational datasets, with the explicit goal of ensuring that 
        those foundational datasets are of the highest quality and that 
        improvements are driven by user needs and scientific advances. 
        As part of this initial and ongoing evaluation effort, clear 
        quality and performance metrics should be established. Such 
        metrics would address the technical components of NWS 
        operations, as well as the efficiency and effectiveness of the 
        flow of weather information to end users.

  2.  Ensure that a similarly high priority is given to: (a) product 
        generation and dissemination; (b) the brokering and provision 
        of data services, and (c) development and enhancement of 
        analysis tools for maintaining a common operating picture 
        (COP).

  3.  Engage the entire enterprise to develop and implement a national 
        strategy for a systematic approach to research-to-operations 
        and operations-to-research.

    In support of this recommendation, the NWS should:

  <bullet> Continue effective technology infusion programs,

  <bullet> Improve numerical weather prediction systems,

  <bullet> Develop and advance observational data metrics,

  <bullet> Lead a community effort to provide probabilistic forecasts,

  <bullet> Develop hydrologic prediction metrics, and

  <bullet> Maintain an ongoing capability for development and testing 
        of its incremental technical upgrades.
II. Evaluate Function and Structure
    The current structure of the NWS primarily reflects the functions 
of the weather, water, and climate enterprise in the 1990s. Technology, 
including improvements in communications and computer forecast models, 
has changed much of the rationale for the present organizational 
structure of the NWS. In view of the directions outlined in NWS's 
Weather-Ready Nation Roadmap for expanding the role of forecasters and 
other NWS staff, it would be prudent to evaluate the NWS's 
organizational and functional structure.
    Recommendation II: In light of evolving technology, and because the 
work of the National Weather Service (NWS) has major science and 
technology components, the NWS should evaluate its function and 
structure, seeking areas for improvement. Any examination of potential 
changes in the function and organizational structure of the NWS 
requires significant technical input and expertise, and should include 
metrics to evaluate the process of structural evolution. Such an 
examination would include individual NWS field offices, regional and 
national headquarters and management, as well as the National Centers 
and the weather-related parts of the National Oceanic and Atmospheric 
Administration (NOAA) such as the National Environmental Satellite, 
Data, and Information Service (NESDIS) and the Office of Oceanic and 
Atmospheric Research (OAR).
    In support of this recommendation, the NWS should:

  <bullet> Broaden the scope of its post-event evaluations,

  <bullet> Expand its vision of team structures and functions within 
        and between forecast offices,

  <bullet> Develop performance metrics-based approaches to assessing 
        staff skill sets,

  <bullet> Retrain service-hydrologist staff to instill an evolutionary 
        culture.
III. Leverage the Entire Enterprise
    The relationship between NWS and the rest of the enterprise has 
improved considerably since the MAR, with praise deserved by all 
parties. The Committee views further improvement of NWS-enterprise 
interaction as a way to enhance the NWS's capability to accomplish its 
mission of serving the public. This is especially important when it is 
seeking to enhance its service at a time when the Nation faces 
constrained resources. Leveraging the entire enterprise provides one 
means to further NWS's mission of serving the public.
    Recommendation III: The National Weather Service (NWS) should 
broaden collaboration and cooperation with other parts of the weather, 
water, and climate enterprise. The greatest national good is achieved 
when all parts of the enterprise function optimally to serve the public 
and businesses. This process starts with the quality of core NWS 
capabilities but is realized through the effectiveness of NWS-
enterprise relationships. A well-formulated enterprise strategy will 
also return direct benefit from the enterprise to the NWS, especially 
in areas of shared research, technology development, observational data 
sources, and improved end-user access to NWS-generated information.
    In support of this recommendation, the NWS should:

  <bullet> Seek to better understand the functioning of the secondary 
        value-chain (defined as enterprise partners that provide value-
        added services beyond dissemination of NWS weather and 
        warnings), and

  <bullet> Strengthen its systems engineering and procurement processes 
        for major systems.
                                Part II
A Revolution in Service to the Nation
    Now let me turn to my personal perspective, derived from my 
experience starting a weather services company in this challenging 
economy and from my role as incoming president of the American 
Meteorological Society (AMS).
    I have found this to be a tremendous time to be part of the weather 
community. We have the opportunity to serve the nation--our citizens 
and businesses--far more effectively than has ever been possible. The 
reason is simple. Our work involves three basic activities: observing 
the current weather, converting that information into forecasts, and 
getting the information to the people who need it. Over the last fifty 
years, this three-step process has been revolutionized. Starting in the 
1960s, the advent of advanced observing systems such as satellites and 
Doppler radar gave us new ways to view current weather. Then in the 
1980s advances in both computing power and modeling techniques began to 
make possible far more accurate forecasts of future weather. More 
recently, rapidly expanding Internet access and now smartphone 
ownership have allowed us to make great progress in delivering the 
right information to people and businesses--at the time they need it.
    For us, getting to this point is a dream. After fifty years, the 
fruits of the weather information revolution are now within reach. We 
can finally start delivering on the ultimate vision: individualized 
weather information matched to every user's need, time, and place. With 
that, we in the weather industry can do phenomenal new things, not only 
for the Nation but also as leaders in the weather market 
internationally. NOAA's newly-developed strategy, the Weather-Ready 
Nation, is nicely aligned with this vision.
    Why is this important? We have all been touched by the tragic 
tornados in Oklahoma, Alabama, and Illinois over the past few years, 
and by the devastation of Superstorm Sandy. With Sandy, we were 
successful in anticipating an unusual westward turn toward New York 
City--it made a huge difference in our preparedness. For Oklahoma, we 
forecast with over 30 minutes lead time, but more accurate track 
estimates and personalized communications would have helped. Getting 
the right information to people and businesses at the right time is 
critical.
A Growth Engine for the Economy
    We know more can be done to protect lives and property, and we must 
do so. But often forgotten is the importance of weather information as 
a growth engine for our economy. A recent study showed that, on a 
state-by-state basis, variability in U.S. economic output due to 
weather-related supply and demand inefficiencies averages more than 3 
percent. In some states, it is over 10 percent. A significant portion 
of this can be recovered as economic growth through improved weather 
information. Doing so would be a huge boost to the Nation's welfare. As 
we seek ways to grow our economy, better use of weather information can 
provide large returns from small investments. This is true across 
virtually all business sectors.
    Many of us today, from academia to NOAA to the commercial sector, 
are focused on ways to accomplish this. The commercial sector is 
expanding because there are customers within the public and the 
business sector who derive real value from what we do. My startup 
company is a perfect example. In some cases, we are having trouble 
keeping up with the demand because it is growing so fast. I would like 
to provide three examples from my own company's experience reflecting 
innovative approaches to business growth through better use of weather 
information.

  <bullet> The BH Media Group, owned by Berkshire Hathaway, has 
        recently acquired nearly 100 small-and mid-sized newspapers. 
        Their vision is that newspaper companies are not dying, but 
        rather the best source of critical local information, which 
        will be delivered by these companies increasingly over web and 
        mobile. Accurate weather forecasts are often the most important 
        information they provide to smaller communities. The move to 
        web and mobile allows them to customize forecasts for each 
        reader, creating new ways for businesses to become more 
        efficient and individuals more productive. My company is 
        helping them implement the vision.

  <bullet> Xcel Energy is the off-taker utility for 10 percent of 
        America's wind farm capacity. Starting in 2009, Xcel privately-
        funded R&D at the National Center for Atmospheric Research 
        (NCAR), focused on improving the accuracy of wind forecasts. 
        The resulting forecast system has since been successfully 
        transitioned to my company. Its operational use has saved over 
        $22 million for Xcel ratepayers.

  <bullet> Telogis is a provider of information services to the 
        commercial vehicle industry, including back office and in-cab 
        navigation. They support nearly a million trucks in the U.S. In 
        2011, this industry lost nearly $18 billion to weather-related 
        accidents and delays, yet weather information is not routinely 
        used by trucking companies. My company is working with Telogis 
        to change that, providing atmospheric weather and road surface 
        conditions for every mile of major road through interfaces that 
        can be easily and safely used by truckers.
The Remarkable Weather Enterprise
    None of this could happen without a remarkable collaboration 
between three organizational sectors: academia, government agencies 
such as NOAA and the DOD weather services, and the commercial sector. 
We refer to this as the American weather enterprise. Academic and 
research organizations (which may involve all three of the sectors) are 
the foundation, providing the basic knowledge that drives innovation 
and the education for our workforce. Government agencies including NOAA 
provide the core data and forecast capabilities used across the 
enterprise. The commercial sector customizes information for end-users 
and delivers it across many channels, through what we call the 
secondary value-chain (direct delivery to the public by NWS is the 
primary value-chain). For example, though NOAA is the original source 
for virtually all weather information in this nation, today 95 percent 
of delivery occurs through this secondary value-chain via television, 
websites, and apps from the commercial sector. By working together, 
this enterprise has greatly improved the quality of weather forecasting 
and the ability to deliver that information effectively. Collaboration 
allows us to be bigger than the sum of our three parts--a key reason 
for our success. Barry Myers of AccuWeather, in prior testimony to the 
House, described the American weather enterprise as ``better than 
anywhere on Earth'', and I fully agree with his statement.
    This shining example of how government works productively with the 
academic and commercial sectors can be held up to other industries to 
help them do the same. But it has not always been this way. We have 
worked hard at making this happen. Indeed, we are entering what might 
be called the third phase of our enterprise. The first phase, through 
the 1990s, was characterized by mistrust and competition, particularly 
between the government and commercial sectors. A decade ago a National 
Research Council report called Fair Weather laid out a process for 
fixing the situation, and the result has been dramatic. It led us into 
a second phase of the enterprise characterized by communication and 
mutual respect. We have made much progress as a result. As we enter the 
third phase, much deeper collaboration is needed. We are just beginning 
to build the mechanisms that make this possible, such as a recent AMS-
led pilot effort to identify enterprise-wide priorities for forecasting 
improvement. We need more collaboration like this if we are to meet the 
Nation's growing needs.
    A portion of our community put forth a proposal last fall to form a 
congressionally-chartered Weather Commission, similar to the successful 
Oceans Commission about a decade ago. This, some believed, would allow 
us to address policy issues at a level appropriate to their national 
importance. A group of community leaders, representing the commercial 
sector, academia, and non-profits, met in March at a summit in Dallas 
to consider this along with alternatives. AMS co-sponsored and 
facilitated the meeting. The Dallas group released last spring a 
proclamation in which we agreed to a two-prong approach. In the near-
term, we are building an advocacy organization called the Weather 
Coalition and use that as a voice for the community, particularly with 
regard to possible legislation. For the longer-term, we will pursue 
options for foundational change, including the possibility of a Weather 
Commission. The Dallas meeting was a milestone in our ability to speak 
with a unified voice. You will be hearing from the Weather Coalition in 
the near future, and they will work with you on any legislation as it 
progresses.
    The Weather Coalition, however, will be only the face of a much 
larger community-driven planning activity. Much of the planning input 
to guide the Weather Coalition will come from professional 
organizations such as AMS which have the broad membership to access and 
organize community thinking. For example, the AMS-led forecast 
improvement group, which I mentioned previously, brings together our 
three sectors to explore development of a joint plan for the Nation's 
forecast capabilities. The resulting recommendations are publicly 
available.
Building A Better Enterprise
    We are not without flaws as an enterprise. Over the last decade and 
more, we have struggled with our satellite system and worked to stay 
competitive with our European counterparts in weather forecast models. 
We have labored to build mechanisms that help us collaborate across the 
enterprise and speak with a single voice. NOAA in particular has faced 
challenges in areas such as the transition from research to operations 
and major systems procurement. These issues have been openly documented 
in reports from the National Research Council, the National Academy of 
Public Administration, and NOAA's own Science Advisory Board.
    Such reports reflect broad input from the community and 
professional advisory groups. It is time to heed this advice and start 
implementing the changes needed to fulfill the vision, including NOAA's 
Weather-Ready Nation. Legislation that can accelerate this, and in 
particular motivate the cultural and organizational changes within NOAA 
recommended in these reports, is welcome. This must be done wisely and 
incrementally. Moving forward, additional planning guidance will become 
available from the Weather Coalition and other sources.
    I have talked mostly in terms of weather for the sake of 
simplicity, but it is important to realize how our strength derives 
from a breadth of disciplines. For example, we increasingly recognize 
that space weather is a fundamental counterpart to atmospheric weather. 
Hydrology and oceanography are key sister disciplines. Disciplines such 
as coastal meteorology have specific but essential roles. Inclusion and 
cross-disciplinary integration is something we must prioritize.
    Climate is increasingly an important piece of high-quality weather 
forecasts, especially as the demand for longer lead-time forecasts 
grows. For the real world in which my company operates, weather and 
climate can't be separated. There just is no good place to draw a line 
between them. Indeed, forecasts for coming seasons are enormously 
valuable to companies in energy and agriculture. The travel and leisure 
industries take an even longer view; they can benefit directly from 
improved forecasts of the El Ninno cycle even years ahead. Construction 
companies need to anticipate flood zones and coastal erosion decades 
out. Our commodities markets--from heating oil to orange juice--could 
not function without seasonal climate forecasts.
A Path Forward
    The issues we must address to make progress are not simple. The 
problems are interlinked. For NOAA, the solutions require collaboration 
across many of its organizational elements. Increasingly, NOAA must 
extend this collaboration to include the enterprise--public, academic, 
and commercial--as a whole. As we seek ways to move forward, the 
leadership of our community, including those within NOAA, should be 
encouraged to innovate and to bring forth new ideas for improving how 
we work. Truly novel approaches to public-private partnerships that 
enable open data access and low-cost use of commercial data--not just 
the old data buy paradigm--are but two examples. Rather than 
prescribing specific methodologies, legislation that promotes broad 
innovation in response to community guidance, and provides the 
resources to accomplish it, would produce results.
    Unlike most people who have the honor to serve as AMS president, my 
career has not been entirely within the field of weather or climate. In 
addition to weather, I have also worked in consumer software and 
satellite construction, serving commercial, scientific, and military 
customers. That gives me a bit of an outsider perspective. My 
experience is that the people in this field--and I enthusiastically 
include those in NOAA--are the most dedicated, passionate, and 
innovative people I have ever met. They have one focus: make the Nation 
safer and more productive. That commitment to integrity is a rare 
quality today. In your role as legislators, this can be leveraged to 
improve our Nation. I believe organizations need to change and 
progress, and that NOAA would benefit from further focus on 
modernization. The people within our community can be the foundation 
for that change.
Success for the Nation
    The recommendations in our NRC report Second to None, along with 
those from other advisory reports, provide a sound basis for moving 
forward. My personal view is that Congress can help make U.S. readiness 
in weather, water, and climate a reality, and ensure our ongoing 
leadership of the world community, by focusing on five simple yet 
fundamental principles:

  <bullet> Put Forth Visionary Framing. Frame the goal of U.S. weather 
        readiness as a core national priority, at the level of national 
        security, through appropriately visionary legislation

  <bullet> Rely on Expert Advice. Build on the excellent existing 
        community advice, including formal advisory reports

  <bullet> Define a Path for Change. Work with us to define a path for 
        successful change, involving all three enterprise sectors and 
        built on transparent processes

  <bullet> Include All Enterprise Elements. Ensure that this change 
        enables all three enterprise sectors and all needed disciplines 
        to best serve the Nation and position the U.S. as a global 
        leader in weather, water, and climate services

  <bullet> Allocate Effective Authority. Provide the right authority 
        and direction to those in government and across the enterprise 
        who are committed to making such changes and achieving the goal 
        of U.S. weather readiness so they can move forward effectively 
        in its pursuit.

    Thank you, once again, for the invitation to testify. I am happy to 
answer any questions the Subcommittee might have.

    Senator Begich. Thank you very much.
    We just got notified the vote has started. So we'll do, if 
we can--thank you for being patient--we'll just pause here for 
enough time for us to go there and vote, and when Senator 
Schatz comes back here he'll chair the meeting and continue the 
panel. So if you can just hang tight and relax. I almost said 
have a drink, but I meant have water.
    But please be patient while we go do our vote here.
    Thank you very much.
    [Recess from 11:28 a.m. to 11:29 a.m.]
    Senator Schatz [presiding]. Thank you very much, Dr. Gail.
    Mr. Young, please proceed. Mr. Young, thank you.

  STATEMENT OF A. THOMAS YOUNG, CHAIR, SATELLITE INDEPENDENT 
                       REVIEW TEAM, NOAA

    Mr. Young. Thank you very much, Mr. Chairman. I'm pleased 
to have the opportunity to present the results of an 
independent review of the United States civil weather satellite 
enterprise. I had the privilege to chair the initial 
independent review in 2012 and a follow up review in 2013. The 
findings and recommendations are documented in publicly 
available reports dated July 20, 2012, and November 8, 2013.
    Data provided by NOAA satellites in geosynchronous and 
polar orbits are mandatory to have accurate, reliable weather 
forecasting and severe storm warnings. Without accurate, 
reliable forecasts and warnings, lives, property, and the 
United States economy are at risk. For more than four decades, 
the United States has had a robust satellite program that has 
provided the data to support our incredible weather forecasting 
system. We have come to take for granted this exceptional 
capability that has become a critical element of the fabric of 
our society.
    Today this robust capability continues with the 
geosynchronous system. Current operating systems and future 
systems under development, namely GOES-R, will serve our Nation 
well. The GOES-R series is dependent upon funding to maintain 
schedule to assure there is no gap in the continuity of data.
    The status of the polar-orbiting system is more precarious. 
Currently our weather and severe storm forecasting capability 
is dependent upon satellites that are operating beyond their 
design life and a research and development satellite whose data 
is now used operationally.
    Future capability is dependent upon the Joint Polar-
orbiting Satellite System, called JPSS, which is under 
development. JPSS is the only approved future United States 
polar-orbiting weather satellite program.
    Numerous previous decisions have resulted in a fragile, 
non-robust, polar-orbiting architecture. Current plans for JPSS 
will result in several years of operation that is one failure 
from a gap providing data for weather and severe storm 
forecasting. This is an unacceptable position for data so 
critical to lives, property, and the economy. There is an 
unacceptably high probability of a gap in JPSS polar-orbiting 
data that could have a duration of months or years. The severe 
implications of such a gap make it mandatory that a gap-filler 
satellite program be initiated immediately and urgent changes 
in the JPSS program be implemented to establish a robust 
program with a ``two failure to have a gap'' criterion.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Young follows:]

             Prepared Statement of A. Thomas Young, Chair, 
                Satellite Independent Review Team, NOAA
    I am pleased to have the opportunity to present the results of an 
independent review of the United States civil weather satellite 
enterprise.
    I had the privilege to chair the initial independent review in 2012 
and a follow-up review in 2013. Findings and recommendations are 
documented in publicly available reports dated July 20, 2012, and 
November 8, 2013.
    Data provided by National Oceanic and Atmospheric Administration 
(NOAA) satellites in geosynchronous and polar orbits are mandatory to 
have accurate/reliable weather forecasting and severe storm warnings. 
Without accurate/reliable forecasts and warnings lives, property and 
the U.S. economy are at risk.
    For more than four decades the United States has had a robust 
satellite program that has provided the data to support our incredible 
weather forecasting system. We have come to take for granted this 
exceptional capability that has become a critical element of the fabric 
of our society.
    Today, this robust capability continues for the geosynchronous 
system. Current operating systems and the future system under 
development, the Geostationary Operational Environmental Satellite 
(GOES)-R series, will serve our Nation well. The GOES-R series is 
dependent upon funding to maintain schedule to assure there is no gap 
in the continuity of data.
    The status of the polar orbiting system is more precarious. 
Currently, our weather and severe storm forecasting capability is 
dependent upon satellites that are operating beyond their design life 
and a research and development (R&D) satellite whose data is now used 
operationally. Future capability is dependent upon the Joint Polar-
orbiting Satellite System, JPSS, which is under development. JPSS is 
the only approved future United States polar-orbiting weather satellite 
program. Numerous previous decisions have resulted in a fragile, non-
robust polar-orbiting architecture. Some of the decisions were made 
with the best of intentions but resulted in negative unintended--some 
highly adverse--consequences. Current plans for JPSS will result in 
several years of operation that is one failure from a gap in providing 
data for weather and severe storm forecasting. This is an unacceptable 
position for data so critical to lives, property, and the economy.
    There is an unacceptably high probability of a gap in JPSS polar-
orbiting satellite data that could have a duration of months or years. 
The severe implications of such a gap make it mandatory that a gap 
filler satellite program be initiated immediately and urgent changes in 
the JPSS program be implemented to establish a robust program with a 
``two failure to have a gap'' criterion.
    Thank you.
                                 ______
                                 
                            A. Thomas Young
    A. Thomas Young joined NASA in 1961. He was Mission Director for 
the Viking Project, Director of the Planetary Program, Deputy Director 
of the Ames Research Center and Director of the Goddard Space Flight 
Center.

    Mr. Young joined the Martin Marietta Corporation in 1982. He is the 
former President and COO of Martin Marietta. He retired from Lockheed 
Martin in 1995.

    Following retirement, he has been on Corporate Boards and lead 
numerous Committees and Review Teams associated with national security 
and civil space.

    Mr. Young is the former Chairman of SAIC.

    Mr. Young is a member of the National Academy of Engineering.

    Senator Schatz. Thank you very much, Mr. Young.
    Mr. Myers, please proceed.

    STATEMENT OF BARRY LEE MYERS, CHIEF EXECUTIVE OFFICER, 
                       ACCUWEATHER, INC.

    Mr. Myers. Thank you for inviting me to speak here today.
    The United States has some of the most violent and 
challenging weather on Earth--tornadoes, hurricanes, lightning, 
hail, snow, ice, and floods. In fact, we have more tornadoes 
than any nation and we have four times those of what Europe 
has.
    We can and must do more relative to severe weather. People 
should not live in fear in America's heartland, in its cities, 
and along its coasts. Imagine being able to tell people an hour 
or two in advance to move out of the zone of danger and to have 
them watch a tornado from miles away.
    This year marks the fiftieth anniversary of AccuWeather's 
creation, and I can tell you that 50 years ago weather 
forecasting was more art than science. A tornado might form at 
night in the darkness, unknown to those in its deadly path, 
with no radar to help a forecaster spot a hook echo. A storm 
like Sandy without a weather satellite would have thought to 
have moved way out into the ocean, only to return as a 
surprise. It might have been like the great Galveston hurricane 
of 1900 that no one knew was coming because there were not 
satellites in space watching.
    In the United States, the National Weather Service, 
America's weather industry, and the academic and research 
communities each have important and complementary roles to 
play. Together they make up the American weather enterprise and 
that's an enterprise with a capital ``E''. It's a unique and 
special partnership for the benefit of the Nation.
    Fifty years ago, if I had told anyone that a company like 
AccuWeather in State College, Pennsylvania, would tell a 
manufacturing facility in Mississippi 1,000 miles away, 21 
minutes in advance, that a tornado might strike the plant and 
that we could save 88 lives in a single electronic message, it 
wouldn't have been believed, but in fact it has been done, and 
those and similar situations happen now routinely.
    The U.S. Government collects and disseminates data from 
local and remote sensing platforms. It runs forecast models and 
prepares and makes special warnings. Weather companies and 
academic and research institutions use this information and 
also collect and disseminate data and make weather forecasts 
and warnings, some specific and tailored and some general 
public. These companies may be international media companies, 
such as AccuWeather and the Weather Channel, serving billions 
of people with instant weather information.
    This joint system of public and private cooperation helps 
to save countless lives and prevent hundreds of millions of 
dollars in property damage per year here in the United States, 
and in fact it has the name of ``public-private partnership.''
    It has been a transition of work from government to private 
industry that has occurred over decades with no letting of 
government contracts, no industry subsidies, and no cost to the 
government. It has been held up as a model by other Federal 
agencies and even a recent Executive Order by President Obama. 
Even the Weather-Ready Nation program now specifically endorses 
the role of America's weather industry.
    Recently, the National Academy of Sciences report ``Second 
to None'' and the National Academy of Public Administration 
report have been published, and in a nutshell I really read 
them to say that growing the secondary value chain in the 
weather enterprise is not a choice; it is a market reality 
which benefits the Nation and needs to be supported and 
accelerated.
    The government is uniquely positioned to ensure and enhance 
the provision of weather data and the issuance of warnings for 
the public aimed at the protection of life and property. We all 
need to protect this core functionality and the research that 
keeps the entire American enterprise in the weather field, and 
that's ``Enterprise'' with a capital ``E,'' ahead of the curve.
    A special focus during Superstorm Sandy was the ECMWF, the 
so-called European model, which did a better job only at some 
points in the storm track than the U.S. models did. The gap, 
though, presents issues from an economic, safety, and national 
security standpoint. Relying on other countries for better 
weather models, for satellite data, or for other information 
exclusively and not with regard to ones that we can rely on in 
America as the best places us in a weak and subservient 
position.
    If America is to remain, the world weather leader, if the 
American weather industry is to remain the envy of the world 
and the carrier of American weather brands' value and prestige 
abroad and here at home, the core of the best public weather 
access of any nation, and a creator of jobs, weather research 
and development and creation and operation of core 
infrastructure remain a matter of national government concern 
and urgency.
    Thank you for your time.
    [The prepared statement of Mr. Myers follows:]

    Prepared Statement of Barry Lee Myers, Chief Executive Officer, 
                           AccuWeather, Inc.
    Chairman Begich, Ranking Member Rubio, and distinguished members of 
the Subcommittee: I appreciate the opportunity to testify today on this 
important issue.
    My name is Barry Lee Myers and I have been with AccuWeather since 
it was founded by my older brother in 1962.
    I served as Executive Vice President and General Counsel for many 
years and in 2007 became the Chief Executive Officer.
    The 50 year odyssey from the founding of AccuWeather until today's 
hearing is a study in the evolution; and a story whose pages continue 
to be written daily.
    On average, the United States experiences 100,000 thunderstorms 
annually, resulting in more than 1,200 tornadoes. The tornado is the 
most violent storm on Earth.
    The United States has more tornados than any nation; in fact, we 
have four times the number in all of Europe.
    We also report more violent EF4 and EF5 tornadoes than anywhere 
else.
    When hit by a powerful tornado, often entire buildings are 
destroyed . . . sometimes literally wiped off the face of the earth.
    We saw the devastating and heart sickening results again in 2013.
The Magic of Weather Forecasting
    Meteorology is a rewarding field and also, like the job of first 
responders, one often filled with gratitude and horror, all at the same 
time.
    Those in the field of meteorology have the ability to tell, with 
significant accuracy, what the future will hold.
    We can tell what the temperature will be tomorrow or next week and 
whether it will be sunny or cloudy.
    We can tell whether in the next 30 minutes, people are likely to be 
killed if they continue to stand where there are--in the path of a 
tornado or tsunami.
    Based on seeing the future, one can decide whether to start 
planning to move the Sunday wedding indoors or under a tent. One can 
decide to take shelter, or leave town, and save a life.
    We have a Crystal Ball that allows us to know the future. It is a 
privilege to have it. And it is a responsibility to continually improve 
the tools we have, and might develop, to improve the clarity of that 
crystal ball, to save lives and help people prosper.
    The crystal ball in am referring to is not actually round and 
clear; and when it is seen, one may not realize they saw it.
    But there is a magic in meteorology.
From Government Operation to a Partnership Enterprise
    This year marks the 50th Anniversary of AccuWeather's creation. 
That is interesting in light of how far the weather enterprise, and 
especially the weather industry, has come.
    I will tell you that when the first customer of the company that 
would grow to be AccuWeather signed up for $50 a month in 1962, 
meteorology was still in relative infancy.
    And what would become the American Weather Enterprise--consisting 
of the U.S. Weather Bureau (later NOAA's National Weather Service), 
academic and research organizations, and America's weather industry--
was not a full concept in 1962.
    TIROS-1 was launched just two years earlier and had operated for 78 
days. And the first recorded weather radar observation occurred only 9 
years before.
    Work building AccuWeather began around my older brother's kitchen 
table with a single rotary dial telephone. Joel Myers made perhaps 
10,000 calls to secure the first dozen or so customers in the first two 
years.
    So it would seem that the competitive landscape was wide open for 
those who would make the effort.
    But that was not so.
    At the time, weather forecasting was more art, than science, and 
even a forecast for a heavy snow storm just hours away might result in 
a sunny afternoon.
    And a tornado might form at night and in the darkness, unknown to 
those in its deadly path--as no radar was there to help a forecaster 
spot a hook echo signature.
    A storm like Hurricane Sandy, without a weather satellite, would 
have thought to have moved away out into the ocean and dissipated, only 
to return as a deadly surprise. It would have been like the great 
Galveston hurricane of 1900 that no one knew was coming, because there 
were no eyes in the sky.
    In 1962, most of the weather information reaching business, 
industry, the media, and the public came from the United States Weather 
Bureau--the government.
    So, the idea of starting a weather company, literally on pocket 
change, and competing with the government's free services, is the story 
of AccuWeather . . . and American's weather industry in general.
    When Joel and I were thinking through the weather company concept 
in those early years--probably 95 percent of all the weather 
information reaching the public came from the government.
    Government employees did the weather broadcasts on radio.
    Government employees did the newspaper weather maps and charts for 
The Associated Press and many newspapers.
    Government employees consulted free with anyone who called them on 
the phone or stopped into their offices, and provided special scheduled 
services to large and small companies.
    At the same time, as our business struggled to grow through the 
1960s and 1970s, sometimes government employees discouraged potential 
customers from using our services, calling them up and offering 
services for ``free,'' at government expense.
    It was like the Post Office and Federal Express, except it would be 
like the Post Office offering to carry every letter without postage, 
and every package for free. Why would someone use FedEx at all under 
those circumstances.
    Despite that, it is estimated today, that 95 percent of the weather 
information reaching business and industry, the media, and the public 
comes--not from the National Weather Service--but from AccuWeather and 
other members of America's weather industry.
    This is a complete reversal from 1962.
Basis for America's Weather Success
    In 1994, I was asked to offer thoughts to the U.N.'s World 
Meteorological Organization about weather information and its use. What 
I said was, in part:

  <bullet> Weather is a world-wide resource.

  <bullet> In gathering weather information, time is of the essence.

  <bullet> In analyzing it, and in distributing the results of that 
        analysis of weather observations, time is critical.

  <bullet> And, in getting this analysis into the hands of those who 
        need it to protect life and property, not only is time 
        critical, but the very nature of the message and its 
        understandability and related action-ability needed by those 
        receiving it, is paramount.

    In the United States, the National Weather Service has a specific 
role to play and America's weather industry has a specific role to 
play. Each have important and complementary roles to play. It is a 
unique environment and special partnership for the benefit of the 
public.
    The laws of the United States do not hamper or restrict the nature 
of the private sector. In fact, unlike many other countries, they 
encourage private sector and especially weather industry activities. 
This has been a huge benefit to the Nation.
    The United States Government collects, and disseminates data from 
local and remote sensor platforms, runs forecast models, and prepares 
and makes special warnings and also general public forecasts.
    Weather companies also collect and disseminate data, and make 
weather forecasts, some specific and tailored, prepare and make special 
warnings and also general public forecasts.
    Weather companies also develop communication methods designed to 
move weather information as quickly and as understandably as possible 
to the end user.
    Weather companies are part science company and part media and 
communications company.
    In fact, the government and the weather industry work together, to 
carry out these functions.
    This joint system of public and private cooperation helps to save 
countless lives and prevent hundreds of millions of dollars in property 
damage per year in the United States--in fact it has a name--The 
Public/Private Partnership.
    This cooperative effort, better than anywhere else on earth, is 
dedicated to the proposition that weather information is (1) highly 
time sensitive and (2) a perishable scientific commodity, which, if 
utilized quickly and communicated to people who are in a position to 
act, effects real economic efficiencies, saves lives, and, results in 
benefit to the Nation.
    Another guiding principle is that all scientists should be free to 
access scientific data so that they may render timely viewpoints and 
opinions on what future weather may be--that is create forecasts and 
warnings.
    This freedom of access to scientific data and its free use for the 
benefit of society is typically American.
    In the United States this ``free and open access'' is founded upon 
principles having to do with free speech and freedom of information.
    These comments seem self-evident to many. In making remarks to the 
World Meteorological Organization, almost 20 years ago, comments about 
free and open access did not seem self-evident to many of the hundreds 
in the audience from around the world.
    The weather industry in the United States was born of the concept 
of ``free and open'' availability of weather information.
    It has led the world as a model of growing success, transitioning 
from a government agency ``doing it all,'' at the end of World War II, 
to massive infusion of weather into every American's life through 
companies like AccuWeather--and a growing global presence by American 
companies as the preferred suppliers of weather to the world.
    It has been a transition of work from the government to private 
industry involving no letting of government contracts, no industry 
subsidies, and no cost to the government.
    In fact a tax paying industry creating perhaps tens of thousands of 
jobs--has been born.
    It truly has built on a concept that if information is free for 
all, we should leave the rest to ingenious, innovative, and 
entrepreneurs, who would find ways to make a viable industry.
    By the end of 2013, figures suggest that American Weather Companies 
will have weather apps and access portals on or accessible from perhaps 
two billion digital devices worldwide.
    People who had no weather forecast of merit for 25 minutes ahead, 
now have forecasts, on an hour by hour basis, for 25 days ahead on 
AccuWeather.com.
    People who had no warnings for severe and deadly weather, now can 
use at a device that looks like something they would have used to ask 
Scotty to beam them up, that contains more information than Star Trek 
creators ever imagined.
    These comments seem self-evident to many today.
    In speaking at the WMO in 1994 if I had told anyone that by 2008 a 
private weather company in Pennsylvania would tell a manufacturing 
facility in Mississippi, a thousand miles away, 21 minutes in advance, 
that a severe tornado was heading right at it and they needed to 
shelter their people--and that the private weather warning would save 
88 lives in a single electronic message--it would not have been 
believed.
    In 2005 the U.S. Congress Bi-partisan Committee on the review of 
Hurricane Katrina cited AccuWeather saying ``AccuWeather issued a 
forecast predicting the target of Katrina's landfall nearly 12 hours 
before the NHC [National Hurricane Center] issued its first warning, 
and argued the extra time could have aided evacuation of the region.''
    I am not telling you this to place AccuWeather in the spotlight. My 
friends at The Weather Channel and at many other non-governmental 
organizations have this and other important capabilities.
    Everywhere within the American Weather Enterprise there are 
meteorologists, scientists, researchers, and professionals of all kinds 
of equal merit.
    But the government is uniquely positioned to ensure and enhance the 
provision of weather data and the issuance of warnings for the public 
aimed at the protection of life and property.
    These activities also require research and development, transfer of 
knowledge, technologies and applications to other government agencies 
and the private sector.
    And this is needed with regard to advanced radar technologies, 
aerial observing systems, high performance computing networks, advanced 
forecast modeling and other government-appropriate activities.
    We all need to protect this core functionality and the research by 
the government that keeps the entire American weather enterprise ahead 
of the curve.
America's Unique Weather Enterprise
    If we want to successfully approach the present problems the 
weather enterprise may face we should understand that the huge success 
we have had, did not occur serendipitously.
    It may have followed a sometimes indirect path, but the path as 
supported through decades of sustained effort and shared vision in the 
weather enterprise.
    AccuWeather's Mission Statement begins: ``To save lives, protect 
property, and help people prosper. . . .'' The mission is substantially 
similar to that of NOAA's National Weather Service.
    In 1980 the paperwork Reduction Act was passed. The law stated its 
purpose was to, among other things ensure the greatest possible public 
benefit from information created, collected, maintained, used, shared, 
and disseminated by or for the Federal Government.
    It also said one of its purposes was to provide for the 
dissemination of public information on a timely basis, on equitable 
terms, and in a manner that promotes the utility of the information to 
the public and makes effective use of information technology.
    In follow up to the law, the Office of Management and Budget issued 
Circular A-130, which was updated over the following decades.
    The Circular is lengthy, but states in part:

  <bullet> The free flow of information between the government and the 
        public is essential to a democratic society. It requires 
        dissemination of information on equitable and timely terms.

  <bullet> It states the government must avoid establishing, or 
        permitting others to establish on their behalf, exclusive, 
        restricted, or other distribution arrangements that interfere 
        with the availability of information dissemination on a timely 
        or equitable basis.

  <bullet> It declares agencies shall avoid establishing restrictions 
        or regulations, including the charging of fees or royalties, on 
        the re-use, resale, or re-dissemination of Federal information, 
        setting user charges at a level only sufficient to recover the 
        cost of dissemination, but no higher.

    Under Section 105 of the Copyright Act of the United States, in 
general, government information is not entitled to domestic copyright 
protection declaring it free--domestically.
    The 1991 NWS Public Private Partnership Policy was an early 
cooperative attempt to implement concepts from the Paperwork Reduction 
Act, Circular A-130 and issues relating to the growing weather 
industry.
    About ten years later the National Research Council was requested 
by the National Weather Service to undertake a study of the status of 
the enterprise and the Fair Weather Report was issued in 2003.
    This led to the AMS Commission on Weather and Climate Enterprise.
    And, the Fair Weather Report led to a new partnership policy issued 
by NOAA governing its relationship with America's weather industry.
    In the main policy section, the first sentence says: ``NOAA will 
adhere to the policies contained in the Paperwork Reduction Act, OMB 
Circular A-130 and other relevant laws.''
    The second sentence says: ``These policies are based on the premise 
that government information is a valuable national resource, and the 
benefits to society are maximized when government information is 
available in a timely and equitable manner to all.''
    It goes on to endorse ``Open and unrestricted access.''
    And further that NOAA will promote the open and unrestricted 
exchange of environmental information worldwide.
    NOAA also states it will avoid duplication and competition in areas 
not related to the NOAA mission.
    So today's policies trace their origins to the core nature of the 
republic and critical pieces of Federal legislation and rules long a 
part of the fabric of the country's legal structure.
    Building on this, NOAA and NWS have developed formal and internal 
directives defining what they will do and not do and specifically 
stating where government personal will defer to the America's weather 
industry.
    Even the Weather Ready Nation program now specifically endorses the 
role of America's weather industry and states that the requirements and 
activities of Weather Ready Nation participants may be fulfilled 
through arrangements with America's weather industry.
    Recently, the National Academy of Sciences report ``Weather 
Services for the Nation: Becoming Second to None;'' and, the National 
Academy of Public Administration report ``Forecast for the Future: 
Assuring the Capacity of the National Weather Service'' have been 
published. Both support the primary tenant that reflects the reality of 
the state of the Weather Enterprise and the continuing robust growth of 
America's weather industry.
    Essentially, in a nutshell, they state that growing the ``secondary 
value chain'' in the weather enterprise is not a choice for the 
government; it is a market reality which benefits the Nation and needs 
to be unconditionally supported and accelerated by NOAA's NWS.
    Methods of doing this include, but are not limited to, developing, 
acquiring, supporting, maintaining and making available core 
infrastructure; data, models, warnings, and support for the public and 
the weather industry. This leverages government investments in high 
multiples.
    A recent example of the recognition of this important concept is 
found in the Open Data Executive Order signed by President Obama on May 
9, 2013, which stated:

        ``For example, decades ago, the Federal Government made both 
        weather data and the Global Positioning System (GPS) freely 
        available to anyone. Since then, American entrepreneurs and 
        innovators have used these resources to create navigation 
        systems, weather newscasts and warning systems, location-based 
        applications, precision farming tools, and much more.''

    Interesting, the effective use of the Nation's weather data also 
depends on the GPS system to assist mobile devices locate themselves to 
provide their users with weather information geared to their location, 
because all weather is local in its affect to the location of people in 
its greatest impact.
Nature of America's Weather Industry Success
    America's Weather Industry is the most robust weather industry 
existing in the world today.
    AccuWeather and other companies in the weather industry are out of 
the kitchen, and into every ones garage, home, television, radio, 
newspaper, Internet, and mobile device.
    Weather is on the gas pump where you fuel your car or truck.
    It is on the electronic signage in your doctor's office or retail 
store.
    It is on the counter of the check-in desk at the hotel where you 
stay.
    If products travel by rail or truck, America's weather industry 
helps get them to the Nation.
    If food is served, the weather industry helped grow it and assisted 
the commodities traders who transacted in it.
    In banking or financial services the industry helps customers be 
more efficient and better able to pay their loans and increase their 
deposits.
    In insurance, the weather industry helps in planning for loss 
reserves and adjusting customers' claims after a weather-related loss.
    Weather is about the national economy.
    No matter the business, the weather industry can protect property, 
increase efficiencies, and save lives.
    The weather is also the news every day.
    It is the single most accessed piece of information watched, 
listened for, or selected on radio, television, the wired web, and 
mobile devices.
    You can watch local weather channels.
    You can access the AccuWeather forecast on AccuWeather.com from 
anywhere on earth.
    AccuWeather and other weather sources are available on just about 
any mobile phone or other mobile device you carry and your friends and 
family might carry.
    And the AccuWeather mobile website is available globally and in 48 
languages and a hundred dialects.
    You find it as a widget you can click on, on the screen of your new 
television set.
    So weather is a media phenomenon, and it drives weather companies 
that wish to be successful--to become media companies--with weather as 
their core information.
    While the weather may be interesting to many, and of economic 
importance to others, accuracy of weather information is the most 
important secret sauce of the weather--for businesses, government, and 
the public.
    And the secret sauce potentiating accuracy--is communication.
    The most accurate forecast or warning, not communicated in an 
effective and timely way, not understood and not leading to action, is 
merely a theoretical exercise.
    As a result, many weather companies are media companies empowering 
all weather information to be actionable and empowering businesses and 
people who receive it to use it to their advantage.
    So, it is estimated that over two billion electronic devices world-
wide can access the information from America's weather companies. I 
know that AccuWeather alone serves up about one quadrillion separate 
``pieces'' of data annually to global users.
    And jobs continue to be created in this and the related device and 
communications sectors to support this growth. Many of these are 
quality American jobs.
    But the fact that America's weather industry is the most robust on 
the world today does not mean the American Weather Enterprise has the 
best tools at its disposal that is possible.
    There is room for enhancement, there is room for improvement.
    And improvement in the field of meteorology means saving lives and 
property.
Success Stories from the Partnership
    Often warnings are issued by the government for tornados.
    Usually community-warning sirens go off.
    On February 5, 2008, at about 5:37 PM, a Caterpillar company plant 
in Oxford, Mississippi, was bustling with activity, as 88 people were 
at work.
    No government tornado warning extended to the location of the 
plant.
    No warning siren was sounded.
    In the winter darkness miles away, a tornado dipped from the sky, 
unseen by the naked eye, and began racing toward the plant.
    Twenty-one minutes later the violent tornado struck the plant with 
a horrifying fury ripping and chewing the plant to pieces.
    Steel girders twisted and collapsed, metal walls shredded.
    All that debris fell in to the space people occupied inside.
    The calm orderly work environment was suddenly a violent swirling 
mass of shrapnel, totally exposed to the monster storm.
    It left a picture of a plant perhaps hit by an aerial bomb or a 
terrorist attack. People would be lucky to have survived.
    As the monster tornado formed in the darkness that winter night and 
began to dip from the sky, and started its race toward the people in 
the Caterpillar plant, a meteorologist at our office in Wichita was at 
work.
    He saw a tornado signature on a radar image on a computer screen. 
He didn't just ``happen'' to see it. He was looking for it.
    He knew what circumstances could lead to a tornado that night.
    He had cutting-edge computer tools, developed by, and proprietary 
to AccuWeather, that notified him to be on guard.
    He had access to the government's Doppler radar system; that did 
not exist in 1962 when AccuWeather began.
    At another time, or in another place, he might have looked on in 
horror wondering what humanity the monster storm would claim.
    Instead, he pressed a key stroke and an AccuWeather computer sent 
an electronic message to another computer at the Caterpillar plant in 
Oxford, Mississippi.
    A human at the plant was required to confirm receipt of the 
message.
    In fact, a person-to-person telephone contact was also immediately 
established with the plant's safety director.
    The message was clear; a tornado was forming about 30 miles 
southwest of the plant, and may be at or near the plant in about 22 
minutes.
    The first images of the destroyed plant were seen by the people who 
worked at the plant, not as they watched the horror around them, not as 
they and their co-workers were contemplating death, but as they emerged 
from their tornado shelter, after the tornado had done its destructive 
work and moved on.
    Not a single person was injured, not a single person died. They all 
went home--shaken, but safe.
    Hundreds of miles away, an AccuWeather meteorologist also went 
home--shaken, but safe.
    He went home knowing he had just saved the lives of scores of 
people, and the misery that death and injury would have brought to 
their families.
    The government/private sector collaboration worked. A government 
radar network and a private weather company, working together, saved 
lives.
Why Support the American Weather Enterprise?
    Questions arise as other governments in other nations invest in 
improved modeling both in accuracy and timeliness.
    This means others can forecast better for American shores than 
America itself.
    Of special focus was the ECMWF (so called European Model) during 
Hurricane Sandy, which model did a better job at some points in the 
storm track, than the U.S. models did.
    This gap presents issues from an economic, safety, and national 
security standpoint.
    From an economic standpoint foreign companies and investors could 
potentially get the jump on Americans relative to weather events 
occurring on American shores.
    Additionally, as America's weather industry continues to expand 
worldwide, restricted access to quality models could place it in a 
position of having second class primary information.
    And interestingly, many foreign governments do not look at the 
weather industry as their partners, like we do here in America. And so 
those countries do not get to leverage the value of their government 
investment, like we do here. So a dollar spent on improved modeling, 
for example, in America, has greater value to our economy than a dollar 
spent by other governments.
    Relying on other countries, for better weather models, places 
America in a weakened position in time of national and international 
crisis. And we cannot get full access even to the European Model from 
what my government sources tell me.
    Weather infrastructure and related research and development, and 
operation of core infrastructure remain a matter of national urgency 
today.
    They are matters of national security.
    Many functions that were only government functions at the dawn of 
the development of America's weather industry 50 years ago--such as 
media weather forecasting, business targeted weather forecasting, and 
general public weather forecasting have been subsumed by America's 
weather industry.
    Even some data sources such as mesonets and lightning networks have 
been taken under the wing of private sector entities. This is a 
positive trend saving government expenditures and we can expect to see 
privatization of other remote sensing platforms such as satellites.
    The caution here is that privately developed data, in order to 
enter the core data set, needs to be publicly available to all those 
who need it in the weather enterprise, if the government is to buy it 
and sanction it, to secure a common data set for the whole weather 
enterprise, lest we fragment the very uniformity of core data that 
drives the whole enterprise.
    Much remains, and may forever need to remain, government 
functionality. But much has been converted to private sector activity 
and much will continue to migrate there.
    So I entreat you to consider joining with me to support five 
primary tenets:

  1.  To empower and facilitate the American weather enterprise to 
        achieve its full potential

  2.  To define the value chain of all parts of the American weather 
        enterprise, as stated in the recent NAPA report, to ensure the 
        American public is served with the best possible information 
        employing the most cost efficient combination of private and 
        public institutions.

  3.  To place special focus and funding on NOAA/NWS role as the 
        builder of the Nation's core weather infrastructure, core data 
        sensing, core research and model development, operational 
        modeling, public warnings for weather events that pose imminent 
        threat to life and property, and working with and through 
        America's weather industry, to achieve national and world-wide 
        leadership in weather and weather media.

  4.  To focus Federal support to ensure a legislative and budgetary 
        agenda which makes maximum and optimum use of all parts, public 
        and private, of the American weather enterprise.

  5.  And to encourage the execution of the aligned missions and roles 
        through public and private partnerships based on principles 
        that will drive continuing growth of the weather enterprise.

    Thank you for your time.

    Senator Schatz. Thank you very much.
    Mr. Hirn.

 STATEMENT OF RICHARD J. HIRN, GENERAL COUNSEL AND LEGISLATIVE 
              DIRECTOR, NATIONAL WEATHER SERVICE 
                     EMPLOYEES ORGANIZATION

    Mr. Hirn. Thank you, Senator Schatz, Senator Blumenthal.
    The Weather Service Employees Organization is proud of the 
fact that the operational Weather Service employees have been 
the primary source of most of the innovation undertaken by the 
Weather Service in recent years. Regrettably, however, the 
agency has been disinvesting in its human capital by drastic 
workforce reductions and the elimination of virtually all 
training. In so doing, the agency is placing the American 
people at risk and cutting off the source of future innovation. 
No new satellite, supercomputer, forecast model, or valued 
private sector partner will reduce the need for a highly 
trained and fully staffed workforce.
    Let me provide one recent and vivid example of how the 
creativity and initiative of Weather Service employees have 
saved lives. On Sunday, November 17, six states in the Midwest 
experienced a dramatic late season tornado outbreak. The death 
toll remained remarkably low due to the lifesaving warnings 
issued by the men and women at nine forecast offices. But at 
the time the agency was suffering from a widescale 
communications failure. Weather Service employees were only 
able to communicate with emergency managers, media, and the 
public because employees in the field improvised emergency 
communication channels.
    As the Acting Director of the Weather Service Central 
Region explained in a congratulatory e-mail to employees, ``The 
excellence of your work has been attributed to directly saving 
many lives that day. I know this was accomplished despite 
challenges and communications problems which impeded our 
ability to communicate with emergency managers and media 
partners. In response, employees took appropriate steps to 
improvise other measures, such as other Internet sources, WiFi 
cards or telephones, and to create makeshift backup 
communication techniques to ensure the Weather Service got its 
message out.''
    Dr. Uccellini also sent a congratulatory e-mail to 
employees, writing that, ``This event was another example of 
the important role that social media is playing getting the 
message out. Forty-seven of the top 50 tweets sent by Federal 
Government Twitter accounts on Sunday were warnings from the 
Weather Service on severe weather. Your embrace of social media 
is a growing success story.''
    However, Weather Service field employees haven't just 
embraced the use of social media for getting warnings out; they 
pioneered it. Employees at local forecast offices started 
creating Facebook pages on their own several years ago to 
communicate with the Weather Service, but Weather Service 
headquarters made them take the pages down for about a year 
before realizing their full potential. Now all of the Nation's 
forecast offices and river forecast centers have operational 
Facebook pages.
    Similarly, only after employees in the field started 
tweeting weather warnings did the agency formally embrace and 
sanction Twitter accounts.
    Another employee initiative has transformed the way the 
Weather Service communicates with emergency management 
officials and the media. In 2004 employees at the Des Moines 
Forecast Office, working with the Iowa State University 
Environmental Mesonet, began using commercial Instant Messaging 
and chatroom software to communicate with Iowa television 
stations. Forecasters across the Nation now use what's known as 
NWS Chat to exchange information with emergency managers and 
media in real time during severe weather.
    In 2011 the Weather Service implemented pilot projects at 
six offices to test new service delivery models, such as 
integrating environmental data from other NOAA agencies into 
Weather Service products, providing enhanced face to face 
decision support to emergency managers, and developing new 
meso-scale forecasting models and techniques that hopefully 
will enable the Weather Service to provide pinpoint highly 
localized forecasts of severe weather outbreaks hours in 
advance.
    These pilot projects were an NWSEO initiative, which we 
first proposed to the Deputy Under Secretary in 2010. The field 
then submitted proposals for individual projects to a joint 
labor-management relations committee, which selected the most 
promising proposals, refined their objectives, and developed 
implementing plans.
    The Weather Service will, however, require more, not fewer, 
employees to provide these enhanced services nationwide. But 
unfortunately, even before sequestration the Weather Service 
began shedding staff. Since 2008, the Weather Service has 
eliminated hundreds of positions and over 8 percent of its 
workforce, most of which is classified as emergency essential.
    Service assessments following--conducted following eight 
major storms that occurred since 2008, including Hurricane 
Sandy, found that the agency performance was compromised due to 
inadequate staffing. In the service assessment of Hurricane 
Sandy, the assessment team gave this stark warning, ``If these 
positions cannot be filled, the Weather Service should ensure 
awareness at higher levels that the vacancies may result in 
reduced levels of service, including potential failure on the 
delivery of products and services during the next significant 
weather event.''
    Thank you for inviting me to present the views of NWSEO and 
the 3600 employees we represent.
    [The prepared statement of Mr. Hirn follows:]

Prepared Statement of Richard J. Hirn, General Counsel and Legislative 
       Director, National Weather Service Employees Organization
    Chairman Begich, Ranking Member Rubio, and Members of the 
Subcommittee, thank you for inviting me to present the views of the 
National Weather Service Employees Organization and the 3,600 National 
Weather Service employees it represents. Our members include the 
forecasters, hydrologists, technicians and other scientific and support 
personnel employed at 122 Forecast Offices; 13 River Forecast Centers; 
the various NWS national forecasting centers such as the National 
Hurricane Center in Miami and the Severe Storms Prediction Center in 
Norman, Oklahoma; the tsunami warning centers in Alaska and Hawaii; and 
at the NWS headquarters in Silver Spring, Maryland.
    NWSEO is proud to say that the operational Weather Service 
employees in the field have been the primary source of most of the 
innovation in forecasting and service delivery undertaken by the NWS in 
recent years, and the primary goal of our union is to enhance the 
employment security of our members by developing and urging management 
to adopt new and better ways to protect the American public from the 
vicissitudes of severe weather. Regrettably, however, the agency has 
been disinvesting in its human capital by drastic workforce reductions 
and the elimination of virtually all training. In so doing, the agency 
is placing the American people at risk and cutting off the source of 
future innovation. No new satellite, supercomputer, forecast model or 
private sector partner will reduce the need for a highly trained and 
fully staffed NWS workforce.
    Let me provide one recent and vivid example of how the creativity 
and initiative of NWS employees in the field saves lives. On Sunday, 
November 17, six states in the Midwest experienced a dramatic late-
season tornado outbreak, involving more than 40 tornados, including 
several EF4 rated tornados. However, casualties remained remarkably low 
due to the life-saving warnings issued by the men and women from at 
least nine forecast offices. While the national press praised the work 
of the National Weather Service, what they didn't know and didn't 
report was that the NWS was at the time suffering from a wide-scale 
communications and Internet failure that began several days before. 
Forecasters were only able to communicate with emergency managers, 
media and the public during this event because NWS employees in the 
field improvised emergency communications channels. As the Acting 
Director of the NWS Central Region explained in a congratulatory e-mail 
message to employees:

        The excellence of your work has been attributed to directly 
        saving many lives that day . . . I also know that this was 
        accomplished despite challenges of communications circuit 
        problems which impeded our ability to communicate with 
        Emergency Management and Media Partners. In response, NWS 
        employees took the appropriate steps to improvise other 
        measures, such as other Internet sources, WiFi cards or 
        telephones, to create makeshift backup communications 
        techniques to ensure that the NWS message got out.\1\
---------------------------------------------------------------------------
    \1\ Although the Acting Central Region Director admitted to 
employees that ``communications circuit problems which impeded our 
ability to communicate with Emergency Management,'' existed, employees 
were issued official ``talking points'' from NWS management advising 
them to mislead to the press: ``If asked about internal communications 
network issues, `Internal communication issues did not affect provision 
of warning services during the outbreak.' ''

    NWS Director Uccellini also sent a congratulatory e-mail to 
employees after the tornado outbreak. In this message, Dr. Uccellini 
---------------------------------------------------------------------------
noted that:

        This event was another example of the important role that 
        social media is playing in getting the message out. According 
        to the social media tracking firm Measured Voice, 47 of the top 
        50 tweets sent by Federal Government Twitter accounts on Sunday 
        were warnings from NWS on severe weather. Your embrace of 
        social media is a growing success story.

    However, NWS field employees haven't just ``embraced'' the use of 
social media to broadcast warnings--they pioneered it.
    Employees at the Chicago Forecast Offices and at other local 
forecast offices started creating weather-related Facebook pages for 
their offices on their own several years ago, but NWS headquarters made 
them take the pages down for about a year before realizing their 
potential. Now all of the Nation's 122 Forecast Offices and 13 River 
Forecast Centers have operational Facebook pages through which they 
communicate with the public. Similarly, only after employees in the 
field started ``tweeting'' weather warnings did the NWS formally 
embrace and sanction Twitter accounts.
    Another employee initiative involving social media has transformed 
the way the NWS communicates with emergency management officials and 
the media. Beginning around 2000, several Forecast Offices began using 
instant messaging to communicate with emergency managers. In 2004, 
employees at the Des Moines Forecast Office, working with Iowa State 
University's Environmental Mesonet, began using commercial instant 
messaging and chat room software to communicate with Iowa television 
stations. By 2005, seven forecast offices and 21 media outlets adopted 
use of this software. By 2009, the NWS assumed full control of this 
service, and it is now known as NWSChat. Forecasters now use NWSChat to 
exchange information with emergency managers and the media in real-time 
during severe weather events. By the summer of 2012, 3,500 members of 
the emergency management community had registered for an NWSChat 
account, as well as over 2,000 members of the media.
    In 2011, the NWS implemented six pilot projects that were an NWSEO 
initiative, originally proposed to the Deputy Under Secretary at a 
meeting with the NWSEO National Council in San Francisco the year 
before. The plans for individual projects were then developed by a 
joint labor-management committee based on proposals solicited from the 
field. These pilot projects are now underway at NWS headquarters, at 
the Southern Region headquarters, and at Forecast Offices in Tampa, New 
Orleans, Sterling, Virginia and Charleston, West Virginia. The pilots 
are developing and testing new service delivery models, such as 
integrating environmental data from other NOAA agencies into NWS 
products; providing enhanced, face-to-face decision support to state 
and local emergency management personnel; and developing new mesoscale 
forecasting models and techniques that may enable the NWS to provide 
pinpoint, highly localized warnings of severe weather outbreaks hours 
in advance. As part of these pilot projects, the NWS created new 
positions called ``Emergency Response Meteorologists'' that assist 
local emergency managers by providing ``impact-based decision support 
services.'' In other words, NWS employees will not just predict the 
weather and provide raw weather information, but they will assist the 
emergency management community in understanding how to use this 
information and what impact the predicted weather is likely to have on 
their communities in practical terms.
    Hurricane Isaac provided the first real-time test of the value of 
the new positions. Before and during the storm, these new ``ER-Mets'' 
were deployed from the new Southern Regional Operations Center and the 
Tampa and New Orleans Forecast Offices to 16 different FEMA, state and 
local Emergency Operations Centers, as well as to the Multi-agency 
Communications Center at the 2012 Republican National Convention, to 
supply face-to-face decision support service. An official from the 
Secret Service Intelligence Division wrote to the NWS that:

        I found it very helpful to have someone on hand from the NWS to 
        provide up to date information regarding the hurricane . . . It 
        was invaluable to have you on the scene, when we all received a 
        tornado warning on our Blackberries. You were able to say that 
        we were in fact not in any danger because that particular storm 
        was to the north of us.

    These pilot projects build on the success of an aviation weather 
pilot project recently tested at New York, Chicago and Atlanta. By 
adding three additional forecasters at each location (one per shift) 
who were dedicated to providing additional weather support to the FAA, 
weather-related air traffic delays were reduced by 50 percent 
immediately.
    NWSEO agreed to alter traditional staffing models in order to 
conduct these pilot projects. But if these pilots are successful, the 
NWS will require more, not fewer, forecasters to provide these enhanced 
services nationwide. But unfortunately, over the past several years, 
even before sequestration, the NWS has been shedding staff.
    The National Academy of Public Administration reported earlier this 
year that ``[w]hile staffing levels have been relatively constant over 
the past decade, in the last three years, the NWS has realized 
personnel losses at a greater rate than it has been hiring.'' National 
Academy of Public Administration, Forecast for the Future: Assuring the 
Capacity of the National Weather Service., 39 (2013). The Senate 
Appropriations Committee noted earlier this year that ``[s]ince 2010, 
NWS has seen a reduction of 290 positions, or approximately 6 percent 
of its workforce, with many forecaster and other positions left vacant 
across the country.'' S.Rep. No. 113-78, 113 Cong. 1st Sess. 38 (2013). 
According to NAPA, the vacancy rate reached 8 percent by the second 
quarter of 2013, and warned that ``[i]f this trend continues, the NWS 
is in danger of losing a significant segment of the workforce and will 
not be able to renew itself at sustainable levels unless it revises 
staff functions and allocations across programs and offices.'' Forecast 
for the Future, at 38, 39. This problem was exacerbated when the NWS 
imposed a freeze on hiring on March 27, 2013. Between July 2008 and 
August 2013, the NWS eliminated 331 non-managerial employees--almost 
all of who are classified as ``emergency/essential.''
    Even with a full complement, Forecast Offices are only staffed for 
``fair weather.'' The 122 Forecast Offices operate 24/7, and most of 
the time have just two forecasters on duty These two forecasters are 
responsible for issuing forecasts and severe weather warnings for an 
average of nearly three million people. For example, the two 
forecasters at the Forecast Office in Sterling, Virginia near Dulles 
Airport are responsible for the welfare of more than nine million 
people who live in DC, Maryland, Delaware and Northern Virginia. The 
two forecasters on duty at the Miami Forecast Office have the 
responsibility to protect nearly six million people, and the two 
forecasters on duty at the Tampa Forecast Office are responsible for 
protecting more than five million people in central Florida.
    Thus, there is usually only the minimal number of staff on duty to 
be alert for severe weather and to call in the rest of the staff when 
it occurs. According to the National Academy of Sciences, the ability 
of the NWS to protect the public from the hazards of severe weather is 
highly dependent on the availability of this additional staff:

        The quality of the NWS's warning capability corresponds with 
        its capacity to muster an ample, fully trained local staff at 
        its WFOs [Weather Forecast Offices] as severe weather unfolds. 
        With current staff levels, there are always two people working 
        each shift, 24 hours a day, seven days a week. Though this 
        works well in fair weather, it can become problematic in severe 
        weather, particularly when events develop rapidly under 
        seemingly benign conditions. While managers at individual WFOs 
        generally plan ahead to add sufficient staff to cover 
        forecasted dangerous weather situations, more innocuous weather 
        scenarios that suddenly and unexpectedly ``blow up'' often lead 
        to shortcomings that are directly attributed to having 
        insufficient manpower. Several recent Service Assessments 
        (e.g., NWS, 2003, 2009, 2010) illustrate the critical role that 
        adequately enhanced staffing (or lack thereof) plays in the 
        success (or weakness) of NWS performance during major events. 
        Appropriate levels of staffing, beyond normal fair weather 
        staffing, during major weather events, are critical for 
        fulfilling the NWS's ``protection of life'' mission.
National Research Council of the National Academies, The National 
        Weather Service Modernization and Associated Restructuring: A 
        Retrospective Assessment, 60-61 (2012)
    The Service Assessments to which the NRC refers are conducted by 
the NWS after major storm events where there are multiple fatalities or 
a major economic impact, in order to evaluate its performance. 
Assessment teams, composed of experts from within and outside the NWS, 
generate a report that serves as an evaluative tool to identify and 
share best practices in operations and procedures, and to identify and 
address service deficiencies. Service assessments conducted following 
eight major storms that occurred between 2008 and 2011 found that the 
ability of the NWS to protect lives during these major events was 
compromised due to inadequate staffing at Forecast Offices or River 
Forecast Centers.\2\
---------------------------------------------------------------------------
    \2\ Central U.S. Flooding of June 2008; Southeast U.S. Floods, 
September 18-23, 2009; Record Floods of Greater Nashville: Including 
Flooding in Middle Tennessee and Western Kentucky, May 1-4, 2010; 
Historic Tornadoes of April 2011; Missouri/Souris River Floods of May-
August 2011; Middle and Lower Mississippi River Valley Floods of Spring 
2011; Remnant of Tropical Storm Lee and the Susquehanna River Basin 
Flooding of September 6-1-, 2011; Hurricane/Post Tropical Storm Sandy, 
October 22-29, 2012. These reports can be found at: http://
www.nws.noaa.gov/om/assessments/index.shtml.
---------------------------------------------------------------------------
    In May 2013, the NWS issued the Service Assessment on its 
performance last October during Hurricane/Post-Tropical Storm Sandy. 
The agency concluded that its performance during this event was 
hampered by vacancies in critical positions. Eight vacancies at the 
NWS's Eastern Region Headquarters ``limited the ability of the Acting 
ERH Director to help offices provide DSS [Decision Support Services] 
and to staff the Regional Operations Center.'' This assessment revealed 
that the Upton, NY, Forecast Office (which services New York City and 
Northern New Jersey) could not provide numerous forecast products, such 
as tropical storm wind speeds at skyscraper heights, because the 
Information Technology Officer position was (and still is) vacant. The 
assessment also noted that there was a ``severe staffing shortage'' in 
the branch of the National Hurricane Center that maintains the computer 
systems, communication support, and software development for the 
Center. The Assessment made the following recommendation:

        NWS should identify and fill critical positions at operational 
        facilities. If these positions cannot be filled, NWS should 
        ensure awareness at higher levels in NOAA that these vacancies 
        may result in reduced levels of service, including constraints 
        and potential failure on the delivery of products and services 
        during the next significant weather event.

U.S. Department of Commerce, Service Assessment: Hurricane/Post-
        Tropical Cyclone Sandy, October 22-29, 2012, 43-44 (May 2013)
    Although the agency has focused much attention on the development 
of more sophisticated global weather modeling and the acquisition of 
supercomputers to run them, investment in the refinement of global 
models will soon face diminishing returns. Refinement of ``mesoscale'' 
models, which predict smaller weather phenomena (such as particular 
storms), has both the greater potential for improvement and the greater 
societal pay-off. Improved mesocale models, covering smaller geographic 
areas, run and interpreted by forecasters and staff at the weather 
forecast offices, could provide more precise (in both temporal and 
geographic terms) forecasts of storms as well as more benign weather 
phenomena. Local forecasts will be more precise and certain--that is to 
say, more deterministic--rather than being coached in probabilities. It 
is well and good to know there is a 40 percent chance of rain and for 
day 5 or 6 of the forecast that is great information. However, if you 
are pouring concrete in your back yard or landing a plane at Dulles 
airport tomorrow afternoon you will want to know what time it will 
rain, how hard it will rain and whether there will be strong winds and 
lightning. To accomplish this, the NWS will not only need new mesoscale 
models, but also technicians stationed at local forecast offices who 
know how and where to site the observational equipment needed to obtain 
mesoscale model input, and forecasters who know the local and regional 
micro-climates to interpret and modify model output and communicate 
that to local authorities.
    Congress directed an outside study on the management of the NWS as 
part of the 2012 Commerce Department Appropriations Act. The study was 
conducted by the National Academy of Public Administration. Its final 
report released in May contained many recommendations concerning the 
agency's human capital assets. Unfortunately, the NWS has failed to yet 
act upon many of NAPA's findings and recommendations.
    For example, NAPA found that the NWS has cut the amount it spends 
on training by more than half since 2000, and that it now spends less 
than 1 percent of its budget on training. Almost all training that 
involves travel, such as on-site training at the National Weather 
Service Training Center in Kansas City, has since been terminated. 
Advanced Warning Operations Courses for FY 14 conducted by the Warning 
Decisions Training Branch in Norman, Oklahoma have been defunded. These 
courses address science, technology, and human factors (situation 
awareness, decision making, team communications, and much more). The 
Advanced Warning Operations Course for winter weather has not been 
funded for three years. Follow-on training for the new dual 
polarization radar upgrade has also been defunded. NWS ``Incident 
Meteorologists'' who are dispatched to assist wildland firefighting 
crews are no longer sent to safety training at the National Interagency 
Fire Center in Boise, Idaho.
    One of the major training programs for NWS forecasters is the COMET 
program run by the University Corporation for Atmospheric Research. The 
National Weather Service has reduced funding for the COMET Program by 
over $2.5M annually since FY 2010.
    NAPA recommended that the NWS reexamine its entire training 
strategy if it hopes to successfully establish a ``Weather-Ready 
Nation.'' Without increased investments in training for the National 
Weather Service in the very near future, the new systems resulting from 
the Sandy Supplemental Appropriations and the ongoing advancements in 
satellites, probability prediction and new decision support tools will 
be limited in providing improvements in national forecast and warning 
capabilities. These limitations will stem from a forecast staff that 
lacks advanced knowledge in the optimum application of the advanced 
technologies.
    NAPA also found that a review of the NWS's current staffing model 
is warranted, but that ``it is important to include the National 
Weather Service Employees Organization in this analysis process.'' 
Forecast for the Future at 42. We understand from unofficial sources 
that this review is well underway at NWS headquarters, but we regret to 
report that NWSEO has been shut out of this process. This poses a 
significant risk to the success of whatever plans the agency might 
develop, and it is not the first time that the NWS has developed plans 
to change field staffing and operations without the input from 
employees and outside user groups that is needed for success. As NAPA 
found:

        In reviewing the NWS's past attempts at change, many required 
        the NWS to spend considerable staff time and resources on a 
        proposal's development only to see that proposal challenged by 
        an outside force. The Panel notes that many of these efforts 
        did not justify the need for specific change or address 
        mitigation of the impact of such change.
Forecast for the Future at 33
    The NAPA Panel also found ``that the NWS needs to re-frame the 
labor-management relationship starting at the national level.'' The 
Panel noted that:

        NWSEO involvement was crucial to the success of the MAR 
        [Modernization and Associated Restructuring during the 1990s], 
        and continued involvement will be crucial to future NWS 
        successes . . . This will be accomplished by communicating 
        early and often with union officials and ensuing that the union 
        understands they will be viewed as a partner in change.
Forecast for the Future at 48, 49
    Unfortunately, communications between NWS and NWSEO have grown even 
less frequent since the NAPA report was issued. Nevertheless, NWSEO and 
the employees it represents stand ready and willing to assist the 
agency in re-engineering the NWS for the future.

    Senator Schatz. Thank you very much.
    Dr. Ohanian.

      STATEMENT OF LEE E. OHANIAN, PROFESSOR OF ECONOMICS,

            AND DIRECTOR, ETTINGER FAMILY PROGRAM IN

                  MACROECONOMIC RESEARCH, UCLA

    Dr. Ohanian. Senator Schatz, Senator Blumenthal: Thank you 
for this opportunity. I'm pleased to be here.
    My testimony presents recommendations to improve the future 
performance of the Weather Service, focusing on promoting 
cooperative labor relations between the Weather Service and 
thereby avoid some of the pitfalls that occur in some union-
organization relationships. I'll begin by summarizing the 
economic impact of unions, discuss differences in trends 
between public and private sector unions, and then apply this 
analysis to develop recommendations.
    A union is a form of a monopoly, which enables unions to 
drive up the cost of labor by raising compensation above market 
rates and by introducing work rules that increase union jobs, 
but sometimes at the expense of reducing productivity. Research 
shows that unions raise compensation by 15 percent above 
competitive market rates. Research on work rules indicates that 
they can reduce productivity by as much as 50 percent.
    Private sector unionization has declined from around 37 
percent in 1952 to about 6 percent today. Some workers find 
unions less attractive today than in the past. The enormous 
increase in global competition means that unions can't raise 
compensation significantly above market rates, nor can they 
implement efficient work rules, without risking substantial job 
loss. My research finds that about half of the job loss in the 
Rust Belt States that occurred after 1970 is a result of union 
bargaining that did not respond proactively to the increase in 
competition that occurred at that time.
    Public sector unionization has not declined, because 
government organizations don't face the same type of 
competition as the private sector. Compensation has increased 
among government workers at a much faster pace than private 
sector workers. Compensation was roughly the same through 1980 
for both private and public sectors, but has diverged since 
then, with public sector compensation about 20 percent higher 
today.
    Successful labor relations in both the public and private 
sectors require unions and management to work productively for 
the common goals of enhancing productivity and providing a high 
level of service. Southwest Airlines is a terrific example of 
this principle. Most of Southwest's workers are in unions, but 
Southwest has a history of highly cooperative labor relations 
in which both management and labor focus on the same objectives 
of efficiency and quality. This has allowed Southwest to 
compete vigorously with much larger carriers and gain market 
share.
    Let me apply these principles to the relationship between 
Weather Service and the NWSEO. In terms of compensation, BLS 
data show that Federal meteorologists receive the highest 
compensation, with 2012 median compensation of about $97,000 
per year compared to annual private sector median compensation 
of about $90,000. Let me state that these data don't 
necessarily imply that compensation levels for Federal 
meteorologists are above market, but they do raise this 
possibility. I recommend that a compensation review process 
should be updated on a regular basis, particularly since the 
private weather industry is growing so rapidly, and which 
provides useful benchmarks; and that this compensation review 
process should take into account differences in retirement 
benefits between Federal sector and private sector as well.
    Another recommendation is to review how the NWSEO may 
impact work rules and the organization of manpower. This is 
noteworthy for two reasons. One is that rapid technological 
change has significantly impacted weather forecasting and this 
will likely impact the deployment of labor and the structure of 
the organization in the future. The second reason is that 
private weather forecasting has expanded considerably and this 
will also potentially impact Weather Service organizational 
changes and changes in labor deployment.
    To ensure that the Weather Service responds productively to 
these changes, it's central that the Weather Service and the 
NWSEO cooperatively plan future organizational and manpower 
changes to achieve a high level of productivity and quality. 
However, some actions by the NWSEO indicate that their goals 
stand in contrast to that of the Weather Service. My testimony 
lists some of these, including the fact that the NWSEO defeated 
plans to consolidate some forecast offices and reduce 
positions.
    Ideally, the NWSEO will work with the Weather Service to 
constructively plan organizational and manpower changes and, 
most important, standard cost-benefit analysis should be used 
to assess different proposals to achieve organizational 
efficiency and quality. Both labor and management come up with 
terrific plans to improve quality and service.
    A constructive relationship between the Weather Service and 
the NWSEO that focuses on increasing productivity and quality 
is the best way to ensure that Weather Service workers are paid 
reasonably, have reasonable job security, and that benefits 
from the resources devoted to Weather Service forecasting 
justify the costs.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Dr. Ohanian follows:]

   Prepared Statement of Lee E. Ohanian, Professor of Economics, and 
   Director, Ettinger Family Program in Macroeconomic Research, UCLA
    Chairman Rockefeller, Senator Begich, and Committee members, thank 
you for the opportunity to testify today on the key importance of the 
National Weather Service (hereafter NWS). My testimony primarily 
consists of recommendations to improve the future efficiency and 
performance of the National Weather Service, with a focus on labor 
relations between the NWS and the union representing the employees of 
the NWS, the National Weather Service Employees Organization (hereafter 
NWSEO).
    My focus on labor relations between the NWS and the NWSEO follows 
from the fact that labor costs are typically the largest component of 
production costs in organizations, and that there is evidence that 
unions have raised costs in some government agencies and in some 
private organizations. Moreover, technological change has had a large 
impact on weather forecasting and analysis, and may continue to impact 
the weather forecasting industry in the future. This in turn may lead 
to changes in manpower requirements and/or the cost-effective 
organization of the NWS. The productivity of future NWS operations will 
therefore depend on an ongoing cooperative relationship between NWSEO 
and the NWS as technology and the demands of the users of weather 
forecasts continue to evolve over time.
    I will begin by summarizing the economic impact of unions, 
including distinctions between trends in private sector unionization 
and public sector unionization. I will discuss how unions can raise 
costs by raising compensation levels and by introducing work rules that 
reduce productivity and that may also interfere with organizational 
changes and the adoption of new technologies. I will then apply this 
analysis to developing a set of recommendations for the NWS in order to 
facilitate and foster a cooperative and productive relationship with 
the NWSEO.
    A union is a form of monopoly. It is a single seller of labor 
services to an organization. This monopoly position provides unions 
with the opportunity to drive up the cost of labor by raising the 
compensation for union members above the compensation that would 
prevail in a competitive marketplace and by defining work rules for its 
members that protect jobs, which in turn increase the number of workers 
and thereby reduces labor productivity. In terms of their impact on 
costs and productivity, there has been considerable research on the 
effects of collective bargaining on wages, and consensus estimates are 
that unions raise wages by about 10 to 15 percent above the rate that 
would prevail in their absence (see Card (1996)). In terms of patterns 
over time, research by Blanchflower and Bryson (2002) indicate that 
union wage premia have declined in the private sector over time, but 
not in the public sector. There is comparatively less research on the 
impact of work rules on economic activity, but the cost of work rules 
may be much larger than the cost of higher wages. Several detailed 
studies indicate that union work rules, particularly in industries that 
face little competition, can substantially reduce efficiency and output 
by as much as 50 percent. In some instances, work rules impede the 
adoption of new technologies by requiring a minimum number of workers 
in production and/or by restricting how a particular job is done (see 
Holmes and Schmitz (2010) for a summary, and Schmitz (2005) for a 
detailed study). In summary, adopting inefficient work rules and 
raising compensation above levels that would prevail in a competitive 
marketplace harms consumers and/or taxpayers by raising costs and 
impeding the efficient allocation of society's scarce resources. My 
analysis with Harold Cole of the Great Depression (Cole and Ohanian, 
2004) indicates that the large reduction in competition that occurred 
during the 1930s, including the rapid rise in unionization, prolonged 
the Depression for a number of years.
    Union membership grew substantially following the National Labor 
Relations Act of 1935, and continued to expand through the early 1950s, 
as unions provided its members with important benefits at that time. 
This reflected the fact that there was much less competition in the 
economy for workers, which meant that some workers may not have 
received compensation commensurate with their productivity. Moreover, 
unions were considered to be important for protecting worker safety and 
health at that time. But both labor market conditions and worker health 
and safety conditions have changed considerably over time. Today, there 
is considerable competition for workers, which means that compensation 
is commensurate with worker productivity, and health and safety are 
covered by national, state, and local laws.
    These changes have made unions less attractive to workers than in 
the past, and this has resulted in a large decline in private sector 
unionization. Figure 1 shows the share of unionized employment from 
1929 to the present. Union representation in the private sector began 
declining in the 1960s and this decline accelerated in the 1970s. 
Private sector unionization rates have declined from about 37 percent 
in 1952 to only about 6 percent today. Declining private sector 
unionization reflects a number of factors, including the facts that the 
economy is much more competitive than it was 60 years ago, that health 
and safety are protected through legislation, and that many of today's 
workers prefer to negotiate their own opportunities rather than 
relinquish their individual bargaining rights to collective bargaining. 
It is also important to recognize that declining unionization is not 
simply the result of the country's declining industrial base, as is 
often suggested (see for example Bluestone, 1990). In particular, 
declining unionization characterizes most of the private sector 
economy, including industry. As Hirsch (2008) shows, unionization rates 
in manufacturing and construction, two of the most heavily unionized 
sectors, fell from about 40 percent in the early 1970s to less than 15 
percent in 2006.
    Increased competition is considered by many economists to be a 
major factor in understanding lower private sector unionization. 
Competition for workers drives wages up to the level of worker 
productivity, which means that worker compensation is commensurate with 
the value of their production. And competition in product markets 
drives output prices down to the level that is consistent with the 
market return on capital. This means that in today's globally 
competitive world economy, union attempts to raise compensation or 
implement inefficient work rules would result in organizations becoming 
uncompetitive, which in turn would lead to substantial job loss. This 
is an important reason why unions have become a much smaller force in 
the private sector workplace and why there is relatively little new 
unionization among private industry. My research shows that increasing 
competition is a key factor in understanding why the most heavily 
unionized sectors of our economy, such as the auto, steel, and rubber 
industries, have declined so much since the 1970s. (Alder, Lagakos, 
Ohanian, 2013).
    Today's increasingly competitive global and domestic economy 
indicates that there are important limitations on what unions can 
plausibly achieve for their members compared to what they were able to 
achieve in the past. Thus, workers have little to gain from union 
representation when unions cannot deliver better pay and working 
conditions than what workers can achieve on their own.
    There are important lessons from the decline of private sector 
unionization rates and the decline of industries that were represented 
by traditional unions. Specifically, the historical characteristics of 
labor relations in which unions and management were at odds, and unions 
raised costs through compensation above market rates and through 
inefficient work rules, must change for both workers and other 
organization stakeholders to succeed. Successful labor relations today 
require unions and management to work productively for the common goal 
of enhancing productivity and providing a high level of service and 
value to the users of its products and services. An example of this is 
Southwest Airlines. Nearly 90 percent of Southwest's workers are in 
unions. Several of these unions, including Southwest's pilot union, are 
independent organizations, in contrast to the unions that represent 
pilots at other airlines. Southwest has a history of highly cooperative 
labor relations in which both management and labor focus on the same 
objectives of efficiency, customer satisfaction, and competing 
vigorously with other carriers. While many other air carriers have had 
a history of conflicted labor relations, Southwest's cooperative labor 
relations have been a key factor in its success, and they have allowed 
Southwest to compete vigorously with much larger carriers and gain 
market share.
    I now turn to public sector unionization. Unionization trends among 
public sector workers are very different than the private sector trends 
discussed above. Figure 1 also shows unionization rates for federal, 
state, and local government workers since the early 1980s. The 
unionization rates of these public sector workers have been stable over 
time, at around 43 percent for local government workers, about 33 
percent for state workers, and about 17 percent for Federal workers.
    These very different trends reflect large differences in the impact 
of competition private versus public sector employees. As noted above, 
the very large decline in unionization in the private sector has been 
significantly impacted by increased competition, which has reduced the 
ability of unions to raise wages or change work rules. But much less 
competition exists in the public sector, and this means that unions 
have more opportunities to raise compensation above competitive levels 
and protect jobs, which makes union membership more attractive. In the 
private sector, significantly higher labor costs would result in large 
employment losses as firms that attempt to pass on these higher costs 
would lose market share to competitors. But in the public sector, this 
type of competition often does not exist, so higher costs of above-
market compensation or inefficient work rules can be passed on to 
taxpayers.
    My research (Ohanian, 2010) indicates that public sector unions 
have been able to thrive because of limited competition. This also 
suggests that unions have increased compensation at a faster rate than 
the competitive levels noted above. In particular, compensation at all 
levels of government has increased by about 40 percent since 1980, 
compared to about a 20 percent increase in the private sector. The 
average public sector compensation level is now $70,000, compared to an 
average of $60,000 in the private sector. Moreover, job security in the 
public sector has traditionally been higher in the public sector, and 
public sector pensions are often superior to private sector pensions. 
Higher job security, and more attractive pensions, which is a form of 
deferred compensation, suggests that government workers may be willing 
to work at their current positions for less than private sector pay. My 
findings indicate that accounting for just the higher rate of public 
sector job security suggests that public sector employment could be 
competitive even with compensation that are about 10 percent lower than 
the private sector. The fact that average public sector worker 
compensation is higher than in the private sector, without taking into 
account pension benefits, suggests that public sector compensation 
levels may be above competitive levels.
    There may be considerable savings from federal, state and local 
government reforms that systematically develop competitive compensation 
analyses and that also review work rule practices. Specifically, 
government organizations should review how they benchmark compensation, 
including pensions, to private sector comparison. Ideally, this would 
also include some allowance for the likelihood that public sector 
employment offers greater job security than private sector employment.
    This discussion about unions also has implications for public 
sector union performance. These unions understandably operate in the 
interest of their members who pay their unions to represent them to 
gain the highest compensation and job security. But public sector 
unions must understand that taxpayers are becoming increasingly 
unwilling to pay for public sector services in which compensation is 
above market and in which there are inefficient work rules. As in the 
private sector, successful public sector labor relations will be ones 
in which unions and management broadly agree on goals of enhancing 
efficiency, productivity and customer service and perceived value to 
insure that their workers are reasonably and fairly compensated and 
that they have reasonable job security.
    This discussion also has implications for assessing the future 
relations between the NWSEO and the NWS. One issue is regarding 
compensation. Data from the Bureau of Labor Statistics (BLS) shows that 
among meteorologists, public sector meteorologists receive the highest 
wages and salaries. In 2012, Federal Government-employed meteorologists 
received about $97,000 per year, compared to a median salary of about 
$86,000 for private sector meteorologists. While these data do not 
necessarily imply that compensation levels are above market for Federal 
Government meteorologists, these data do raise this issue as a 
possibility. I recommend that a review process for compensation should 
be updated on a regular basis, particularly since the private weather 
industry is growing so quickly, and this compensation review process 
should ideally take into account differences in pension/retirement 
benefits between government and the private sector.
    Another recommendation regarding labor relations, and promoting the 
goal of high productivity, is reviewing how NWSEO may impact work rules 
and the organization of manpower. It is particularly important for the 
NWS and the NWSEO to follow current successful labor relations 
practices and to try to achieve a common set of goals that enhance 
productivity and customer satisfaction. This is noteworthy for two 
reasons. One is that rapid technological change has significantly 
impacted weather forecasting. As in other industries that adopt and 
adapt new technologies, the organization of the industry, including the 
deployment of labor and the location of production, will change.
    Another reason is that private weather forecasting has expanded 
considerably in recent years, and debates regarding what forecasting 
services are to be provided by the NWS and other government agencies, 
and what services are to be provided by private organizations, will 
likely continue. While it is difficult to predict how the provision of 
weather forecasting services will evolve between public and private 
providers, it is possible that some services should be shifted from the 
NWS to the private sector, and this will also lead to organization 
changes and changes in manpower deployment and utilization.
    The NWSEO will play a role in both of these processes. In the past, 
the NWS has negotiated with the NWSEO when an organizational change 
will impact working conditions, unless the union has been involved 
prior to the decision. Ideally, the NWSEO and the NWS will share common 
goals of enhancing productivity and customer value, and the NWSEO would 
be involved in the planning stages of changes in the utilization of 
manpower to help achieve these common goals, instead of negotiating 
between the NWS and the NWSEO after the organization change.
    I recommend that developing joint goals and working cooperatively 
be given high priority, and that this should be reviewed on an ongoing 
basis in the future. One reason to prioritize this issue is because 
some of the NWSEO achievements that are listed on www.nwseo.org may be 
inconsistent with the goal of achieving common objectives with the NWS. 
Specifically, I list below the NWSEO's main five recent achievements, 
all of which either involve raising compensation or expanding 
personnel. I have copied these from www.nwseo.org.

  1.  Saving the CWSUs (center weather station unit to forecast to FAA) 
        from consolidation--a culmination of a five year lobbying 
        effort by NWSEO to preserve both aviation safety and NWS 
        employee jobs. NWSEO spent over $200,000 in this lobbying 
        effort and obtained the support of the Senate Commerce 
        Committee, the House Science Committee and the House and Senate 
        Commerce, Justice and Science Appropriations Subcommittees.

  2.  Securing back pay for overtime for nearly 200 NWS employees. 
        Securing FLSA (fair labor standards act) Non-Exempt status of 
        an additional 165 NWS employees. The NWS has agreed to pay two 
        years' lost overtime wages and liquidated damages for those 
        employees, as well.

  3.  Winning an appeal to bargain to increase staffing at Anchorage 
        WFO (national weather forecast service office) by 10 
        positions--this directs the National Weather Service to bargain 
        with NWSEO over a proposal that would increase staffing at the 
        Anchorage WFO by ten positions.

  4.  Securing special projects designed to increase aviation safety, 
        which include increased NWS personnel at the CWSU and WFOs in 
        New York City, Atlanta, and Chicago.

  5.  NWSEO secured an agreement that upgrades to a GS-8 every 
        Administrative Support Assistant at field offices around the 
        country. The GS-8 upgrade includes approximately one million 
        dollars in extra pay and benefits to the lowest paid NWS 
        employees each and every year from now on.

    Note that Items 2 and 5 suggest the possibility of raising 
compensation above market levels. Items 1, 3, and 4 suggest the 
possibility of expanding staffing that may not be justified on a cost-
benefit basis.
    The NWSEO also has a top 20 historical achievement list that also 
includes items that raise the possibility of expanding staffing and 
impeding organization changes, and raising compensation above market. 
These include:

  1.  Defeated the agency's plans to reduce staffing and consolidate 
        Forecast Offices (CONOPS).

  2.  Defeated the agency's plan to eliminate nearly 400 HMTs and 
        instead negotiated for the creation of new promotional 
        opportunities for HMTs (the GS-12 OPL position) and true time 
        and one-half overtime for HMTs.

  5.  Won an arbitration case which requires the agency to maintain at 
        least two employees on duty on every forecast shift.

  9.  Negotiated agreements that raised target grades of interns from 
        GS-9 to GS-11 and that entitles interns to the first 
        opportunity to apply for forecaster vacancies before outside 
        candidates.

 10.  Won an arbitration case which requires the agency to make 
        temporary promotions when forecasters cover vacant positions 
        for 20 days or more.

    Some of these items prevented organizational changes involving the 
deployment of manpower or the organization of the NWS that would 
presumably have enhanced efficiency of the NWS. Some other items raised 
compensation possibly above market levels.
    These actions do indicate contrasting objectives between the NWSEO 
and the NWS. The NWSEO's mission has been to represent its members by 
obtaining high compensation and job security. However, these NWSEO 
objectives may possibly be raising costs and reducing efficiency. A 
cooperative relationship between the NWSEO and the NWS that focuses on 
increasing productivity and customer value will be central for the 
future success of both parties.
References
    Alder, Simeon, David Lagakos, and Lee E. Ohanian, (2013) ``The Rust 
Belt: A Macroeconomic Analysis''

    Blanchflower, D. G., and Bryson, A. 2002, ``Changes over Time in 
Union Relative Wage Effects in the UK and the U.S. Revisited'', NBER 
Working Paper No. 9395

    Bluestone, Barry, 1990. ``The Impact of Schooling and Industrial 
Restructuring on Recent Trends in Wage Inequality in the United 
States,'' American Economic Review, American Economic Association, vol. 
80(2).

    Card, David (1996) ``The Effect of Unions on the Structure of 
Wages: A Longitudinal Analysis'', Econometrica, Vol. 64, No. 4

    Cole, Harold and Ohanian, Lee; 2004, New Deal Policies and the 
Persistence of the Great Depression: A General Equilibrium Analysis, 
Journal of Political Economy, 2004.

    Hirsch, Barry (2008) ``Sluggish Institutions in a Dynamic World: 
Can Unions and Industrial Competition Coexist?'' Journal of Economic 
Perspectives, Vol. 22, Number 1

    Holmes, Thomas, and James Schmitz, 2010, ``Competition and 
Productivity: A Review of the Evidence'', Annual Review of Economics, 
Vol. 2

    Ohanian, Lee E. (2010), ``The Impact of the Employee Free Choice 
Act on the U.S. Economy'', Discussion Paper, American Enterprise 
Institute.

    Schmitz, James, (2005), ``What Determines Productivity? Lessons 
from the Dramatic Recovery of the U.S. and Canadian Iron Ore Industries 
Following Their Early 1980s Crisis'' Journal of Political Economy, Vol. 
113, No. 3
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Schatz. Thank you very much.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you all for being here today on a subject that 
Americans truly appreciate, I think, although often they don't 
look beyond the immediate forecast for the day to the longer 
term forecast, either for the weather forecasting capability or 
the weather itself.
    So let me begin. Mr. Gail, in your testimony--and I've been 
reading as well as listening to it--you make reference at 
various points to technology, the need to build new skills to 
use the technology. Is there technology available right now 
that the National Weather Service is not using, that it could 
be using, that would provide more accurate and reliable 
forecasts?
    Dr. Gail. There has been a lot of attention to that 
recently. The Sandy legislation put forth resources to help 
resolve some of those issues. Many of these are things that we 
as a community and the Weather Service in particular are 
directly aware of. So there is progress, particularly in the 
area of modeling. That's an area where we know that in some 
cases we have been falling behind the Europeans in particular. 
So resources have been put towards that and we are making 
substantial progress.
    The technology of delivering information is, as everybody 
knows, undergoing rapid evolution. There was discussion earlier 
of Twitter and other mechanisms for communicating information. 
That's an area that really requires really focused attention to 
make best use of that and to understand when it works well and 
when it doesn't work well. So those are real challenges for us 
as a community in general.
    Senator Blumenthal. Are there sources of information--I 
know in Connecticut, for example, a number of our academic 
institutions help to provide information on what's actually 
happening on the ground. Is that practice generally used around 
the country?
    Dr. Gail. There's a lot of work being done in the academic 
sector on these exact issues. Some of it is technological, some 
of it is sociological and communications science, to understand 
not only how to get information to people in the best manner, 
but how to deliver it in a form that's most useful.
    Senator Blumenthal. How do we attract the kinds of people--
you make reference to them--who have skills, who can develop 
these skills?
    Dr. Gail. I think we're seeing a time where this field is 
becoming very dynamic and we are beginning to attract people 
because they see the challenges and the interest in delivering 
weather information in a variety of ways, to a variety of end 
users, whether they're businesses or the public. So we see this 
in terms of applications being developed for mobile phones and 
a large number of applications that are being developed by 
people even outside what we would consider our traditional 
community, people coming in and saying: This is a really 
interesting thing to do.
    Senator Blumenthal. Let me ask you and any of the other 
folks here if they care to comment: do you think there is 
sufficient attention given to climate disruption, global 
warming, that area, in terms of the forecasting of weather?
    Dr. Gail. Well, let me. That obviously is a very tricky and 
deep question. Let me just add that I am speaking from my own 
personal perspective here rather than the perspective of the 
Committee. When you look at extreme events, extreme events are 
interesting to us irrespective of the source of climate change. 
We're seeing more and more sensitivity to extreme events. So I 
think paying attention at that level to extreme events and the 
climate underpinnings of extreme events is important no matter 
your particular perspective on climate change.
    Senator Blumenthal. Thank you.
    Anyone else care to comment?
    [No response.]
    Senator Blumenthal. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Schatz. Thank you, Senator Blumenthal.
    I have a question for Mr. Young. You talked about the 
fragile state of the situation with JPSS and that we were one 
failure from a gap which would have severe implications. Can 
you explain in sort of plain language what that means for 
someone in my home state or Senator Blumenthal's home state in 
terms of our ability to know what's happening, in terms of our 
visibility into weather events? What does that mean as a 
practical matter if we were to have a gap?
    Mr. Young. If we had a gap we would have----
    Senator Schatz. I think your microphone--thank you.
    Mr. Young. If we had a gap, there would be no afternoon 
polar-orbiting data available. No polar-orbiting data available 
means no long-range forecasts. So it fundamentally means that 
the ability to do a lot of the things that have been presented 
in terms of not only weather, but severe event forecasting, we 
won't have the ability to provide those data in a timely manner 
to execute appropriate warnings.
    Specifically, I think it has been referenced, but there was 
data denial study done for Sandy and polar-orbiting data were 
eliminated, and if polar-orbiting data were not part of the 
model it would have forecast that Sandy would have gone out to 
sea. So there would have been no warnings for New Jersey and 
New York and the small loss of life that took place obviously 
would not have been the result.
    Senator Schatz. Thank you, Mr. Young. That's a perfect 
example, easy for all of us laymen, lay people, to understand.
    I have a question about the efficacy of utilization of 
appropriated moneys. Obviously, we're very hopeful that we'll 
have a budget deal and soon after start to move forward with 
appropriations. I want to get the perspective of Dr. Gail and 
Mr. Myers very quickly, if you don't mind, on the efficacy of, 
say, a dollar spent in the communications, public education 
aspect of weather preparedness versus trying to spend another 
dollar on increasing accuracy, because I think that for the 
appropriators is going to be one of the tough questions to 
answer, is where are--if we are able to incrementally spend 
more dollars, where's the best place in this appropriation 
timeframe to focus?
    Mr. Myers.
    Mr. Myers. I'm a believer in the fact that the National 
Weather Service is primarily at least a science agency, and the 
quality of what they do is probably the most important thing. I 
know at AccuWeather we look upon accuracy as critical. If 
forecasts are not accurate, if warnings are not accurate, 
people will not act, no matter what the message, no matter what 
methodology you use to get the message out. An example with 
Sandy. If the data's not there, if the satellites aren't there, 
you won't even know that there's a danger.
    So I have some fundamental points of discussion that I 
constantly have with NOAA and the National Weather Service over 
where the money should be spent, especially in terms of social 
media activities that are going on. I understand the desire to 
do that. I also understand the cost to do that and the fact 
that it has to take money away from the essence of what that 
agency is about, which is putting out a quality warning that 
people can rely on. If you knew every warning was correct, you 
would act.
    Senator Schatz. Thank you.
    Dr. Gail?
    Dr. Gail. My personal perspective is that understanding how 
people use information and how it gets communicated to them is 
important. I believe the Weather Service should focus to some 
extent on that. Our committee did say very clearly that the 
Weather Service should focus first and foremost on those things 
that only they can do, and the modeling, major modeling, 
certainly falls within that category. So I would agree with Mr. 
Myers that a focus on core capabilities is primary. 
Communication is something that we all share across the 
enterprise. We all try to do that well.
    Senator Schatz. Thank you very much.
    I have a question for Mr. Hirn. It's actually a repeat of 
my first question for Dr. Uccellini, regarding the use of 
social media. You talked about it a little bit and I'm 
wondering what the perspective is of how social media is 
evolving in the work place and how you think it's going to help 
people to be prepared?
    Mr. Hirn. Well, I would note that you're going to need--
when you have a fully staffed office, this is something that 
can be done. There is--once you fully staff the Weather 
Service--and it's not fully staffed now to what it ideally 
should be or to what's necessary to consistently and reliably 
issue the forecasts and warnings. But the social media is not 
much of an additional, incremental cost. That's something that 
the employees have taken on on their own as an employee 
initiative in the forecast offices, that they have embraced 
doing.
    I think it's important to keep doing that. We want to make 
sure that--there's a lot of social media out there, some 
reliable, some not. We want to make sure that the information 
that's being conveyed on the social media is coming from the 
reliable source. The Weather Service is the official source for 
public warnings of severe weather. If the Weather Service is 
not doing that and somebody unreliable is doing that or things 
get tweeted and re-tweeted and people start guessing what it's 
going to be, the public's going to get confused.
    So I think it really is important to have the Weather 
Service be engaged there and have the social media outlet, and 
if you fully staff the offices I'm not sure where the 
additional cost comes in.
    Senator Schatz. Thank you, Mr. Hirn. I just want to say I 
agree that it's very unlikely to cause incremental additional 
costs unless you start hiring specific positions called social 
media manager, digital outreach, communications coordinator. 
But to the degree and extent that your NWSEO employees, 
National Weather Service professionals, have information, most 
of them are on the Internet, which means that they're going to 
be engaged in social media whether we like it or not. So the 
question is how do we just make sure that they do so 
responsibly and in a somewhat organized fashion to the extent 
that it's possible.
    I really want to thank all the testifiers for being so 
engaged in this critically important issue. The Commerce 
Committee and Senator Begich's subcommittee are very interested 
in this issue. As you can see from our membership when the 
hearing started, we are all passionate about weather. It is 
something that impacts all of our communities, both on a day to 
day quality of life basis, but also economically. So I 
appreciate your engagement and look forward to working with 
you.
    Thank you.
    [Whereupon, at 12:11 p.m., the hearing was adjourned.]
                            A P P E N D I X

                                            GeoOptics, Inc.
                                                  December 12, 2013
Hon. Mark Begich,
U.S. Senate,
Washington, DC.

Dear Senator Begich:

RE: Please Support--H.R. 2413--the Weather Forecasting Improvement Act 
            of 2013

    I am a 40 year Navy veteran (Vice Admiral. USN ret), then served as 
the Administrator of the National Oceanic and Atmospheric 
Administration (NOAA) from 2001-2007, and am currently CEO and Director 
of a satellite-based weather data company, GeoOptics. The Committee on 
Commerce, Science, and Transportation's Subcommittee on Oceans, 
Atmosphere, Fisheries, and Coast Guard will soon be considering H.R. 
2413 that emanates from a critical need to improve weather forecasting 
in the United States in response to severe weather events such as 
tornados and hurricanes, and other costly weather impacted events.
    As a former Administrator of NOAA, I strongly support a renewed 
emphasis on ensuring the necessary management policies and resources 
are directed toward improving our ability to forecast and warn in 
advance of severe weather events of all types from heat waves, floods, 
forest fires to hurricanes and tornados. The U.S. economy, national 
security, and daily business demand in a competitive world that the 
U.S. be the leader in these critical areas. We need to support a 
renewed emphasis on a balance of research, observations, data 
gathering, modeling, high performance computing and communications to 
protect our economy and our people.
    As the CEO of a satellite-based weather data company, I strongly 
support the provisions to require a commercial data buy component that 
will exert market influences to lower the current costs and development 
times resulting from the long practice of exclusive use of government 
developed, owned, and operated weather satellite systems. From my 
experiences as a DOD cost analyst, manager of the U.S. Navy program and 
budget, and NOAA executive, I am a strong advocate of competition to 
lower costs and improve value. After living with and studying the 
current weather satellite ``business'' model in government and the 
private sector, I am convinced that the gradual addition of a 
commercial data buy component can achieve what to date has been 
elusive--firm management control over weather satellite costs, 
schedules, and performance.
    Firm legislative direction to ensure an immediate place for 
commercial data buys of operational weather data will provide the 
opportunity to transition the current system to a more rational and 
logical path both for developing satellite technology and ensuring 
operational weather data continuity without the current ``theater'' 
that accompanies every new generation of weather satellites.
    With your support and consideration for H.R. 2413, this legislation 
can help NOAA save more lives; spur commercial investment in new 
technologies; and, bolster our economy by creating jobs and enhance our 
citizens' quality of life affected by severe weather.
    Thank you for your consideration.
            Sincerely yours,
                                Conrad C. Lautenbacher, Jr.
                                              VADM USN ret,
                                                    CEO & Director,
                                                        GeoOptics, Inc.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                         Dr. Louis W. Uccellini
    Question 1. Provided that the data are subjected to the same 
standards of quality, reliability, and timeliness, do you have a 
preference whether satellite data come from government satellites 
versus commercial satellites?
    Answer. As operational users, the National Weather Service (NWS) 
utilizes data from both government agencies as well as commercial 
vendors. The data must meet required quality, reliability, and 
timeliness standards.

    Question 2. I understand from your testimony that you used a new 
hurricane prediction model for the 2013 season. The 2013 Atlantic 
Hurricane Season was predicted to be an above average season with 13 to 
20 named storms and three to six major hurricanes. Yet, it ended as the 
sixth least active hurricane season since 1950. Can you explain this 
anomaly? What are you doing specifically to improve hurricane 
forecasting?
    Answer. The hurricane seasonal outlook you mention is a seasonal 
prediction effort, and includes many large atmospheric and oceanic 
variables, such as Pacific Ocean sea surface temperatures, Atlantic 
Ocean temperatures, and an overall prediction of the high level 
steering winds over the tropics. This information is used by our 
seasonal forecasters to predict the atmospheric characteristics that 
foster hurricane development in general, not individual hurricanes. Our 
forecasters did not anticipate the high level wind shear to persist 
over the Atlantic Ocean throughout the entire hurricane season, and 
this feature contributed to the reduced number of hurricanes in the 
Atlantic basin. While progress has been made in seasonal hurricane 
prediction over the past few years, additional research is necessary to 
improve the skill of these outlooks.
    NOAA's Hurricane Forecast Improvement Project (HFIP) is focused on 
the short term prediction of individual storms. The goal of HFIP is to 
improve hurricane track and intensity forecasts by 50 percent. The new 
HFIP-supported hurricane forecast model we are using predicts the track 
and intensity of the hurricanes and has shown significant improvement 
over previous models. Since the program began four years ago, we have 
achieved a 20 to 25 percent improvement in track prediction and 10 to 
20 percent improvement in intensity prediction and expect to see 
continued strong improvement for FY 2014. While funding for the program 
is reduced in FY 2015, we still expect to make continued, albeit 
smaller, progress in track and intensity predictions.

    Question 3. How have the labor relations at NWS impeded your 
efforts to make the agency work more efficiently?
    Answer. Executive Order 13522: ``Creating Labor-Management Forums 
to Improve Delivery of Government Services,'' issued in 2009, envisions 
a non-adversarial relationship between labor and management to reach 
consensus on common issues. E.O. 13522 prescribes using pre-decisional 
involvement and a non-adversarial forum that allows managers and 
employees to collaborate in delivering high-quality services to the 
public. As reported to the National Council on Federal Labor-Management 
Relations in May 2011, the Department of Commerce and the National 
Weather Service Employees Union (NWSEO) had success working together to 
improve efficiency, by saving money on travel expenses. However, the 
NWS and the NWSEO are still working together to realize the full 
benefits of pre-decisional involvement and interest-based bargaining.
    Historically, the relationship between NWS management and the NWSEO 
is strained. When unresolved, particularly contentious issues may come 
before a third party, such as an arbitrator or the Federal Labor 
Relations Authority, when there are allegations that the NWS has failed 
to meet its bargaining obligations under 5 U.S.C. chapter 71 and the 
NWS/NWSEO Collective Bargaining Agreement.
    But, since I have been the director of the NWS (February 2013), our 
leadership team has taken steps to improve our relationship and involve 
the NWSEO in all of our planning meetings and initial efforts. We are 
implementing the recommendations of the National Academy of Public 
Administration (NAPA) report, ``Forecast for the Future: Assuring the 
Capacity of the National Weather Service,'' to develop a process for 
change that is deliberate, involves NWSEO up front, and will ensure any 
proposed changes in our organization are successful and result in no 
degradation of services this Nation relies upon on a daily basis. Our 
plan is to involve NWSEO at every stage to evolve the agency following 
the direction outlined in the FY 2014 CJS report language.

    Question 4. In what areas has the Federal Labor Relations Authority 
required negotiations with the National Weather Service Employee 
Organization and, therefore, hampered the agency's ability to perform 
work effectively?
    Answer. The agency's obligation to negotiate with the NWSEO is 
found in 5 U.S.C. chapter 71, which the FLRA is responsible for 
administering. The Federal Labor Relations Authority (FLRA) may require 
negotiations if it determines that the NWS has violated 5 U.S.C. 
Sec. 7116(a)(5) by refusing to negotiate in good faith, as required by 
law or contract. The FLRA may also require the parties to negotiate 
upon request over specific proposed language where the FLRA determines 
in a negotiability proceeding under 5 CFR Part 2424 that the agency has 
a duty to bargain over that language. The FLRA typically does not 
hamper our ability to perform work effectively other than it may 
occasionally take a long time to reach a decision resolving a dispute 
involving an issue regarding negotiations. In this connection, delays 
may occur when the Authority component of the FLRA does not have a 
quorum and is unable to issues decisions. In regards to negotiating 
with NWSEO in general, the Collective Bargaining Agreement (CBA) 
between the NWS and NWSEO, became effective on October 25, 2001. Since 
that time several MOUs and associated addenda have been added to the 
CBA. The CBA was initially valid and in force for a period of three 
years from its effective date, and it is renewed automatically from 
year to year unless either party provides written notice of a desire to 
change. While the effectiveness of a negotiated agreement is not 
dependent on the age of an agreement, the ability to effect change 
could be based on the balance of management and employee rights within 
the cumulative agreement and its associated addenda. The NAPA study, 
``Forecast for the Future: Assuring the Capacity of the National 
Weather Service,'' recommended the NWS and NWSEO collaborate to reframe 
the relationship. Although renegotiating the October 2001 CBA may help 
to reframe the labor-management relationship, other key elements 
suggested in the NAPA study include reinvigorating the labor-management 
forum and involving NWSEO in pre-decisional discussions.

    Question 5. As we will hear from Dr. Gail, the Independent Review 
Team has recommended that the NWS evaluate its function and structure, 
seeking areas for improvement. What specific actions are you taking 
with the NWS workforce to implement this recommendation?
    Answer. (1) As part of the FY 2015 President's Budget, we requested 
authorization to restructure our budget lines or Programs, Projects, or 
Activities (PPAs) to align with our functions in the NWS--(Facilities; 
Observations; Central Processing; Dissemination; Science and Technology 
Integration; and Analyze, Forecast and Support). In parallel, NWS is 
exploring options to reorganize its headquarters to align with the new 
budget structure. Furthermore, we are developing a Budget Governance 
document for the NWS leadership to follow in preparing the budget and 
execution according to the Congressional appropriations. Once complete, 
our budget process will be transparent and far more effective towards 
executing our mission.
    (2) We are developing a services baseline in our field offices to 
ensure any changes will not lead to degradation of service. Moreover, 
we have plans to conduct an agency-wide staffing analysis to ensure 
resources are applied strategically and optimally to meet our mission.
    (3) We are also developing a process for change to plan, execute, 
and assess any significant changes to NWS services or operations. It is 
an open process and actively solicits input from our users--ranging 
from the emergency management community to Federal partners, and 
Congress, and includes university users, the private sector, and our 
employees.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Dan Coats to 
                         Dr. Louis W. Uccellini
    Question. The IRT report used some fairly strong words with regards 
to the state of NOAA's weather satellite program and the unacceptable 
gap in coverage we face. However, it did suggest we could help right 
those problems with investment in low cost small satellites without 
some of the costly sensors on our current polar systems. Would the NWS 
benefit from the data that could be provided by the sounders flown on 
the gap filler mission suggested by the IRT?
    Answer. NOAA is taking steps to reduce the likelihood of a gap in 
coverage in the afternoon polar orbit. A gap-filler mission could 
further reduce the probability that a gap were to occur between planned 
JPSS missions; however, a gap filler mission is not the only way to 
ensure robustness. NOAA is examining all options, including a gap 
filler, and plans to make a recommendation with the FY16 President's 
Budget. NOAA has developed a contingency plan to help mitigate a gap if 
it were to occur and is taking steps to reduce the risk of a gap 
occurring. There are several projects that were funded through the 2013 
Disaster Relief Appropriations Act (Sandy Supplemental) that will bring 
in additional non-satellite observations, enhance data assimilation 
techniques, and improve national numerical weather prediction 
capabilities.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                            William B. Gail
    Question. Do you agree that some of the listed ``achievements'' by 
the National Weather Service Employees Organization directly 
contradicts your specific recommendations for the NWS to evaluate its 
function and structure in a way that would make the agency and its 
operations more efficient?
    Answer. I do not agree that the listed ``achievements'' by the 
National Weather Service Employees Organization (NWSEO) directly 
contradicts the specific recommendations of the NRC ``Second to None'' 
report for the NWS to evaluate its function and structure in a way that 
would make the agency and its operations more efficient. The 
``achievements'' describe how individual initiative has proved valuable 
to the NWS mission. In several of the cases presented, this initiative 
was rewarded with public endorsement by NWS management.
    The ``Second to None'' reported noted that NWS field offices are 
staffed for fair weather, and can be spread thin when responding to 
severe weather events. It recommended that a more agile workforce--with 
regard to both individual skills and workforce structure--is needed for 
the future. Determining the nature of this agility and implementing it 
represents a challenge for NWS and NWSEO. Yet increased agility in no 
way undermines the ongoing need for human staff. In contrast, such 
agility can be exemplified by reliance on individual initiative to 
develop improved NWS services. NWSEO's list of ``achievements'' is 
consistent with the agility message of the ``Second to None'' report, 
not contradictory.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                            A. Thomas Young
    Question. Did the team consider commercial options to help mitigate 
gaps in polar-orbiting weather satellites? If not, why not?
    Answer. The IRT did discuss and consider commercial options to help 
mitigate data gaps from polar-orbiting weather satellites. And while 
the IRT is supportive of the overall growth of commercial satellite 
systems, the IRT believes there are very limited, if any, viable 
commercial options to address the data gap in the 2017 era.
    First, analysis by the National Weather Service (NWS) has shown 
that the two atmospheric observation instruments that have the largest 
impact on weather prediction error, are the microwave sounder and the 
infrared interferometer, respectively. These are the key sensors that 
are needed for the gap. The IRT is not aware of any commercial vendor 
that can produce either of the sensors, especially in time to address a 
gap in 2017. [Of the handful of current commercial vendors that plan to 
provide atmospheric observation data, two are planning on providing GPS 
Radio Occultation data, and the other is providing hyperspectral 
sounder data collected from geosynchronous orbit.]
    Second, additional analysis by NWS has shown that the atmospheric 
observations must be of high quality with low noise and sufficient 
resolution. For example, attempting to fill the gap with an older 
generation microwave sounder (i.e., the DMSP SSMIS) actually degrades 
the weather forecast. Other than the ATMS and the CrIS which are 
already under contract for JPSS1, the IRT is not aware of any other 
high fidelity instruments that can be developed and procured in time to 
support a potential gap in 2017.
    For these reasons, the IRT recommended to immediately procure at 
least three of the ATMS and the CrIS instruments. Block buys not only 
make the unit cost less expensive, but also can reduce schedule risk by 
having available spares should a component or a board fail in 
development or test. Once these instruments have been acquired, there 
may be several options to fly them in space--as hosted payloads, 
perhaps on a commercial satellite. However, due to the time criticality 
and the potential impact of a data gap, the IRT still recommends 
investigating the option to host these instruments (ATMS and CrIS) on a 
free flyer.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Dan Coats to 
                            A. Thomas Young
    The 2013 IRT report notes that with the cancellation of NPOESS and 
the DOD's subsequent termination of DWSS, today there is an 
``unacceptably high risk'' of a gap in U.S. polar weather coverage. 
While the IRT report does mostly look at civil programs, one way to 
increase the robustness of both civil and DOD weather imagery would be 
to leverage the low cost of hosting imagery sensors in the Canadian 
Polar Communications and Weather satellites.

    Question 1. If DOD were to take action and fund weather imagery in 
FY15, could this provide spinoff benefit to NOAA and our observations?
    Answer. It is possible that if DOD were to take action and obtain 
additional weather data, that the data could provide benefits to NOAA 
and the NWS. These possible benefits are why the IRT recommended that 
NOAA have discussions with the Air Force, who was in the process of 
conducting an Analysis of Alternatives (AoA) study for their polar 
weather data needs. It is possible that some of these AoA concepts 
might be available before 2017, particularly to guard against a data 
gap from a premature S-NPP failure. Historically, there have been 
mutually beneficial arrangements and data sharing between the DOD and 
NOAA. As noted in Question 1, to mitigate the potential gap in polar 
data, what is critically needed are high quality microwave sounder and 
infrared interferometric (ATMS and CrIS level) data.

    Question 2. Did the IRT look at the PCW option in particular?
    Answer. The IRT did not look at Canada's Polar Communication and 
Weather (PCW) mission. However, the PCW mission is currently at an 
early stage of development, with an estimated procurement start in 
November 2016 and will not be available for gap mitigation in the time-
frame suggested in the report (Mid FY16--Mid FY22). The IRT continues 
to recommend that emphasis should be placed on a short-term gap filler.
    From a longer term perspective, it is possible that PCW could help 
bolster the robustness of the JPSS program. However, at this time the 
IRT cannot assess the suitability of the PCW mission orbit or data for 
NOAA's weather data needs.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                            Barry Lee Myers
    Question 1. Are there any legal or regulatory issues that impede 
government use of private sector data for forecasting?
    Executive Summary Answer. No, but the law requires the private 
sector data must also be made available to the public in real time and 
the method by which it is incorporated into the weather forecasts must 
be transparent and verifiable. From a practical perspective, to do 
otherwise, the structure of the whole American Weather Enterprise will 
be seriously and negatively impacted.
    Full Answer. In 1994, I was asked to offer thoughts to the U.N.'s 
World Meteorological Organization about weather information and its 
use. What I said was, in part:

  <bullet> Viewed broadly, weather is a world-wide resource.

  <bullet> In gathering weather information, time is of the essence.

  <bullet> In analyzing it, and in distributing the results of that 
        analysis of weather observations, time is critical.

  <bullet> And, in getting this analysis into the hands of those who 
        need it to protect life and property, not only is time 
        critical, but the very nature of the message and its 
        understandability by those receiving it, is paramount.

    In the United States, the National Weather Service has a specific 
role to play and America's Weather Industry, and the academic and 
research communities, each have important and complementary roles to 
play. It is a unique environment and special partnership for the 
benefit of the public. Together, it is known as the American Weather 
Enterprise, with a capital ``E.''
    The laws of the United States do not hamper or restrict the nature 
of the private sector. In fact, unlike many other countries, they 
encourage private sector and especially weather industry activities.
    The United States Government collects, and disseminates data from 
local and remote sensor platforms, public and private, runs forecast 
models, and prepares and makes special warnings and also general public 
forecasts.
    Weather companies and academic and research institutions also 
collect and disseminate data, and make weather forecasts, some specific 
and tailored and some general public forecasts.
    Weather companies also develop communication methods designed to 
move weather information as quickly and as understandably as possible 
to the end user.
    In fact, the government and the weather industry work together, to 
carry out these functions.
    This joint system of public and private cooperation helps to save 
countless lives and prevent hundreds of millions of dollars in property 
damage per year in the United States--in fact it has a name--The 
Public/Private Partnership.
    This cooperative effort, better than anywhere else on earth, is 
dedicated to the proposition that weather information is (1) highly 
time sensitive and (2) a perishable scientific commodity, which, if 
utilized quickly and communicated to people who are in a position to 
act, effects real economic efficiencies, saves lives, and, results in 
benefit to the Nation.
    Another guiding principle is that all scientists should be free to 
access scientific data so that they may render timely viewpoints and 
opinions on what future weather may be--that is create forecasts and 
warnings.
    This freedom of access to scientific data and its free use for the 
benefit of society is typically American.
    In the United States this ``free and open access'' is founded upon 
principles having to do with free speech and freedom of information.
    These comments seem self-evident to many. In making these remarks 
to the World Meteorological Organization, almost 20 years ago, these 
comments did not seem self-evident to many of the hundreds in the 
audience from around the world.
    The weather industry in the United States was born of the concept 
of ``free and open'' availability of weather information.
    It has led the world as a model of growing success, transitioning 
from a government agency ``doing it all,'' at the end of World War II, 
to massive infusion of weather into every American's life through 
companies like The Weather Channel and AccuWeather--and a growing 
global presence by American companies as the preferred suppliers of 
weather to the world.
    It has been a transition of work from the government to private 
industry involving no letting of government contracts, no industry 
subsidies, and no cost to the government.
    In fact a tax paying industry creating perhaps tens of thousands of 
jobs--has been born.
    It truly has built on a concept that if information is free for 
all, we should leave the rest to ingenious, innovative, and 
entrepreneurs, who would find ways to make a viable industry.
    By the end of 2013, figures suggest that American Weather Companies 
will have weather apps and access portals on or accessible from perhaps 
two billion digital devices worldwide.
    People who had no weather forecast of merit for 25 minutes ahead, 
now have forecasts, on an hour by hour basis, for 25 days ahead on 
AccuWeather.com.
    People who had no warnings for severe and deadly weather, now can 
use at a device that looks like something they would have used to ask 
``Scotty beam me up'' that contains more information than Star Trek 
creators ever imagined.
    These comments seem self-evident to many today.
    In 1994 if I had told anyone that by 2008 a private weather company 
in Pennsylvania (AccuWeather) would tell a manufacturing facility in 
Mississippi (Caterpillar), a thousand miles away, 21 minutes in 
advance, that a severe tornado was heading right at it and they needed 
to shelter their people--and that the private weather warning would 
save 88 lives in a single electronic message--it would not have been 
believed.
    In 2005 the U.S. Congress Bi-partisan Committee on the review of 
Hurricane Katrina cited AccuWeather saying ``AccuWeather issued a 
forecast predicting the target of Katrina's landfall nearly 12 hours 
before the NHC [National Hurricane Center] issued its first warning, 
and argued the extra time could have aided evacuation of the region.''
    I am not telling you this to place AccuWeather in the spotlight. My 
friends at The Weather Channel and at many other non-governmental 
organizations have this and other important capabilities.
    Everywhere within the American Weather Enterprise there are 
meteorologists, scientists, researchers, and professionals of all kinds 
of equal merit.
    But the government is uniquely positioned to ensure and enhance the 
provision of weather data and the issuance of warnings for the public 
aimed at the protection of life and property.
    These activities also require research and development, transfer of 
knowledge, technologies and applications to other government agencies 
and the private sector.
    And this is needed with regard to advanced radar technologies, 
aerial observing systems, high performance computing networks, advanced 
forecast modeling and other government-appropriate activities.
    We all need to protect this core functionality and the research 
that keeps the entire American weather enterprise ahead of the curve.
    We also need to be cognizant of the fact that private weather data 
is emerging from private sources; in the weather field, if these data 
are restricted by taxpayer money paying for critical scientific data 
that needs to be kept secret, it will degrade the entire weather effort 
of the Nation.
Free and Open Access Drives America's Unique Success
    So indulge me for a few minutes to point out that if we want to 
successfully approach the present problems the weather enterprise may 
face we should understand that the huge success we have had, did not 
occur serendipitously. It was well planned, thought through, and took 
much hard work in all sectors of the weather enterprise over many 
years.
    In 1980 the Paperwork Reduction Act, sponsored in part by 
Representative William Klinger (R-PA) was passed. The law stated its 
purpose was, among other things to:
    Ensure the greatest possible public benefit from information 
created, collected, maintained, used, shared, and disseminated by or 
for the Federal Government.
    It also said one of its purposes was to provide for the 
dissemination of public information on a timely basis, on equitable 
terms, and in a manner that promotes the utility of the information to 
the public and makes effective use of information technology.
    In follow up to the law, the Office of Management and Budget issued 
Circular A-130, which was updated over the following decades.
    The Circular is lengthy, but states in part:

  <bullet> The free flow of information between the government and the 
        public is essential to a democratic society. It requires 
        dissemination of information on equitable and timely terms. 
        [Emphasis added]

  <bullet> It states the government must avoid establishing, or 
        permitting others to establish on their behalf, exclusive, 
        restricted, or other distribution arrangements that interfere 
        with the availability of information dissemination on a timely 
        or equitable basis. [Emphasis added]

  <bullet> It declares agencies shall avoid establishing restrictions 
        or regulations, including the charging of fees or royalties, on 
        the re-use, resale, or re-dissemination of Federal information, 
        setting user charges at a level only sufficient to recover the 
        cost of dissemination, but no higher.

    Under Section 105 of the Copyright Act of the United States, in 
general, government information is not entitled to domestic copyright 
protection declaring it free--domestically.
    The 1991 NWS Public Private Partnership policy was an early 
cooperative attempt to implement concepts from the Paperwork Reduction 
Act, Circular A-130 and issues relating to the growing weather 
industry.
    About ten years later the National Research Council was requested 
by the National weather Service to undertake a study of the status of 
the enterprise and the Fair Weather Report was issued in 2003.
    This led to the AMS Commission on Weather and Climate Enterprise.
    And, the Fair Weather Report led to a new partnership policy issued 
by NOAA governing its relationship with America's weather industry.
    In the main policy section, the first sentence says: ``NOAA will 
adhere to the policies contained in the Paperwork Reduction Act, OMB 
Circular A-130 and other relevant laws.''
    The second sentence says: ``These policies are based on the premise 
that government information is a valuable national resource, and the 
benefits to society are maximized when government information is 
available in a timely and equitable manner to all.''
    It goes on to endorse ``Open and unrestricted access.''
    And further that NOAA will promote the open and unrestricted 
exchange of environmental information worldwide.
    NOAA also states it will avoid duplication and competition in areas 
not related to the NOAA mission.
    So today's policies trace their origins to the core nature of the 
republic and critical pieces of Federal legislation and rules long a 
part of the fabric of the country's legal structure.
    Building on this, NOAA and NWS have developed formal and internal 
directives defining what they will do and not do and specifically 
stating where government personal will defer to the America's weather 
industry.
    Even the Weather Ready Nation program now specifically endorses the 
role of America's weather industry and states that the requirements and 
activities of Weather Ready Nation participants may be fulfilled 
through arrangements with America's weather industry.
    And, the Open Data Executive Order signed by President Obama just 
this month on May 9, 2013 stated:

        ``For example, decades ago, the Federal Government made both 
        weather data and the Global Positioning System (GPS) freely 
        available to anyone. Since then, American entrepreneurs and 
        innovators have used these resources to create navigation 
        systems, weather newscasts and warning systems, location-based 
        applications, precision farming tools, and much more.''

    Question 2. How can we better leverage resources in the private 
sector, particularly as the threat of data gaps increases?
    Executive Summary Answer. Data from the private sector is available 
to both the government and the American Weather Industry and others. 
The effect of government licensing such data under licensing 
arrangements that makes the data available in real time as part of the 
data flow from the government to the public will guarantee the 
suppliers of a floor which will encourage investing in new data 
sources. Experience suggests such arrangements do little to impede 
private companies from also securing license for the data source 
originator because by direct access nano-seconds are saved and such 
speed is a competitive and lifesaving effect. Data wants to be free and 
it will leak out and artificial markets damages the flow of data where 
it is needed. Supporting data providers in restricting data, costs 
lives. We see various models at present in the United States including 
in the lightening field, in the agricultural field, and emerging in the 
launching of satellites (interestingly some of these satellite 
companies appear to agree with this model).
    Full Answer: See Full Answer to Question 1. for more background.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                         Lee E. Ohanian, Ph.D.
    Question. You point out several areas where the priorities of the 
National Weather Service Employees Organization often contradict direct 
measures we could take to make the National Weather Service more 
efficient. How can we better address these contradictions?
    Answer. Achieving a more efficient relationship between the 
National Weather Service (NWS) and the National Weather Service 
Employees Organization (NWSEO) requires aligning the incentives of the 
NWS and NWSEO to achieve more efficient work rules and deployment of 
workers, and requires benchmarking compensation levels to private 
sector counterparts.
    The NWSEO identifies the following compensation and work rule 
changes on their website (www.nwseo.org), all of which raise questions 
regarding the impact of these changes on the efficiency and cost of the 
NWS:

  1.  Saving the CWSUs (center weather station unit to forecast to FAA) 
        from consolidation--a culmination of a five year lobbying 
        effort by NWSEO to preserve both aviation safety and NWS 
        employee jobs. NWSEO spent over $200,000 in this lobbying 
        effort and obtained the support of the Senate Commerce 
        Committee, the House Science Committee and the House and Senate 
        Commerce, Justice and Science Appropriations Subcommittees

  2.  Securing back pay for overtime for nearly 200 NWS employees. 
        Securing FLSA (fair labor standards act) Non-Exempt status of 
        an additional 165 NWS employees. The NWS has agreed to pay two 
        years' lost overtime wages and liquidated damages for those 
        employees, as well.

  3.  Winning an appeal to bargain to increase staffing at Anchorage 
        WFO (national weather forecast service office) by 10 
        positions--this directs the National Weather Service to bargain 
        with NWSEO over a proposal that would increase staffing at the 
        Anchorage WFO by ten positions.

  4.  Securing special projects designed to increase aviation safety, 
        which include increased NWS personnel at the CWSU and WFOs in 
        New York City, Atlanta, and Chicago.

  5.  NWSEO secured an agreement that upgrades to a GS-8 every 
        Administrative Support Assistant at field offices around the 
        country. The GS-8 upgrade includes approximately one million 
        dollars in extra pay and benefits to the lowest paid NWS 
        employees each and every year from now on.
Compensation
    In terms of insuring that compensation levels are competitive, the 
NWS should routinely gather data on pay and fringe benefits from the 
private weather forecasting services and from other employers of 
meteorologists and weather-related occupations for comparable jobs. 
Some of these data are available from the Bureau of Labor Statistics, 
which publishes data on pay for both private and public sector weather 
forecasters on ``Occupational Employment Statistics'' website: http://
www.bls.gov/oes/current/oes192021.htm.
    This website does not, however, include fringe benefits, which is 
important because benefits may be greater in the public sector. 
Moreover, any compensation comparison should try to account for 
differences in job security, which may be higher in the public sector. 
If this is not being done currently, it should be a high priority item.
Work Rules and Deployment of Labor
    Work rules and the deployment of labor and of other resources at 
the NWS must achieve a higher level of efficiency. Ideally, the NWS and 
the NWSEO should work cooperatively to achieve a common set of goals 
aimed at improving efficiency and productivity, and maximizing the 
value of the NWS to its main users. This cooperative approach is 
becoming more common in the private sector, as increased global 
competition is making achieving high productivity much more important 
than in the past.
    In the public sector, this is more difficult to achieve because 
there is so much less competition and the users of public sector 
services often do not pay user fees. A top priority for the NWS and the 
NWSEO is to work cooperatively to improve work rules and in particular 
identify changes at CWSUs and any other NWS offices that can improve 
productivity.
    Note that increasing productivity will in some cases go against the 
NWSEOs previous efforts to save jobs and to save NWS offices. To deal 
with this tension, cost-benefit analyses should be used to determine 
the economic viability of NWS offices. If the NWS identifies a 
particular office as not providing sufficient value, then the NWSEO 
should provide analysis that can demonstrate how to improve efficiency 
and value in order to enhance the economic viability of an office. 
Saving NWS offices or jobs must be justified on the basis of economic 
value in terms of the benefits must exceed the costs of providing the 
services.
Summary
    In summary, the NWS needs to routinely compare compensation to peer 
organizations in order to insure that NWS compensation is justified, 
and the NWS and NWSEO need to jointly acknowledge the fact that work 
rules and the number of workers, and the location of workers, must be 
guided by the principle of productivity and economic viability. The 
guiding principle is that NWS jobs and NWS offices must be justifiable 
on a cost-benefit basis. More broadly, the NWSEO must recognize that 
saving jobs and weather offices cannot be done just to benefit NWSEO 
members, but rather, must enhance productivity and the cost efficiency 
of providing NWS services.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
